<html>
<title> - SYRIA AFTER GENEVA: NEXT STEPS FOR U.S. POLICY</title>
<body><pre>[Senate Hearing 113-629]
[From the U.S. Government Publishing Office]



                                                 S. Hrg. 113-629
                                                 

                          SYRIA AFTER GENEVA: 
                       NEXT STEPS FOR U.S. POLICY

=================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 26, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                                ______
                                      
                    U.S. GOVERNMENT PUBLISHING OFFICE 

94-280 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          

                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     3
Countryman, Hon. Thomas M., Assistant Secretary for International 
  Security and Nonproliferation, U.S. Department of State, 
  Washington, DC.................................................    11
    Prepared statement...........................................    11
    Responses Of Assistant Secretary Thomas Countryman To 
      Questions Submitted by Senator Benjamin L. Cardin..........    74
Egeland, Jan, secretary general, Norwegian Refugee Council, Oslo, 
  Norway.........................................................    41
    Prepared statement...........................................    42
Kilcullen, Dr. David J., chairman and founder, Caerus Associates, 
  Washington, DC.................................................    29
    Prepared statement...........................................    31
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     1
Nasr, Dr. Vali, dean, Johns Hopkins School of Advanced 
  International Studies, Washington, DC..........................    37
    Prepared statement...........................................    39
Patterson, Hon. Anne, Assistant Secretary of State for Near 
  Eastern Affairs, U.S. Department of State, Washington, DC......     4
    Prepared statement...........................................     6
    Responses of Ambassador Anne Patterson to Questions Submitted 
      by Senator Robert Menendez.................................    62
    Responses of Ambassador Anne Patterson to Questions Submitted 
      by Senator Benjamin L. Cardin..............................    72


              Additional Material Submitted for the Record

Letter Submitted by Syrian Opposition Coalition President Ahmad 
  Jarba..........................................................    75
Statement Submitted by Save the Children.........................    82
Statement Submitted by Andrea Koppel, vice president, Global 
  Engagement and Policy, MercyCorps..............................    83
Statement Submitted by Dr. Carolyn Y. Woo, president and CEO, 
  Catholic Relief Services.......................................    85
Statement Submitted by The Coalition for a Democratic Syria......    87

                                 (iii)

  

 
                          SYRIA AFTER GENEVA: 
                       NEXT STEPS FOR U.S. POLICY

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:40 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Coons, Murphy, Kaine, Corker, 
and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good afternoon.
    We are here today with a distinguished panel of experts to 
hear their views and express our concerns about what Congress 
can do about Syria after Geneva.
    At the moment, there is clearly a stalemate at the 
political level. The Geneva II process failed to achieve any 
forward momentum and fell far short of the goal to agree on a 
transitional governing body. The Syrian opposition delegation 
went to Geneva ready to work responsibly on behalf of the 
Syrian people and Assad's delegation demonstrated their 
contempt for international efforts to mediate an end to the 
violence and preserve what is left of Syria.
    If there was any doubt about the true character of this 
regime, it was brought into sharp focus when Assad went after 
family members of the opposition following Geneva. Meanwhile, 
the barrel bombs continue to drop. The starvation and torture 
campaign went on unabated, even while the delegations were 
sitting at the negotiating table.
    Assad has shown that he is willing to fight to the last 
Syrian.
    Meanwhile, the international community seems paralyzed on 
what to do next. This hearing is about exactly that. What is 
next in Syria? And I hope to explore with our panelists new 
thinking, new options, to hear some creative new ideas that 
answer what is next and that can help determine what additional 
role Congress can play.
    The record for this committee for empowering the moderate 
Syrian opposition and ensuring that a credible military threat 
is on the table has been clear for some time.
    The question before us last week was how to break the 
stalemate on the ground. With recent regime advances, the 
question may now be how to reverse their momentum and shore up 
opposition forces.
    Our partners in the Syrian Military Council are now 
fighting a two-front war, one against al-Qaeda affiliates and 
extremists who would impose Sharia law, the other against Assad 
and his security forces that remain loyal to him, Lebanese 
Hezbollah and Iraqi Shia militias trained in Iran with Iranian 
equipment and funding, military equipment, and international 
protection supplied by Russia and direct guidance training and 
fighters provided by Iran.
    In conclusion, I would note that on Monday, U.N. Security 
Council General Ban Ki Moon reported to the U.N. Security 
Council on Resolution 2139 that named areas in Syria where the 
siege must be lifted. Predictably Assad did not meet the 
demands of the unanimous U.N. Security Council resolution. 
Hospitals, schools, and other civilian areas are still 
militarized. Areas are blocked from humanitarian aid and the 
barrel bombs are still falling.
    We need to insist on accountability and make it clear that 
there are consequences for ignoring the U.N. Security Council. 
Ultimately, the longer the war continues the fewer options we 
will have to end the horrific level of violence and the 
humanitarian nightmare. The loss of an entire generation of 
Syrian children, the collapse of a society that has given 
tremendous gifts to the world--this is not a legacy that anyone 
wants to live with.
    Clearly the stakes are high and growing higher every day. 
We need concerted, decisive U.S. leadership. The fact is we 
needed it 2 years ago. We needed it yesterday and we need it 
today.
    Before I recognize Senator Corker, I received a letter that 
both he and I received from the Syrian Opposition Coalition 
President Ahmad Jarba. Mr. Jarba's message is timely and 
meaningful. And without objection, I will add it to the record.

    [The letter referred to can be found on page 75.]

    The Chairman. In particular, I know Mr. Jarba's commitment 
to partnering with us on a long-term strategic plan for 
supporting the moderate opposition and the Syrian Opposition 
Council's enduring commitment to a political solution, 
countering terrorism, and the U.N. Security Council resolutions 
2118 and 2139.
    So we support the struggle for a post-Assad Syria that 
represents all Syrians.
    Also, I believe that there are some individuals who are 
here from the Syrian Opposition in attendance at today's 
hearing: Dr. Najib Ghadbian, the Special Representative to the 
United States for the National Coalition of Syrian Revolution 
and Opposition Forces; Ms. Rima Fleihan, a member of the 
opposition's delegation negotiating team in Geneva; Mr. Qusai 
Zakarya, a survivor of Assad's August 2013 chemical weapons 
attack and an influential youth activist working every day to 
make sure the world does not lose sight of the suffering of the 
Syrian people. We welcome you to the hearing.
    And now I would like to recognize the distinguished ranking 
member for his remarks. Senator Corker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, for having this 
hearing, and I want to thank the witnesses for their service to 
our country and apologize for the five votes that we are going 
to have during this hearing.
    This is our fourth hearing on Syria since the committee 
voted 15-3 to jump-start a comprehensive Syria strategy last 
May, including authorizing meaningful support to the moderate 
opposition and imposing sanctions on those who support Assad. 
Each of these hearings has had a clear, consistent theme. U.S. 
policy has completely failed to shift the balance of power, 
improve the humanitarian situation, or achieve the President's 
stated goal of removing Assad. In fact, I would argue that 
United States policy in Syria has achieved the exact opposite 
by making promises of support that were never fulfilled, and 
that has occurred and we know that. We have allowed Assad to 
solidify his position, embolden his external supporters, and 
undermine the moderate opposition.
    And in our last hearing on Syria, we heard that this is a 
civil war. Now this civil war threatens regional stability and 
has allowed terrorists to control more strategic territory in 
the heart of the Arab world than they did prior to 9/11.
    Faced with this failure, the administration is now required 
by law to conduct a comprehensive interagency strategy in order 
to use the funding authorities laid out in the appropriations 
bill that passed in January. I look forward to seeing the 
results of this review, but I am not confident it will convince 
the President who appears to fear provoking Russia and Iran and 
is not committed to changing the course of the conflict in any 
real way. And I hope the testimony today will shed light on the 
Russian-Iranian situation. We will, instead, continue along the 
current course in Syria, which leads us to a disaster, to quote 
the Director of National Intelligence.
    So while it is important for this committee to highlight 
the failure in this administration's Syria policy, today I hope 
we can move beyond this. Today I hope we can use this hearing 
to generate new policy ideas on Syria, creative alternative 
legislative proposals for Congress to propose that will move 
United States policy and, by extension, the future of Syria in 
a better direction.
    And again I thank you for your testimony.
    The Chairman. Thank you, Senator Corker.
    Our first panel. We are pleased to welcome Assistant 
Secretary of State for Near Eastern Affairs Anne Patterson who 
knows the region extremely well from her long service, and 
Assistant Secretary of State for International Security and 
Nonproliferation Tom Countryman.
    Let me remind you that both of your statements will be 
fully included in the record, without objection.
    I would ask you to summarize your statements in about 5 
minutes or so, so we can have a full discussion. For the 
purposes of your knowledge, we have four more votes that are 
pending. So my hope is to get your testimony in and then recess 
until the end of those four votes so we can have a continuum of 
discussion.
    With that, Madam Secretary, we will recognize you first.

STATEMENT OF HON. ANNE PATTERSON, ASSISTANT SECRETARY OF STATE 
FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Patterson. Thank you, Mr. Chairman, Ranking 
Member Corker, for inviting me here today with Tom Countryman.
    I am aware that members of this committee are not satisfied 
with our progress to date. Neither are we. The administration 
appreciates the concern and support of this committee, most 
recently expressed in your March 14 letter.
    Today I will supplement testimony provided by Deputy 
Secretary Burns on March 6, and I have provided a full 
statement for the record.
    The popular demands for reform sweeping the Middle East 
began 3 years ago in Syria's peaceful protests. The Assad 
regime's response to these demands has torn the nation apart. 
More than 146,000 people have been killed since the unrest and 
violence began; 2.5 million people have sought refuge in 
neighboring countries. Inside Syria, 6.5 million are displaced, 
and over 9 million in need of humanitarian assistance.
    The situation on the ground is constantly in flux. Regime 
troops get critical battle support from Hezbollah and the 
Iranian Revolutionary Guard. They have Iranian and Russian 
weapons, and they resort to barrel bombs or starvation to 
terrorize civilians.
    But peace will not come to Syria from a military victory, 
only from a negotiated political settlement.
    The conflict has attracted experienced foreign fighters who 
are drawn to the ungoverned regions left by the deterioration 
of the Assad regime. ODNI staff estimates there are 23,000 
violent extremist fighters in Syria, including more than 7,000 
foreign fighters. The al-Qaeda-linked Nusra Front and the 
Islamic State of Iraq and the Levant are the largest groups. 
They offer weapons and money to Syrian men who oppose the 
regime but who might not otherwise be drawn to their ranks.
    Mr. Chairman, we are reviewing our policy and identifying 
priorities for coordinated action, and I would like to share 
some of those with you today.
    In Pakistan, we saw the dangers of ungoverned areas that 
become terrorist safe havens and how difficult it is to end 
them. A top priority is preventing the establishment of a 
permanent terrorist safe haven in Syria. In coordination with 
allies and partners, we are organizing to address the extremist 
fighters in Syria and we are working to cut their sources of 
funding and recruits.
    We are also working to strengthen the moderate Syrian 
opposition both inside and outside of Syria because they face a 
two-front war against both the Assad regime and the violent 
extremists.
    Mr. Chairman, members of this committee have been rightly 
concerned about the pace and effectiveness of support for the 
civilian opposition. This has been a challenge since we do not 
have a direct U.S. Government presence inside the country, as 
well as control of many border posts by al-Qaeda-linked groups 
or their offshoots. Our strategy has been to use $260 million 
in nonlethal assistance to link the Syrian Coalition to 
councils and NGOs inside the country, helping to unify and 
strengthen the opposition. Over half of that assistance has 
been delivered.
    Based on our experience over the past year, we have now 
begun refocusing by directly channeling resources to local 
governments and civil society groups, as well as the SOC, and 
to trusted commanders, as well the Supreme Military Council. We 
are focusing on helping communities maintain basic public 
services. This strategy allows localities to sustain local 
institutions that will also be critical to building a post-
Assad Syria.
    In towns and cities under opposition control, we are 
beginning to provide cash grants to pay police and teachers. We 
continue to train local councils and civil society 
organizations in administration and we are providing heavy 
equipment.
    As part of the $260 million in overall nonlethal 
assistance, we are providing $80 million in support to the SMC 
on a very fluid battlefield. Nonlethal assistance requirements 
are identified by commanders and include food rations, medical 
kits, as well as communications and other personal gear.
    In December, an SMC warehouse in Syria containing United 
States supplies was overrun by a faction of extremist fighters. 
We suspended assistance until they reestablished secure supply 
routes and storage facilities. By February, when the SMC 
regained control of its facility, we resumed supplies, this 
time directly to commanders. We will do more in coming months 
to support the Syrian civilian and armed opposition and civil 
society groups.
    We are supporting Syria's neighbors to contain the 
conflict. We are providing humanitarian assistance and other 
support to Lebanon to address border and internal security 
issues. We are working with Turkey and Jordan on border 
security, counterterrorism, and humanitarian concerns. We are 
surging security assistance to help Iraq combat ISIL 
incursions, and we are coordinating with Israel to monitor 
threats and support Israel's right to defend itself from 
spillover violence.
    The international community is also working to alleviate 
the suffering caused by this crisis. The Government of Kuwait 
and the United Nations cohosted the most recent donor 
conference in January which resulted in $2.5 billion in new 
pledges. The United States is the largest single donor, 
providing more than $1.7 billion in humanitarian assistance. 
Our challenge is the Assad regime's policy of deliberately 
blocking humanitarian access to people in need.
    Transitioning to a representative government is the only 
way to reduce the violence and alleviate the suffering of the 
Syrian people. The international community, including Russia, 
maintains that the conflict must end via a negotiated political 
agreement in line with the 2012 Geneva Communique, but the 
Assad regime has squandered every opportunity.
    The United States and Russia share a common interest in a 
successful negotiation that prevents the spread of instability 
and violent extremism beyond Syria's borders. However, Russia 
has done nothing to pressure the Assad regime to advance the 
Geneva II negotiations, and they are increasing the quantity 
and the quality of weapons provided to the Syrian regime. We 
continue to review options for changing President Putin's 
calculus.
    Separately, I know that the safety of Syria's minority 
communities, including Christians, is a concern for the 
committee as it is for us. We have sought and received 
assurances from the Syrian opposition and moderate rebels that 
they will protect women and minorities and engage them in 
building Syria's future.
    Mr. Chairman, even as we pursue all the steps I have 
outlined today, we continue to examine what more we can do to 
defend U.S. interests in Syria and to achieve a political 
settlement, and we look forward to working with the committee 
in this respect.
    Thank you.
    [The prepared statement of Ambassador Patterson follows:]

           Prepared Statement of Ambassador Anne W. Patterson

    Thank you, Mr. Chairman, Ranking Member Corker, and members of the 
committee, for inviting me today to discuss the crisis in Syria. I am 
well aware that many members of this committee are not satisfied with 
our progress to date. Neither are we. Let me say that the 
administration appreciates your concern and the support this committee 
has shown for efforts to address this challenge.
    The committee heard from Deputy Secretary Burns 3 weeks ago on the 
challenge of sectarian and extremist violence related to the conflict. 
Today I will supplement Deputy Secretary Burns' remarks by describing 
the coordinated strategy that we are developing. I am pleased to be 
accompanied today by my colleague, Assistant Secretary for 
International Security and Nonproliferation Tom Countryman, who will 
address the international community's progress in the removal and 
destruction of Syria's chemical weapons.
                               the crisis
    The popular demands for economic and political reform sweeping the 
Middle East began 3 years ago in Syria as peaceful protests. Syria's 
large youthful population sought an end to oppression and new 
opportunities. The Assad regime's response to these demands has torn 
the nation apart, fueling extremism and inflaming regional tensions.
    More than 146,000 people have been killed since the unrest and 
violence began. The number of conflict-affected civilians seeking 
refuge in neighboring countries has increased to more than 2.5 million 
people while, inside Syria, an additional 6.5 million people are 
displaced and at least 9.3 million people are in need of humanitarian 
assistance. The U.N. Security Council has condemned the denial of 
humanitarian access to civilians in need and has urged immediate steps 
to facilitate relief operations throughout the country, yet the regime 
has continued to obstruct humanitarian access. Again last week, the 
U.N. Commission of Inquiry on Syria reported on the continuing human 
rights violations being committed by the regime, as well as human 
rights abuses by the al-Qaeda linked groups and their offshoots that 
have taken root in the ungoverned spaces that Assad's actions and 
atrocities have created.
    Opposition to the Assad regime in Syria is broad and deep. Most 
Syrians who side with the opposition are moderates. In large areas of 
the country they have thrown off regime control, yet the situation on 
the ground is constantly in flux. In some areas, regime forces--with 
Hezbollah and Iranian Revolutionary Guard support--have regained 
control of territory they had lost earlier in the conflict. Syrian 
troops are well armed with Iranian and Russian weapons, and also resort 
to barrel bombs or starvation to terrorize civilians. But peace will 
not come to Syria from a military victory. The only sustainable 
solution to the Syria crisis is a negotiated political settlement.
    The United States is a leader of the ``London 11'' contact group 
that has worked to move forward the Syrian transition, end the 
violence, and achieve a political solution. Although the U.N.-sponsored 
Geneva II negotiations have stalled due to regime intransigence aided 
by the tacit support of Russia, the process served to unify components 
of the Syrian opposition and to enable it to articulate its vision for 
a transitional government.
    The continuing civil war has proved a magnet for foreign violent 
extremists--some with substantial combat experience--who are drawn to 
the ungoverned regions left by the deterioration of the Assad regime. 
Our colleagues at the Office of the Director of National Intelligence 
have estimated that there are nearly 23,000 violent extremist fighters 
in Syria, including more than 7,000 foreign fighters. They represent a 
minority of the total rebel ranks inside Syria, which are estimated to 
be between 75,000-110,000 fighters. The violent extremist fighters 
belong to several groups but most notably al-Qaeda's official affiliate 
in Syria, Nusra Front, and the Islamic State of Iraq and the Levant 
(ISIL), formerly known as al-Qaeda in Iraq, whose new name indicates 
its growing ambitions. ISIL is responsible for most of the violence 
that has been taking place in Iraq's Anbar province aimed at 
destabilizing Iraq. These groups offer weapons and money to Syrian men 
who oppose the regime, yet who might not otherwise be drawn to violent 
extremist causes but for the money and avenue for action against the 
regime they provide.
    Bashar al-Assad bears responsibility for this metastasizing 
problem. His regime has released terrorists from its jails, allowed 
violent extremist bases to emerge, and invited other foreign terrorist 
organizations including Lebanese Hezbollah, as well as Iranian-trained 
militia fighters from Iraq and Pakistan, to join the fight on its side.
    Mr. Chairman, we are reviewing our policy and identifying 
priorities for coordinated action.
                 countering violent extremist activity
    In Pakistan, we clearly saw the dangers that arise when terrorists 
are able to set up safe havens--and how difficult and costly in lives 
and money it becomes to dislodge or destroy them. For that reason, a 
top priority in the Syria crisis is preventing the establishment of a 
permanent terrorist safe-haven. In coordination with allies and 
partners, we are now better organizing ourselves to address the growing 
challenge of violent extremist fighters in Syria and the flow of these 
fighters into and out of the country. With our partners, we will apply 
tools, tactics, and best practices to mitigate potential threats and 
build upon existing lines of cooperation.
    We are working with members of the opposition, Syria's neighbors 
and other regional states to cut off their sources of funding and 
recruits. Saudi Arabia has criminalized participation in foreign 
conflicts by its citizens and is prosecuting individuals who have done 
so. Our allies in the gulf increasingly, and correctly, see the flood 
of violent extremists from their countries as a threat to themselves. 
We have new initiatives to work with our allies to identify violent 
extremists who have traveled to the region.
    We are also working to strengthen the moderate Syrian opposition, 
both inside and outside of Syria, because they are now facing a two-
front war against both the Assad regime and the violent extremists.
               preventing collapse and nonlethal support
    In parts of Syria where the regime has been ousted, we want to 
prevent the wholesale collapse of Syria's institutions and public 
services and keep regime hardliners and violent extremists from 
asserting control. As the fighting has continued, the regime has 
increasingly targeted civilian populations by denying basic services 
and cutting them off from food, fuel, and medical care. But some 
provincial and local councils and civil society organizations continue 
struggling, against great odds, to maintain local government and 
continue critical services. We need to help them.
    Mr. Chairman, members of this committee have been rightly concerned 
about the pace and effectiveness of support for the civilian 
opposition. Without a direct U.S. Government presence inside the 
country--as well as control of many border entry points by al-Qaeda-
linked groups or their offshoots--it has been difficult to increase our 
assistance to the Syrian opposition. Our strategy had been to use $260 
million in nonlethal assistance to link the Syrian Coalition (SOC) to 
councils and NGOs inside the country, helping to unify and strengthen 
the opposition.
    However, based on our experience on the ground over the past year, 
we have been refocusing our activity. Over the past few months the 
State Department and USAID have stepped up efforts to channel resources 
directly to local and provincial governments and civil society groups, 
as well as the SOC.
    Our focus is increasingly on ways to help communities maintain 
basic security, keep the lights on, provide water, food and basic 
medical care--staving off the advances of extremist groups who seek to 
exploit peoples' desperation. It allows these localities to maintain 
the basic public institutions that will be so critical in rebuilding a 
post-Assad Syria.
    In towns and cities under opposition control, we are beginning to 
provide cash grants to pay local law enforcement and teachers. We 
continue to train local councils and civil society organizations in 
administration and local governance. And we are providing equipment and 
supplies to help them, including heavy equipment such as generators, 
cranes, trucks, and ambulances. In one major city, for example, we have 
helped reopen 17 schools serving 9,300 students. In another major city, 
we funded the refurbishment of 60 police stations and are providing 
nonlethal equipment and basic stipends to 1,300 policemen, who are 
struggling to maintain order. Paying stipends not only helps keep these 
people on the job, but it also helps deprive the extremist groups of 
the chance to fill the vacuum themselves.
    Make no mistake: this is extremely difficult work and nobody is 
saying that this assistance will turn the tide against what remains an 
extremely serious and deteriorating situation. As we learned in Iraq--
even with 160,000 American troops, 10 years of effort, tens of 
thousands of schools refurbished, and hundreds of millions of dollars 
spent-it takes generations to restore stability in societies wrecked by 
decades of dictatorship and civil wars. We are determined, however, to 
stand with those struggling to rebuild and stabilize their local 
communities even in the most horrific circumstances imaginable. These 
brave individuals will be the future leaders of Syria; they deserve our 
support, and they will continue to receive it through the types of 
assistance I just described.
    As part of this $260 million in nonlethal overall assistance, 
moreover, we are providing $80 million in support to the Supreme 
Military Command (SMC). Providing this support to groups engaged in a 
highly fluid battle zone has been challenging. In December, an SMC 
warehouse in Syria containing U.S. supplies was overrun by a faction of 
extremist fighters. We suspended SMC assistance until they could 
reestablish secure supply routes and storage facilities. By February, 
when the SMC regained control of its facility and accounted for its 
contents, we began sending supplies again--this time directly to 
trusted commanders.
    In providing nonlethal assistance to the SMC, needs are identified 
by commanders and have included food rations, medical kits, and 
vehicles--as well as communications and other personal gear. These 
supplies not only fill gaps identified by opposition troops fighting 
both the regime and violent extremists, but they are tangible evidence 
of our support for the moderate opposition.
    Although a leadership debate has opened up within the SMC--as the 
Syrian opposition discusses how to fight the regime more effectively--
the dispute has not affected our ability to deliver nonlethal 
assistance to the moderate armed opposition through trusted commanders.
    None of the nonlethal assistance we are providing will be 
determinative in defeating regime forces, nor will it, on its own, 
force Assad to change his calculus about trying to hold on to power. 
However, our assistance does provide needed equipment while sending a 
signal both to those inside and outside Syria of our strong support for 
the moderate opposition; help maintain basic administrative 
institutions; help prevent the formation of vacuums in services and 
security that extremists aggressively exploit; and create relationships 
with moderates who can, when this conflict is over, form the basis of a 
transitional government.
               eliminating the threat of chemical weapons
    The Assad regime used chemical weapons against its citizens, and 
its continued possession of chemical weapons material represents a 
sustained danger to Syria's population and all of its neighbors, 
including Israel. Last year, the international community, led by the 
United States and Russia, united to defend a longstanding international 
norm against the use of chemical weapons. Under a Joint Mission 
organized by the United Nations and the Organization for the 
Prohibition of Chemical Weapons (OPCW), the international community is 
supporting the safe elimination of Syria's chemical weapons program. 
U.S. assistance includes outfitting a vessel to neutralize Syria's 
highest priority chemical precursors and agents.
    We are making progress, but there is tough work ahead. To date, the 
Joint Mission has verified the destruction of Syria's chemical weapons-
production equipment, the machines that mix the components, and the 
removal of nearly half of Syria's declared stockpile. All of the sulfur 
mustard agent and some of the precursors for sarin, the highest 
priority declared chemicals, have now been removed. It is our goal to 
complete the removal of declared chemicals as soon as possible in April 
and the verified destruction of these chemical weapons and materials by 
June 30.
                   protecting our friends and allies
    We are committed to helping contain the conflict by bolstering the 
security and stability of Syria's neighbors. Violence from the ongoing 
conflict has already spilled into Lebanon and Turkey, our NATO ally. 
Recently, Israel retaliated against Syrian Army targets for an attack 
on an Israeli patrol on the Golan Heights. On Sunday, the Turkish Air 
Force shot down a Syrian plane that had encroached along the border. 
ISIL has used its position in Syria to pour extremist fighters and 
weapons into Iraq. Lebanon and Jordan are bearing an enormous burden as 
they work to secure their borders and meet the needs of more than 1.6 
million refugees from Syria. We appreciate the support we have received 
from Congress as we work directly and with our international partners 
to support Syria's neighbors:

  <bullet> We back the Lebanese Government's efforts to contain the 
        Syrian conflict and strongly condemn Hezbollah's intervention 
        on behalf of the Assad regime. The U.S. has provided additional 
        support to the Lebanese Armed Forces and Internal Security 
        Forces to help them secure Lebanon's borders and address 
        internal security threats. We are helping the Lebanese 
        Government care for nearly 1 million refugees from Syria and 
        strengthen the communities that are hosting them. We have 
        provided more than $340 million in humanitarian assistance to 
        support the needs of these refugees and to reduce the burden on 
        Lebanese communities. In addition, our ongoing bilateral 
        assistance is helping to address deteriorating economic 
        conditions and gaps in the delivery of important services, 
        particularly in communities impacted by the crisis.
  <bullet> Many of you met with Jordan's King Abdullah when he was here 
        recently and can appreciate the contributions that Jordan is 
        making to address this crisis. The United States is already 
        working closely with the Jordanian Armed Forces (JAF) to 
        address threats emanating from Syria, including providing 
        enhanced border security and counterterrorism capabilities. DOD 
        funds also help to assist the JAF with providing humanitarian 
        assistance to newly arriving Syrian refugees. Longstanding 
        development programs help relieve the strains on water 
        infrastructure, schools, and health facilities in Jordanian 
        communities that support large numbers of Syrian refugees. We 
        have provided $300 million in additional budget support over 
        the last 2 years and will support a $1 billion loan guarantee 
        for Jordan as well as the renewal of our bilateral assistance 
        Memorandum of Understanding for an additional 5 years, as 
        announced by the President last month.
  <bullet> In regards to Turkey, we are most importantly working with 
        Ankara on a variety of counterterrorism issues to address the 
        growing threat that Syria-based terrorists pose to Turkey and 
        the challenge posed by foreign fighters. Additionally, Turkey 
        hosts far more than the 641,000 officially registered refugees 
        from Syria, in addition to significant parts of the Syrian 
        opposition leadership. We are working to mitigate the Syrian 
        conflict's spillover on Turkey's security and sovereignty, 
        including through the deployment of two U.S. Patriot batteries 
        in southern Turkey, which join four batteries from other NATO 
        allies. U.S. contributions to the international humanitarian 
        response help provide critical support to refugees hosted in 
        Turkish camps and communities. In support of the U.N., Turkey 
        is playing an important role in facilitating cross-border 
        humanitarian assistance in northern Syria.
  <bullet> Iraq hosts more than 225,000 refugees from Syria, mostly in 
        the Iraqi Kurdistan region. Since 2012, the United States has 
        provided more than $90 million in humanitarian aid to 
        international organizations and NGOs for Syrian refugees in 
        Iraq. We are also working with the U.N. and the Iraqi 
        Government to ensure that the estimated 350,000 Iraqis 
        displaced by the Anbar conflict are getting needed assistance 
        and will be able to vote in Iraq's upcoming elections, which 
        ISIL seeks to disrupt. At the same time, we are in close 
        contact with Iraq's political leaders and security commanders 
        to develop and execute a holistic campaign to isolate ISIL from 
        the population, including through intensified information 
        sharing and security assistance.
  <bullet> In Egypt, which hosts over 135,000 Syrian refugees, 
        political instability and polarization has contributed to a 
        difficult environment and increasing humanitarian needs for 
        refugees. Recognizing the burden that refugee communities can 
        pose on host countries, we are continuing to support 
        humanitarian partners in Egypt and to engage the government to 
        ensure that refugees receive needed support.
  <bullet> Israel has not been spared the effects of the conflict. Our 
        governments coordinate closely to monitor violent extremist 
        threats in Syria, and we support Israel's right to defend 
        itself from spillover violence. We applaud Israeli efforts to 
        provide medical care to wounded Syrians seeking help. We are 
        also concerned that Syria's instability will continue to 
        threaten the Golan.
                       urgent humanitarian action
    We are coordinating closely with the international community to 
alleviate the suffering caused by this crisis. The Government of Kuwait 
cohosted a donor conference with the U.N. Secretary General in January, 
which resulted in $2.6 billion in new pledges. The United States is the 
largest single donor to the Syria humanitarian response, providing more 
than $1.7 billion in humanitarian assistance. Our assistance supports 
U.N. and other international organizations as well as numerous NGOs 
assisting conflict-affected civilians inside the country and throughout 
the region. We are specifically directing some of our funds to 
alleviate the growing strain on host communities, infrastructure and 
public services in neighboring countries. Inside Syria, our assistance 
provides food, basic health care, water and sanitation services, and 
desperately needed relief supplies.
    The Assad regime continues to deliberately block humanitarian 
access in Syria, citing the uncertain security situation. Last week, 
the first U.N. convoy reached the residents of Qamishli in northern 
Syria via the Turkish border crossing at Nusaybin. Although some 
supplies will finally reach these people in desperate need, one day of 
U.N. aid convoys crossing one border point is not enough. These convoys 
prove that the Syrian Army can allow humanitarian access when it 
chooses to do so. The Assad regime must approve all U.N. requests for 
access to areas in need immediately as called for by the U.N. Security 
Council.
       negotiations transitioning to a representative government
    Transitioning to a representative government that is responsive to 
the needs of the Syrian people is the only way to reduce the violence 
and alleviate the suffering of the Syrian people. While the 
international community, including Russia, maintains that the conflict 
must end via a negotiated political agreement in line with the 2012 
Geneva Communique, the regime has squandered every opportunity for a 
peaceful settlement. At the Geneva II talks, the regime's negotiator 
insulted the opposition, U.N. Joint Special Representative Lakhdar 
Brahimi and the international community while contributing nothing of 
substance to the discussion.
    The United States and Russia share a common interest in a 
successful negotiation that fully implements the Geneva Communique and 
prevents the spread of instability and violent extremism beyond Syria's 
borders. To date, this common interest has motivated Russia to continue 
its support to the OPCW mission. However, Russia has done nothing to 
move its Syrian allies forward in the Geneva II negotiations. Moreover, 
we have seen an increase in both the quantity and the quality of 
weapons Russia has provided to the Syrian regime in recent months. The 
stability that Russia seeks in Syria will not be achieved by providing 
planes, tanks, bombs, and guns for use against the Syrian people. We 
continue to review all options for changing President Putin's calculus 
away from Russia's support for the Assad regime.
    Ambassador Brahimi told the Security Council on March 13, that he 
recommends against a third round of talks unless the regime commits to 
discuss substantively all elements of the Geneva Communique. In the 
meantime, the United States 
and its partners will continue to expand our support to the Syrian 
opposition and ratchet up pressure on the regime.
    On another matter, I know that the safety of Syria's minority 
communities is a key concern for members of this committee, as it is 
for us. We are troubled by the plight of all civilians in Syria, 
including Christians and other religious minorities. Protecting the 
security and religious rights of these communities, as well as the 
rights of women, is an important element of our policy and will be 
essential to any future political settlement. We have sought and 
received assurances from the Syrian opposition leadership and moderate 
rebel leaders that they will protect the rights of women and 
minorities, and engage them in plans for building Syria's future.
                               next steps
    Mr. Chairman, we are actively engaged in trying to bring the Syria 
crisis to an end.

--We are working with allies and partners to combat the growing threat 
    of violent extremists;
--We are working to prevent a catastrophic collapse of Syrian cities in 
    opposition controlled areas;
--We are providing nonlethal support to the armed opposition;
--We are working with the international community to end the threat of 
    Syria's chemical weapons;
--We are taking steps to protect and support our regional friends and 
    allies;
--We are contributing generously to the humanitarian response both 
    inside Syria and among its neighbors; and
--We are providing support to the Syrian opposition both directly and 
    through the London 11.

    Even as we pursue all the steps I have outlined today, we continue 
to examine what more we can do to defend U.S. interests in Syria and to 
achieve a political settlement. We appreciate the support of your 
committee--most recently in your March 14 letter--and will continue to 
work together with the Congress as we move forward.
    The Syrian people reject violent extremism. They want to return 
home and rebuild their country--and we will help them. Thank you.

    The Chairman. Thank you.
    Secretary Countryman.

STATEMENT OF HON. THOMAS M. COUNTRYMAN, ASSISTANT SECRETARY FOR 
INTERNATIONAL SECURITY AND NONPROLIFERATION, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Countryman. I thank the chairman and the ranking member 
for the opportunity to appear with Assistant Secretary 
Patterson and to testify on one specific aspect of the Syrian 
situation, that is, the complete elimination of Syria's 
chemical weapons. I will be brief.
    Since Secretary Kerry negotiated the framework last 
September to eliminate these weapons, we have made important 
progress, but much remains to be done. Thanks to an impressive 
international coalition, almost half of Syria's declared 
chemical weapons materials are out of Syria, including the 
entire declared stockpile of sulfur mustard. International 
inspectors have conducted full inspections of the declared 
chemical weapons sites and have verified the destruction of 
Syria's chemical weapons production, mixing, and filling 
equipment.
    This recent momentum is significant but the most 
significant moment will be when all of these terrible weapons 
are out of the hands of the regime so they cannot be used again 
against the Syrian people.
    The task before us remains considerable. Sixty-five percent 
of the most dangerous chemicals--Priority 1 chemicals--have yet 
to be removed from Syria. We continue to work with the 
international community to maintain pressure on the regime to 
move faster. We have made clear that the agreed schedules are 
not up for renegotiation and that the elimination effort must 
be completed as quickly and safely as possible.
    The regime missed the March 15th date for the physical 
destruction of production facilities. We intend to hold them to 
this and other international obligations. If Syria meets the 
agreed schedule for removal, the overall June 30th target date 
for the complete elimination of the program remains achievable. 
The next few weeks are critical and we and the rest of the 
world will be watching. There are simply no logistical or 
security reasons that the Assad regime cannot complete the 
removal effort next month.
    As the removal and elimination process continues, we will 
redouble our support for the OPCW's verification and inspection 
efforts to ensure the accuracy and completeness of Syria's 
declarations. The United States approaches this process with 
our eyes wide open. Following removal of declared chemicals, 
further review and verification of Syria's declaration of its 
program will be required in order to achieve international 
confidence that the program has been completely eliminated.
    I thank you and I look forward to any questions you may 
have.
    [The prepared statement of Mr. Countryman follows:]

     Prepared Statement of Assistant Secretary Thomas M. Countryman

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for the opportunity to testify today about 
international efforts to support the United Nations (U.N.) and the 
Organisation for the Prohibition of Chemical Weapons (OPCW) in the 
complete and verifiable elimination of the Syrian chemical weapons 
program. While we have made important progress in the past months 
toward the elimination of Syria's chemicals weapons program, 
considerable work remains to be done to ensure the Assad regime can 
never again use these terrible weapons against its own people, or 
threaten our regional and international partners with them.
    Just last year, the regime did not even publicly acknowledge that 
it possessed chemical weapons, despite having used them on multiple 
occasions, including in attacks that killed over 1,400 people. Today, 
OPCW inspectors on the ground in Syria, with U.N. support, have 
conducted full inspections of Syria's declared chemical weapons-related 
sites, and have verified the functional destruction of the chemical 
weapons production, mixing, and filling equipment at those sites. In 
addition, as of today, more than 49 percent of Syria's declared 
chemical weapons materials slated for destruction outside of Syria have 
been removed, including all of Syria's declared sulfur mustard agent, 
and the OPCW has verified the destruction in Syria of 93 percent of 
Syria's declared isopropanol, a binary component of the nerve agent 
sarin. But that's not good enough. Syria has yet to remove 65 percent 
of its most dangerous (Priority 1) declared chemicals. We must continue 
to work with the international community to maintain pressure on the 
Assad regime to remove all of these chemicals as urgently as possible.
    The international community has established a firm legal framework, 
through U.N. Security Council Resolution (UNSCR) 2118 and decisions of 
the OPCW Executive Council, to ensure that this immense undertaking is 
completed in a transparent, expeditious, and verifiable manner, with a 
target for destroying all of Syria's declared chemicals by June 30 of 
this year.
    The progress made in the past months has been achieved by diplomacy 
backed by a willingness to use military force. It remains critically 
important, as this process continues, that members of the international 
community continue to monitor closely the Syrian regime's compliance 
with its Chemical Weapons Convention (CWC)-related obligations. Syria's 
obligations are clear, and we will continue to underscore the 
importance of the Assad regime's continued cooperation. The Security 
Council decided in UNSCR 2118 to impose Chapter VII measures in the 
event of noncompliance with the resolution.
    While we have made progress, the task before us remains 
considerable. After months of Syrian foot dragging, we have made clear 
to the Assad regime that the internationally agreed upon schedule for 
chemical weapons destruction is simply not up for negotiation; the 
regime has all the equipment that it needs and has run out of excuses. 
We remain focused on underscoring the need for Syria to move forward 
rapidly with transporting chemical weapons materials to the port of 
Latakia for removal, consistent with its responsibilities under the CWC 
and UNSCR 2118. The next few weeks are critical in the removal effort, 
and we and the rest of the world are watching. We have, of course, also 
been in contact with Syrian opposition leaders, updating them 
throughout this process, and confirming their commitment that they will 
not interfere with the activities of the international elimination 
effort.
    With the continuing support of the international community, and the 
dedicated commitment of the OPCW-UN Joint Mission, we believe the 
Syrians are capable of completing the removal effort by late April. The 
international community continues to work toward the June 30th target 
date for the complete elimination of the program. While Syrian delays 
have placed that timeline in some danger, we continue to believe they 
remain achievable.
    The path ahead is not an easy one. Syria has missed several 
intermediate target dates, including most recently the target date for 
the destruction of chemical weapons production facilities. The regime 
must meet all chemical weapons destruction obligations, including for 
the physical destruction of chemical weapons production facilities, 
consistent with the CWC. The OPCW is currently advising Syria on an 
appropriate facilities destruction plan. It is essential that Syria 
accept its recommendations, and submit a revised facilities destruction 
plan for consideration by the OPCW Executive Council at its next 
scheduled meeting.
    The United States and the international community have provided 
extensive assistance to the international effort to eliminate the 
Syrian chemical weapons program. There are no more excuses on the part 
of the Assad regime for not meeting the agreed timeline. We continue to 
encourage all countries to make whatever contribution they can to this 
important undertaking--whether that contribution is financial, 
technical, or in-kind--to enable the OPCW and U.N. to complete their 
missions. The United States has led by example in providing tens of 
millions of dollars in assistance to the OPCW-UN Joint Mission, 
including the provision of containers, trucks, forklifts, and other 
materials necessary for the safe transportation of chemical weapons 
materials in Syria. The State Department's Nonproliferation and 
Disarmament Fund has provided $8 million in financial and in-kind 
assistance to the OPCW inspection team, including armored vehicles, 
training, protective equipment, and medical countermeasures. Most 
significantly, the United States is also contributing unique 
capabilities to the elimination effort through the Department of 
Defense's provision of a U.S. vessel, the Motor Vessel (M/V) Cape Ray, 
equipped with deployable hydrolysis technology to neutralize at sea 
Syria's highest priority chemical weapons materials (sulfur mustard 
agent and the sarin precursor chemical, DF).
    While U.S. contributions to the elimination efforts are 
significant, this is ultimately a mission that reflects a remarkable 
international division of labor. Many of our international partners are 
participating and providing financial and in-kind assistance that is 
critical to the effort's success: Danish and Norwegian ships (with 
Finnish and British support) are removing chemical weapons materials 
from the Syrian port of Latakia. Russia and China are assisting with 
security in Syrian territorial waters for the port loading operations. 
Italy has agreed to provide a port to allow transloading operations 
from the Danish cargo ship to the Cape Ray. The United Kingdom has 
agreed to destroy nerve agent precursor chemicals through commercial 
incineration. Germany has agreed to destroy the byproduct resulting 
from neutralization of the sulfur mustard agent aboard the M/V Cape Ray 
as an in kind contribution. Countries like Japan, Canada, the European 
Union, and many other states have made generous financial 
contributions. Companies in the United States and Finland have been 
awarded contracts from the OPCW for the destruction of the remaining 
materials.
    As the removal and elimination process continues, we will also 
continue to fully support the OPCW's verification and inspection 
efforts, to ensure the accuracy and completeness of Syria's 
declaration. We have never taken the Assad regime at its word, and will 
continue to press for a robust verification regime to ensure the 
absence of undeclared materials and facilities. We approach this 
process with our eyes wide open, and will insist on international 
verification.
    The path ahead will not be smooth, given the unprecedented scope 
and timeline for the mission. But we remain resolute in addressing 
these challenges, given the high stakes for the Syrian people, the 
region, and the world. Thank you again for the opportunity to discuss 
this important issue with you. I look forward to your questions and to 
consulting with you closely as we continue our efforts to verifiably 
eliminate Syria's chemical weapons program.

    The Chairman. Well, thank you both.
    It looks like we have not had the second vote yet. So let 
us start.
    Madam Secretary, United States policy on Syria has been 
premised on the assessment that there is no military solution 
to end the conflict. However, Assad forces backed, as your own 
testimony says, by Iran, Russia and Hezbollah have made 
alarming gains on the ground in recent weeks and likely believe 
that military victory is possible, as long as United States-
backed opposition fighters are mired in a two-front war, 
fighting al-Qaeda and other Islamic extremists, as well as 
fighting the regime.
    Is the administration considering any military options that 
could change the calculus of the Assad regime that they cannot 
win militarily?
    Ambassador Patterson. Senator, I think that would be better 
discussed--I mean, we have always said that all options are on 
the table, but we need to discuss some of these more sensitive 
issues offline.
    The Chairman. So just the mere fact of answering 
generically, are you considering any military options, is 
something that would have to be classified?
    Ambassador Patterson. Senator, Mr. Chairman----
    The Chairman. I did not get into which ones yet. I just 
said are there any.
    Ambassador Patterson. I am not at liberty--first of all, I 
would not be at liberty to discuss issues that are in a 
predecisional stage that are under discussion within the 
administration. And again, they would be of a classified 
nature. So I would prefer to discuss them with members of this 
committee in an offline session.
    The Chairman. Well, we are going to, obviously, get to that 
then.
    Let me tell you that I have a problem with a generic answer 
to a generic question that I cannot believe is classified. I go 
to these classified hearings, and sometimes I listen to a 
hearing that in my view should never have been classified 
because there is nothing there of consequence that I do not 
read before I get there by the press. Yet, when you go to a 
classified hearing, of course, you are constrained, but I would 
not be constrained if what I read in the press is largely what 
I hear in these hearings. So unless I am going to get something 
more in these classified settings, you know, that is going to 
be a problem moving forward.
    What is the view of the administration? You mentioned in 
public testimony that we are helping certain vetted elements of 
the Syrian opposition. Are we doing enough in this regard? 
Should we not be doing more? Should we consider what we are 
doing in terms of the weapons that we give them in order to be 
able to truly change the calculus? If you cannot stop a 
helicopter or a plane that is bombing you, if you cannot stop a 
tank that is crushing your community, then I do not know how we 
ever change the calculus here.
    Ambassador Patterson. Mr. Chairman, absolutely we are not 
doing enough to help the moderate opposition, and our 
deliveries certainly of nonlethal equipment have been stymied 
by a series of logistical issues and security issues that have 
taken place both in Turkey and over the border in Syria because 
it has been at times very difficult to deliver this equipment. 
We are trying to change our strategy. We have changed our 
strategy, at least for one shipment, and delivered medical 
supplies on February 20 to vetted units, to trusted commanders 
that we have worked with very specifically. So we were trying 
to get more equipment to these commanders--get it more rapidly.
    And importantly I think we are starting to pay people and 
municipalities so that will provide some pushback, some 
counteraction to the ability of extremist groups to pay young 
Syrian men to join their ranks. We are trying to support 
communities more actively. We have spent over $60 million in 
supporting communities. But, no, of course, we have not done 
enough to support the moderate opposition.
    The Chairman. Well, Okay. But medical supplies--I am all 
for it. We obviously have to help those who are wounded in the 
fight, but that does not help you stop a tank. It does not help 
you stop a plane. It does not help you stop a helicopter that 
is barrel bombing you.
    Ambassador Patterson. Mr. Chairman, I think you would find 
great unanimity within the administration that what you say is 
accurate, that they need more support of all sorts. And again, 
I would prefer to discuss that with you or your staff in a more 
private setting.
    The Chairman. Let me go to an area that hopefully you can 
answer in public. U.N. Special Envoy Brahimi this week 
suggested that proceeding with elections in Syria would end the 
Geneva II process. Is this also the administration's position? 
What are the prospects that the elections will take place this 
spring, that Assad will run, that he will win, and what is the 
consequence of that to any negotiation?
    Ambassador Patterson. Well, the consequence is, I think, 
that these elections will be internally illegitimate. Syria 
does not exactly have a history of free and fair elections. You 
cannot hold an election with 9 million or 10 million people 
outside the country and where much of the country is cut off so 
that people could not vote freely even if they were so 
inclined. And I think there will be virtually universal 
recognition of this by the international community.
    The Geneva II process has faltered, but in our view it is 
an important element to keep alive because at some point, if 
the calculus or the balance on the battlefield changes, you 
need essentially to have a process that people can resort to.
    The Chairman. Let me ask Secretary Countryman. I heard your 
remarks about the chemical weapons which I believe--the process 
of eliminating Syria's chemical weapons was made possible by 
this committee's bipartisan vote for the authorization for the 
use of force for the President, as he was headed to the G20 in 
Russia. But as you yourself acknowledge, Syria's 12 chemical 
weapons production facilities were to be destroyed by March 15. 
They have failed to meet this deadline as well, now offering to 
seal off these facilities instead of destroying them.
    What is the U.S. Government prepared to do to ensure that 
Syria complies with the Chemical Weapons Convention and what is 
the likelihood of Syria's entire chemical arsenal being 
destroyed by June the 30th?
    Mr. Countryman. First, Mr. Chairman, I agree with you that 
the agreement for the elimination of Syria's chemical weapons 
was achieved only by using a credible threat of force. And I 
greatly value this committee's role in adding to the 
credibility of that threat.
    In terms of physical production facilities, the equipment 
that has been declared has been destroyed. The facilities 
themselves, whether they are buildings, tunnels, or hangars, 
still remains to be destroyed. We have maintained and will 
continue to maintain that destruction means destruction. I 
think there will be further action in the OPCW Executive 
Council in the next week that will address this question. So I 
am not quite prepared to predict that it will be immediately 
successful, but I can guarantee you of our firm stand on this 
issue.
    In terms of estimating the likelihood of the complete 
elimination of Syria's program, we are focused at the moment--
that is, the international community--on the removal and 
destruction of declared chemicals, and I believe that we can 
still achieve the target date of mid-2014 for that destruction.
    The question of whether the declaration is accurate is, as 
I indicated, the next question that we will have to take up.
    The Chairman. And I want to go to Senator Corker, so he can 
get his questions in before we have to go to vote.
    But let me just say what is the consequence if June 30 
comes and goes and we are nowhere near to achieving what we set 
out to achieve and which the Syrians agreed to.
    Mr. Countryman. Very briefly, I would differentiate two 
situations.
    If by June 30 we have removed all declared chemicals from 
Syria and they are aboard the U.S. vessel that is in the 
process of destroying those chemicals, I think that we will be 
successful. And I do not know of anyone in the world who would 
criticize us for not completing the destruction process 100 
percent when we have eliminated those chemicals from the 
possibility of their use by the regime.
    If alternately Syria does not complete the removal process 
of declared chemicals by that date, it is a very different 
situation and one that will have strong consequences for Syria.
    The Chairman. Okay. I still have not heard what they are, 
but Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Before I begin, I want to say to Ambassador Patterson that, 
look, I respect you tremendously and have spent a lot of time 
with you in Pakistan and Egypt. And I would imagine being in a 
position you are in right now where you are having to talk in 
this manner relative to Syria is very uncomfortable. Again, I 
want to say I have tremendous respect for you.
    I find the answer that you gave relative to the classified 
setting and potential military efforts major baloney, and if I 
was in a different setting, I would use different words. I 
cannot imagine you saying that in this setting. That would 
indicate to people that we actually have a military strategy 
relative to Syria, and that could not be further from the 
truth.
    Now, are you sitting here trying to indicate to the media 
and people listening that you guys have actually developed a 
military strategy relative to Syria and you are going to talk 
about it in a classified setting? Is that what you are doing 
today? Because if you are, that is major news. And I find that 
answer--a friend, someone I respect--to be one of the most 
major misleading baloneys I have heard since I have been in the 
United States Senate. So please clarify that because I am 
pretty upset, especially after we wrote an authorization for 
the use of force and this administration did everything they 
could to keep from doing that, jumping in the arms of Russia, 
basically validating Assad through this shiny object issue of 
chemical warfare being removed from the country, which has 
nothing to do with the 40,000 people that have been killed 
since August with barrel bombs. So please clarify what you 
said.
    Ambassador Patterson. Yes. Senator Corker, I am sorry if it 
sounds like baloney, but let me do try and clarify this because 
perhaps I interpreted Senator Menendez's question too narrowly. 
Obviously, our view and often state view is there is no 
military solution to this conflict.
    Senator Corker. And there is no military strategy the 
administration has laid out.
    Ambassador Patterson. Wait a minute, sir. Wait just a sec. 
Let me get to that.
    So there is no military solution, and there has to be a 
negotiated settlement.
    I thought what Senator Menendez was asking me is were 
military options under consideration, and no, I am simply not 
going to get to that in this kind of hearing.
    Senator Corker. Are you going to indicate in this public 
hearing that you are actually considering military options--
this administration?
    Ambassador Patterson. Senator, I am not going to get into 
that and I am not going to be, in effect, bullied into 
answering this with all due respect, sir.
    Senator Corker. Well, let me explain to the world I assure 
you the administration has no military options on the table.
    And I would just like to ask you what is our strategy. I 
mean, sending in--you know, I sat with Idris last August while 
he was waiting on the trucks to arrive that had been promised 
for months. He is obviously not a part of this anymore. But 
what is our strategy in Syria? I do not see that we have one 
other than letting people kill each other off, allowing it to 
fester.
    Ambassador Patterson. Senator, I do think we have a 
strategy.
    Senator Corker. Please lay it out one, two, three.
    Ambassador Patterson. Let me try and lay out the components 
of the strategy because I do think we have a strategy here.
    One is diplomatic and that is not zero. We do have----
    Senator Corker. Wait a minute.
    Ambassador Patterson. Wait a minute.
    Senator Corker. It is pretty zero.
    Ambassador Patterson. Pretty zero, but----
    Senator Corker. Okay. You did say just now ``pretty zero.'' 
So that is pretty zero.
    What is the next strategy?
    Ambassador Patterson. The next strategy is containment, and 
we are working with our allies----
    Senator Corker. So we are going to contain all the 
jihadists there and get everybody killed off?
    Ambassador Patterson. We are going to work with our allies, 
Senator Corker, to try and improve their border security, to 
try and improve their security, and in other things again I 
will not mention in this classified hearing, to try and help 
our allies out with both security assistance and humanitarian 
assistance.
    Senator Corker. And our allies are who again?
    Ambassador Patterson. Well, our friends are Jordan in 
particular, Lebanon----
    Senator Corker. And Jordan is inside fighting? I mean, I am 
missing something here.
    Ambassador Patterson. Jordanians inside----
    Senator Corker. So I am talking about inside Syria. I 
understand about the refugee camps and I understand all those 
things. But inside Syria, what is our strategy? I understand 
that we are trying to keep Jordan stable because we do not have 
a serious strategy and we have people coming into Jordan and 
that is destabilizing the country. I got that. But what are we 
doing as far as a Syrian strategy goes?
    Ambassador Patterson. We are trying to support the moderate 
opposition, and I would----
    Senator Corker. Support them how? With food and----
    Ambassador Patterson. With food and with other goods and 
with supplies. And again, let us not get into some of these 
other things here.
    Senator Corker. Can we have a classified setting 
immediately after this? I mean, would you be open to that, 
going down to SVC-215 and let us just hear some of these 
details that would be worth our while to do?
    Ambassador Patterson. Well, we will talk about it. I mean, 
I would certainly be willing.
    But let me go on. Senator Corker, we do have a 
counterterrorism strategy. There is a huge amount of 
intelligence exchange and working with intelligence agencies in 
the region to get a handle on these jihadis who have migrated 
from all over the world. So we are trying to----
    Senator Corker. So we are getting intelligence on all these 
jihadis that are flowing in from everywhere that has created a 
significant threat to the homeland, but we are gathering 
intelligence. What is the next element of that?
    Ambassador Patterson. Well, the next step, Senator Corker, 
will be to work with our allies, work with our friends in the 
region to try and reduce this threat.
    Senator Corker. We have no strategy in Syria. We have not 
had a strategy in Syria from day one.
    And I guess I would ask you what is our relationship, for 
instance, with Russia and Iran and the other things that we 
have ongoing with them. How is that affecting the fact that we 
have no strategy, no coherent strategy in Syria whatsoever? I 
mean, I would feel better about it if you would just say that 
to me. We have no strategy. But to act like we have got some 
classified strategy we are going to hear about, I am looking 
forward to that meeting. But does our relationship with Russia 
and Iran have something to do with our lack of strategy in 
Syria?
    Ambassador Patterson. Senator, we work closely--certainly 
Secretary Kerry and everybody else who is involved has worked 
closely with the Russians particularly to try and get them to 
cooperate with us in the diplomatic process. It is a process 
that has largely failed. We have, I think, been successful with 
the Russians in cooperating on the removal of the chemical 
weapons, and we are hopeful that we can engage with them as 
this process goes forward because a destabilized Syria is not 
just a threat to us and neighbors, but it is also a threat to 
Russia.
    Senator Corker. If I could just say one last thing. And I 
know I do not usually show much emotions in these meetings, 
especially to someone who I respect so much and I have to 
believe has been put in an incredibly awkward position being 
here today.
    But, Mr. Countryman, I will say to you this removal of 
chemical weapons--I would say the reason Assad is dragging his 
feet, as he is, is that is the very thing that has validated 
him. It is the thing that we did to put him in the strongest 
position he has been in since this conflict began. And the 
reason he is dragging his feet is, as long as he is important 
to that process, he is going to continue to be buoyed up. And I 
think it is a shiny object; 1,200 people were killed terribly 
with chemical weapons; 40,000 people have been killed since 
then with barrel bombs. And to me the whole issue regarding the 
chemical weapons has been a ruse. It has been a shiny object. 
It has kept us from really having any kind of coherent Syrian 
policy in the beginning.
    And I am not blaming our country for what has happened in 
Syria. I mean, it is something we did not create. But to act 
like we have some policy that is going to solve this problem 
when we cannot even get trucks delivered to the head of the 
opposition on the ground in an appropriate amount of time 
because of the bureaucratic tape that we have here in this 
country and the fact that we really have no commitment to me is 
very disappointing.
    So I find this portion of our hearing incredibly 
disappointing. I hope that we will never have another hearing 
like this with you, Ambassador. I still call you that because 
of my great respect. And I do look forward to that classified 
briefing in just a moment that is going to be so illuminating 
on this new Syrian strategy.
    Mr. Countryman. Senator, if I could very briefly disagree 
with you with great respect.
    First, I do not agree at all that the agreement to rid 
Syria of its chemical weapons has either validated or 
strengthened the Assad regime.
    Senator Corker. Has he been strengthened since we began 
this the 1st of September?
    Mr. Countryman. Since September, yes, but the question of 
cause and effect of whether the chemical weapons agreement, 
which forced him to give up what he considered his most valued 
strategic deterrent against Israel, which he had used in a 
tactical sense against his own people and which he is now 
constrained from using--these are actual security losses for 
him. And no amount of Russian praise for his so-called wise 
decision can allow him to regain the credibility that he 
frittered away, that he destroyed with his own people and with 
the international community. And it does not change in any way 
the United States view that he needs to go if Syria is to have 
a chance.
    Senator Corker. Well, with great respect, the best thing 
that ever happened to Assad--this sounds really crass. The best 
thing he ever did was kill 1,200 citizens with chemical weapons 
because the United States and Russia and others have now 
propped him up and used that 1,200-person killing to allow 
40,000 more people to be killed. And it is a shiny object. It 
was a great way for us to partner with Russia and move away 
from having any kind of strategy on the ground. So I disagree 
with you strongly. With respect, I think you are delusional.
    Mr. Countryman. If I could expand on my delusions, I would 
simply say that chemical weapons were never an important part 
of the military equation causing the tragedy in Syria, and 
their elimination does not fundamentally alter the military 
equation that causes today's situation.
    The Chairman. I will say I understand the ranking member's 
frustration on the broader question, and I share it with him. I 
will disagree with him on the chemical weapons insofar as it 
was important to send not only in Syria but internationally a 
message that the use of chemical weapons against all 
international norms would have a consequence. And that is where 
I would have a difference of opinion, but I strongly respect 
his overall frustration with where we are at on Syria.
    Senator Kaine has been gracious enough to come back, and he 
has his own questions. I am going to ask him to preside. I am 
going to go vote. I am going to come back. There are a couple 
more questions and a preface that I want to set for that 
classified setting so that it can actually be useful at the end 
of the day because if we cannot meet the standard that I will 
ask you to meet, then we might as well not have it. I will be 
right back.
    Senator Kaine [presiding]. Thank you, Mr. Chairman. Thanks 
to the witnesses. And I apologize for being tardy. We are 
``backing and forthing'' on votes.
    By way of comment, strategy conveys a lot of different 
things. Let us just talk about humanitarian efforts. The United 
States is the largest provider of humanitarian relief in the 
world. That is not by accident. It is strategic. That is an 
important thing. I just returned from visiting Lebanon, and the 
United States support for humanitarian relief for Syrian 
refugees outside the borders of Syria is highly appreciated. We 
need to do more. We need the other nations to do more. But that 
is an element of strategy. We want to do more with humanitarian 
relief inside Syria.
    Let me ask a question of both of you. Since the U.N. 
Security Council Resolution 2139, there is a 30-day reporting 
requirement. What do you expect to see in the opening 30 days? 
I am gathering it is not going to be too good. What do you 
expect to see in the opening 30-day report of the U.N. Security 
Resolution 2139?
    Ambassador Patterson. Thank you, Senator Kaine.
    We do not expect to see very much. It has been very hard to 
implement the resolution and move the humanitarian goods across 
the border. There have been some desultory meetings and there 
has been a plan developed, but in terms of actual delivery to 
hungry people, there has been very little. So we anticipate 
that that will be the report that is given from the 
international relief agencies. We have been working with the 
opposition, of course, to ensure that assistance can get into 
opposition-held areas.
    Senator Kaine. I am going to introduce a statement to the 
record from Mercy Corps outlining some ideas about humanitarian 
relief. There is no one here to object to my request, so 
without objection, it will be entered into the record.

    [The information referred to can be found on page 83.]

    Senator Kaine. The issue of aggressive insertion of 
humanitarian aid into the country is a huge and important one. 
In Turkey, Jordan, and Lebanon now, we have heard thank you for 
the United States work on humanitarian aid outside. What we 
need now is humanitarian aid inside. That continues to remain 
an important area for us to focus on.
    The second element of strategy is diplomacy. I share 
Ambassador Countryman's view that the destruction of one of the 
largest chemical weapons stockpiles in the world is a very 
significant diplomatic achievement. We are not happy with what 
is going on in Syria. We are not happy with the progress. We 
are not happy with the civil war and the slaughter of innocent 
people. However, the existence of that chemical weapons 
stockpile would be bad for Syrians today and would be bad for 
Syrians and all neighbors tomorrow and for years to come. That 
destruction is a significant diplomatic gain.
    What is the current status of the destruction of the 
chemical weapons stockpile? We have seen some positive news. We 
have seen some negative news. In particular, with respect to 
the announced June 30 deadline for destruction, how is it 
looking?
    Mr. Countryman. In brief--I cover more of this in my 
written statement, but to summarize, nearly half of the 
chemicals that Syria has declared have been unloaded through 
the Port of Latakia onto a Danish vessel. When the loading is 
complete, they will be transferred to a U.S. vessel for 
destruction. Almost half sounds good. One of the things that 
concerns us is that 65 percent of the more dangerous chemicals, 
the Priority 1 chemicals, have yet to be moved out of Syria. 
The pace has increased dramatically in the last 3 weeks, and we 
have solid grounds to believe it can be accomplished in April--
100 percent removal. But we need to keep our elbow in the back 
of the Syrians with the help of the joint mission of the U.N., 
the OPCW, and the international community. Once it is all 
loaded onto the U.S. ship for destruction, we believe that we 
will either meet or come very close to the June 30 target date 
for destruction of declared chemicals.
    Senator Kaine. And then let me ask about declared. What is 
our assessment of whether the declaration of chemical weapons--
how close does it match reality, and are there significant 
questions we have about the extent of the declaration whether 
there are undeclared weapons we need to isolate and identify?
    Mr. Countryman. Having great concern for the frustration 
that the chairman has already expressed, I can only offer to 
brief you on that in a closed session.
    Senator Kaine. Well, that is a question that is very 
important for us to know.
    Mr. Countryman. It will be illuminating.
    Senator Kaine. Okay, thank you.
    So diplomacy is an element of strategy. Chemical weapons we 
have discussed.
    The second element of diplomacy is the talks in Geneva. 
Those are desultory. They are not achieving what we hope. But 
we do know if we do not continue talking, we know what the 
answer will be. There will not be the negotiated political end 
to this civil war that we all think is necessary. So we have to 
undertake continuing efforts to engage the parties in dialogue.
    The third element of strategy is obviously military. That 
is probably the area that has excited the frustration I was 
hearing as I came in the door, and that is one, look, we can 
all share. We were around this table together--members of the 
Foreign Relations Committee--voting for a request for limited 
military action in Syria. It was essentially a 10-8 vote, very 
divided, not a partisan division, but very divided. Most would 
acknowledge that Congress was not going to support that. 
Certainly the House was not going to. It would have been very 
difficult for the Senate to support it. So it is understandably 
frustrating if you think the United States should have a clear 
military policy as a third element of strategy. Congress has 
pretty much spoken that they were not in support of military 
action even for the limited use of deterring and degrading the 
capacity to use chemical weapons. So if we are going to be 
frustrated, we can be frustrated, but it should not be just why 
is the administration not doing better when Congress had a 
chance to vote and express their support or lack of support for 
military option and pretty much said they did not support it. 
So we can all be frustrated by that.
    But I will leave questions about the military discussion 
for a closed session.
    Let us go to the refugee crisis in the neighboring 
countries. Clearly, Jordan, Turkey, as recent events have shown 
with the shooting down of the Syrian aircraft, Lebanon where I 
recently visited--I feel like the Lebanese story has sort of 
been an undertold story and the effect of the refugees on 
Lebanese life, about 4 million Lebanese, over a million Syrian 
refugees in Lebanon. The Syrian civil war is the dark star of 
gravity that is altering every fact of Lebanese life, economy, 
education, tourism, extremist violence perpetrated against 
largely Shia sites because of Hezbollah's decision to go into 
all-in for Assad in Syria.
    What more can we be doing to help our allies and countries 
that are neighboring countries? I failed to mention Iraq, but 
the challenges are significant there. What more can we be doing 
to help these countries who are allies of ours deal with these 
refugee flows, which are continuing?
    Ambassador Patterson. Yes, Senator Kaine. I think the 
Lebanon story is sort of underplayed in this narrative because 
they certainly have the most refugees, and they are in host 
communities, which means local municipalities are bearing the 
burden. We need to step up humanitarian assistance particularly 
in Lebanon and Jordan where the situation is acute.
    And in Iraq, in particular, where the security implications 
have really been more severe than the refugee flow, we have 
tried and again need to do more to accelerate shipments of 
military equipment to Iraqi forces. And we have begun to train 
Iraqi special forces again in Jordan. So we are trying to help 
the Iraqi Government meet the spillover effect--counter the 
spillover effect from the Syrian crisis.
    So a combination I think of security assistance--certainly 
we are upping that to Lebanon this year. We are upping our 
assistance to Jordan and increased humanitarian assistance. We 
are very mindful of the challenges that that presents to the 
neighbors.
    Senator Kaine. I am going to ask--Senator Coons will now 
take questions. I will go cast a vote and return.
    Senator Coons [presiding]. Thank you, Senator Kaine.
    If I could first, before welcoming our witnesses, I just 
want to thank Chairman Menendez for chairing this important 
hearing and our witnesses for sharing their insights into what 
is an ongoing crisis.
    I joined my colleagues, including Chairman Menendez, 
Ranking Member Corker, in sending a letter to the President 
expressing bipartisan support for seeking a new strategy that 
will break the stalemate on the ground and enable a meaningful 
political solution that paves a new way for leadership in 
Syria. In my view, we cannot afford to sit on the sidelines as 
innocent civilians are killed and have to take steps to 
diminish the huge amount of suffering that has already happened 
in Syria while preventing the establishment of safe havens for 
al-Qaeda-related extremists. And I believe we need to 
recalibrate our policy in Syria.
    We have met a number of times, Madam Assistant Secretary, 
and I have always been impressed with your leadership, your 
insight, and your capabilities, especially in this most 
difficult of fields.
    So if you will forgive me for a moment, given that I have 
literally just returned from casting a vote. I was particularly 
interested in the impact of refugees on host countries in the 
region and in particular what you thought are the potential 
challenges for our most vital ally Jordan and other allies in 
the region. Forgive me if this has already been addressed.
    Ambassador Patterson. Thank you, Senator Coons.
    I know that many of you spoke to King Abdullah when he was 
here, and he was extremely eloquent about the challenges that 
Jordan is facing in this respect, not only in the refugee camp, 
which can become certainly a hot bed of its own resentments and 
insurgency, frankly, but also in the host communities because 
it has put a huge burden on Jordanian public services, as well 
as in Lebanon and elsewhere in the region.
    So in Jordan, in particular, we are increasing our 
humanitarian assistance. We are increasing our economic 
assistance, and we are increasing our assistance to Jordanian 
military and security forces, including on the border so they 
have a better capacity to patrol the border and prevent 
spillover, in effect, and also to train their irregular forces 
in a more aggressive way.
    In Lebanon, we are going to increase security assistance 
there as well. That really in numbers the most severely 
affected country. Trying to increase our humanitarian 
assistance there. In Lebanon, they are entirely in host 
communities. So it has put an enormous burden on the local 
population.
    Senator Coons. I have previously met with the Ambassadors 
from both Jordan and Lebanon in my Appropriations Committee 
role and was struck both at their gratitude for and their 
intense need for additional humanitarian assistance from the 
United States.
    I visited last year a Syrian refugee camp in Jordan, and 
the refugees expressed extreme frustration and anger at delays 
in the promised delivery of U.S. assistance and support.
    What can we do to express in any meaningful way a sense of 
abandonment by the United States felt by Syrians within the 
country and in the region? And how has that, in your view, 
manifested itself in terms of radicalization of the opposition 
forces?
    Ambassador Patterson. Well, I think one huge attraction to 
the opposition forces inside of Syria or the more extremist 
elements of the opposition forces is they pay money. They 
essentially pay salaries. So as I mentioned earlier, we are 
going to try and counteract that, at least within Syria, to try 
and pay police, sanitation workers, teachers, taxi, deliverer 
of public services and provide some balance to that respect.
    In the camps, Senator Coons, I think perhaps we have not 
done a very good job of identifying where the assistance comes 
from. Most of our assistance in these camps is channeled 
through very worthy international organizations, but sometimes 
the sources of funds is a little obscure, at least to the 
recipient. And we need to do a better job of articulating that 
because we are by far the largest donor and frankly a donor 
that delivers on our promises, unlike some of the others. But I 
must say the international community has been responsive in 
great measure to this crisis.
    Senator Coons. What more can we do to ensure that the 
assistance that we are providing goes to the intended 
beneficiaries and through channels that we expect, particularly 
with regard to lethal aid?
    Ambassador Patterson. Well, we are handling nonlethal, 
Senator Coons, and there were some issues with that in December 
where a warehouse was overrun by other elements. But now we are 
sending materials directly to trusted commanders, and the SMC 
has been very helpful in that respect because they have helped 
us identify commanders in whom they have confidence. So we are 
delivering goods directly to them, vetted commanders.
    Senator Coons. I am also, before I turn it over to another 
Senator, particularly interested in the progress toward the 
chemical weapons commitments that were made. How likely is it 
in your view that Syria will meet the June deadline for the 
removal and destruction of much of the chemical weapons 
stockpile? If Secretary Countryman would like to speak to that. 
Forgive me.
    Mr. Countryman. Thank you, Senator.
    We believe that there are no obstacles to completing the 
removal of the declared stockpile from Syria in the month of 
April, and it will require constant attention from the 
international community to make sure that happens. Assuming for 
a moment that it happens, we will be either on time or very 
close to on time to completing the destruction of those 
chemicals aboard the U.S.-outfitted ship. But the key point is 
that the most dangerous chemicals, those that the regime has 
used against its people, will be out of the hands of the regime 
well before June.
    Senator Coons. Last, if I could, as you go through a 
review, what do you think should be the overarching goal of 
United States policy toward Syria, and how do we execute on 
that? If you would both answer that, and then I will----
    Ambassador Patterson. Senator, the overarching goal at this 
point is to change the calculus on the battlefield so that the 
Assad regime has an incentive to negotiate, and we have not yet 
reached that point.
    The other, frankly, extreme concern of the administration 
is the growing terrorist threat emanating from Syria not just 
with individuals, although that is severe enough, but the 
possible establishment of a safe haven, semipermanent safe 
haven, in northeastern Syria.
    And those are two issues that need to be addressed 
urgently.
    Senator Coons. I agree with the urgency.
    Mr. Assistant Secretary.
    Mr. Countryman. Nothing to add, sir.
    Senator Coons. Great. Thank you both. I appreciate your 
testimony.
    Senator McCain.
    Senator McCain. Well, thank you, Senator.
    I thank the witnesses.
    So if I heard you right, we are going to change the 
calculus on the battlefield. Is that one of our policy goals?
    Ambassador Patterson. Our policy goal, Senator, is to move 
toward a negotiated settlement.
    Senator McCain. Can that happen without changing the 
calculus on the battlefield?
    Ambassador Patterson. Oh, of course, we will have to change 
the calculus on the battlefield because----
    Senator McCain. Thank you. We once had the calculus on the 
battlefield about 2 years ago before Hezbollah, Russian arms, 
Iranian Revolutionary Guard, and others.
    So tell me when I am wrong here. The Geneva gathering was a 
total and abysmal failure. The only concrete thing I have seen 
out of Geneva is that the families of the people who went there 
have been kidnapped by Bashar al-Assad. So they have paid a 
pretty heavy price to go to Geneva, as nice as it must have 
been that time of year.
    Syria-Iraq border is now a haven for al-Qaeda where they 
are moving back and forth.
    The weapons from Russia continue to flow in even according 
to a story I have here that they have even increased their arms 
supplies. Please correct me if I am wrong.
    Robert Ford, the former Ambassador to Syria, America alone 
cannot solve the Syrian crisis.
    We now see a front page story this morning about the fact 
that the Syrian resistance are now giving up because of the 
failure to achieve success where they now have a program to 
amnesty for these people supposedly.
    Maybe you can help me out here. How is that policy that you 
just articulated--how is that doing?
    Ambassador Patterson. Not very well, Senator.
    Senator McCain. Not very well.
    Ambassador Patterson. And I said that sort of front-up, 
right up front. Can I address the points you raised?
    Senator McCain. Sure.
    Ambassador Patterson. Look, on the Geneva process, I think 
we totally admit that these talks have faltered, and there is 
no process underway right now.
    But I think if you talk, Senator, to members of the 
opposition, first of all, it is sort of to unify the opposition 
and give them more credibility within Syria. And I think if you 
talk to them--and we are hoping they can come here soon--I do 
not think they would say that they were sorry they went, 
despite the enormous personal cost that some of them have 
endured, because it was a process that gave them legitimacy and 
also exposed the regime on the international stage.
    On the Syria-Iraq border, Senator----
    Senator McCain. Let me just respond to that assertion. So 
really, the purpose of Geneva was not to arrange the transition 
out of power of Assad. It was to give the opposition more 
legitimacy even though many of them had their family members 
kidnapped by Assad. I got that. Okay.
    What is the next point?
    Ambassador Patterson. Senator, that is not right.
    Senator McCain. It was a failure. It was a failure and it 
was doomed to failure because we knew that without the 
battlefield favoring Bashar al-Assad, he was not going to 
negotiate his departure. A first-year cadet at West Point knows 
that, Madam Secretary, that when they are winning on the 
battlefield, which Bashar al-Assad is, he is not going to 
negotiate his transition from power. So it was all Assad and a 
joke. Now, whether it helped some with the legitimacy of the 
opposition or not, I mean, that is a reason to have gone to 
Geneva?
    Go ahead.
    Ambassador Patterson. Again, Senator, I think you should, 
as we have and you will soon I am sure, talk to some of these 
individuals.
    Senator McCain. I have talked to them, by the way.
    Ambassador Patterson. I know. Okay.
    Senator McCain. I have talked to them. Please. I have been 
in Syria, ma'am.
    Ambassador Patterson. I know, Senator.
    And I would agree with you about the Syria-Iraq border. 
That border is beginning to disappear because of the presence 
of insurgence and extremists on both sides of the border.
    There is a constant flow of arms from Russia. I believe 
that they probably have increased recently. But it has been 
constant over quite a long period of time.
    I think you are referring to the article in the ``Wall 
Street Journal'' today about the cease-fires. The battlefield 
situation ebbs and flows, but yes, these are basically areas 
that have been defeated by the regime and basically develop a 
temporary cease-fire so food and supplies can get in.
    So I, frankly, would agree with much of what you said.
    Senator McCain. Well, you know the sad part about all this, 
Madam Secretary, is that those of us who observed Syria and saw 
what was happening there and said we must help these people and 
watched the 5,000 Hezbollah come in at the demand of Iran and 
watched the increased arms flows from Russia while we trumpeted 
the fact that we were arranging for the departure of the 
chemical weapons after, of course, we said we were going to 
strike them and did not, which reverberated around the world 
and still does--and we watched the slaughter take place and we 
knew what they needed. And they needed antitank and antiair 
capability even though there is always a risk with any weapons 
you give them. And we watched Bashar al-Assad succeed and 
consolidate his power.
    Meanwhile, it went from basically a civil war to now what 
is a regional conflict, destabilizing the neighbors, mass 
exoduses of refugees, and we decided the policy of this 
Government and this President was basically to do nothing. In 
fact, I remember it was said, well, we are keeping Iran pinned 
down. And the slaughter goes on--150,000 people.
    So our redline--it was not any of this, but the redline was 
that if Bashar al-Assad used chemical weapons, we would strike. 
So the President of the United States, I guess, according to 
media reports, took a walk and then came back and said, well, 
we are going to have to go to Congress, knowing full well that 
Congress would not agree. He never made the case to the 
Congress and the American people.
    So sometimes I apologize for getting a little emotional 
about this. This is a colossal failure of American ability to 
help people who are struggling for freedom. It is a colossal 
failure.
    Again, I guess what you just said is really the best 
example I can think of of the way we just practice this 
foolishness. The reason why Geneva was a success is because it 
gave legitimacy to the opposition who got their family members 
kidnapped? You know, it was advertised as a way to arrange 
Bashar al-Assad's departure from power, and anybody knew that 
as long as Bashar al-Assad was winning, they would not agree to 
transition from power.
    So, you know, it is really one of the great tragedies of 
the 21st century and maybe even in some ways the 20th. While 
the greatest nation in the world sat by and watched this 
genocide taking place and the spread of it and these thousands 
of al-Qaedas who will now, after this conflict is over or maybe 
before, go back to the countries they came from and practice 
the things they have learned, and we will again have sat by and 
watched.
    And no one that I know of wanted American boots on the 
ground. That is the favorite administration response. Well, I 
guess they want American boots on the ground. No, we never said 
that. We wanted to give them what they needed to defend 
themselves and win, which they were doing 2 years ago.
    So I thank you for your service. You and I have known each 
other for many, many years, but I have to be honest with you. 
You are here defending the indefensible and you still have not 
articulated a policy that the United States of America has.
    I thank you, Mr. Chairman.
    I am glad to hear a response if you want to.
    Senator Coons. If I might, Madam Secretary, by way of 
inviting that response, you agree with some of the factual 
predicates Senator McCain laid out about what has happened. In 
your opening statement, you suggested we are reviewing our 
policy and identifying priorities for coordinated action. Given 
where we are, how do you believe we can change the dynamics on 
the battlefield and lay the groundwork for a better path 
forward?
    Ambassador Patterson. Thank you, Senator Coons.
    And let me try and answer that, Senator McCain, because of 
course, I disagree that we do not have a policy. I would agree 
that many elements of our policy have not been successful, and 
I would also agree with you that the results on the ground are 
extremely distressing and of enormous long-term concern.
    But I think we are trying to revise our policy now. We are 
trying to accelerate equipment and goods to the opposition. We 
are trying to step up security assistance to the neighbors to 
allow them to better defend themselves against the spillover. 
We are trying to step up the humanitarian assistance elements 
of this. And we do have a diplomatic strategy that is not 
solely related to Geneva II. With the Contact Group and the 
international allies, we are working very closely on the CT 
area, in the counterterrorism area, with the other countries 
and intelligence-sharing. So we are trying to change the policy 
to address some of these issues that you so very eloquently 
laid out.
    Senator McCain. Well, I thank you. I guess my only response 
is facts are stubborn things. This conflict has been going on 
for over 3 years, 150,000 people dead, and we are now revising 
our policy.
    The Chairman [presiding]. Well, seeing no other member, 
here is the following thing. I think we want to get to the 
heart of the information, and so an immediate briefing I do not 
think would produce what the ranking member and I want to hear. 
So the ranking member and I have agreed to the following. We 
will have a classified hearing. Here is what we expect, and if 
you cannot do this, then let us know so none of us are wasting 
our time.
    Number one, what are all the military options being 
considered, and whether or not they have been chosen as it 
relates to assisting the vetted Syrian rebels inside of Syria?
    Two, what are all the actions, overt and covert, being 
taken at this time with elements of the vetted Syrian rebels?
    Three, what happens to undisclosed elements of chemical 
weapons that we may subsequently become aware of?
    Four, what is the consequence of Syria not meeting its 
obligations under the agreement to remove all of its--to 
destroy all of its chemical weapons by June the 30th?
    So that is what we want to know. I do not want to go to a 
classified hearing with what I read in the New York Times. If 
you cannot do that--and I want anyone and everyone who is in a 
capacity and at a level to answer those questions. Now, that 
may be you, Ambassador, which is fine. But I do not want to 
hear that it is somebody else. I want whomever is necessary to 
answer all of those questions.
    Senator Corker, is there anything you wanted to----
    Senator Corker. I think I was listening closely, and I like 
everything that you have said. I would like to end this hearing 
[in a classified session], if it occurs, hearing of every 
degree of assistance that we are giving the opposition. I want 
to hear every cell, decimal point. I want to hear every 
description of what we may or may not being doing relative to 
the opposition.
    And I want to say in my earlier comments my staff is a 
little concerned about one statement I made relative to Assad. 
My point is that from the standpoint of him being where he is 
today strategically, what he did with the chemical weapons 
while crass, while something that violates every international 
norm that we have, the way we have responded to that or the way 
we responded to him doing that has validated his position, 
caused him to be stronger, and actually caused him to garner 
support and be in a position where he is actually looking now 
at running for President again this summer. And that is my 
point relative to him strategically from his own survival 
standpoint making a decision that from his own survival 
standpoint was the smartest thing he possibly could have done 
because of the way we have responded and the fact that we have 
no strategy. We have done nothing to change the balance on the 
ground, nothing whatsoever. And in the interim, he has become 
validated in the process.
    So I thank you for that. I thank you for having this 
hearing. I am looking forward to this classified setting where, 
quote, all of this new information is going to be coming forth.
    The Chairman. And I would add one final thing for that 
setting, although I do not really think it is necessary for 
that setting, but in order to get the fullness of the answer, I 
want to know what role do we think that Russia and Iran, if 
any, will play as it relates to changing the dynamic in Syria.
    Ambassador Patterson. I am sorry, sir?
    The Chairman. I want to know what role, if any, do we think 
that Russia and Iran might play in changing the dynamic is 
Syria.
    Okay. With the thanks of--Senator Murphy, do you have a 
question for this panel? I was just about to excuse them.
    Senator Murphy. No.
    The Chairman. With the thanks of the committee, we look 
forward to seeing you in a classified setting.
    Ambassador Patterson. Thank you, sir. Thank you, Mr. 
Chairman.
    The Chairman. Let me call up our second panel: Dr. David 
Kilcullen, Chairman and Founder of Caerus Associates; Dr. Vali 
Nasr, Dean of the Johns Hopkins School for Advanced 
International Studies; and Jan Egeland, the Secretary General 
of the Norwegian Refugee Council. We invite our panelists to 
come on up.
    As I said to our previous panel, your full statements will 
be included in the record, without objection.
    I would ask you to summarize them in around 5 minutes or so 
so that we can enter into a dialogue with you. As a very 
prestigious panel, I think you can provide a lot of insights to 
us, and we look forward to your testimony.
    Dr. Kilcullen, we will start with you and then Dr. Nasr and 
then Mr. Egeland.

  STATEMENT OF DR. DAVID J. KILCULLEN, CHAIRMAN AND FOUNDER, 
               CAERUS ASSOCIATES, WASHINGTON, DC

    Dr. Kilcullen. Senator Menendez, Senator Corker, members of 
the committee, thank you for the opportunity to testify on this 
very important but also, as we have just seen, very 
controversial issue about options post-Geneva II for United 
States policy in Syria.
    I am going to confine my remarks primarily to things that 
have not already been discussed in detail, if that is okay. I 
agree with many of the factual points put forward by both the 
previous panel and the members of the committee in the 
discussion. We can elaborate some of those issues if you would 
like to.
    I would slightly differ with the point of view that the 
regime is winning the conflict on the ground. So with your 
permission, I will just talk a little about that.
    The regime at this point does not entirely control any city 
with the exception of downtown Damascus. In every other major 
population center, it has either been replaced by rebel 
governance structures or it is heavily contested by rural 
guerillas and urban resisters. And in fact, the Syrian 
countryside and smaller towns are very heavily contested, and 
even in formerly regime-controlled areas, we see significant 
opposition to the regime from the community.
    At this point, the regime has lost control of roughly 75 
percent of Syrian territory, and although rebel groups had 
fractured along ideological and sectarian lines in the past, in 
the last 4 months, we have actually started to see a drop in 
that degree of fragmentation. We have seen greater unity 
emerging within the opposition. We have seen, for example, the 
formation of the Islamic Front, which is comprised of seven 
Islamist factions that are working together, and the Southern 
Front, which just emerged several weeks ago, which has almost 
50 more moderate factions working together. And as a result, 
even though the regime has mounted some relatively successful 
military operations in the last couple of months, we have 
actually seen three separate and actually quite successful 
rebel operations against the regime in the same time.
    In general terms, I do not think that the regime is 
winning. I think that we are in what I would call an escalating 
stalemate. The conflict is getting more violent. It is not 
static. The degree of violence is ratcheting up, but at this 
point neither the rebels nor the regime is in a position to 
achieve outright military victory. And agreeing with former 
speakers on the panel, I think that that is, in fact, the key 
problem, that neither side at this point can actually win 
militarily but both sides, particularly the regime, still think 
that they can. And that has resulted in a fairly significant 
surge of violence this spring.
    So the regime's Qalamoun offensive, which I know you have 
been referring to indirectly, is focused on cementing control, 
although a very narrow triangle of territory from Aleppo in the 
north to Damascus in the south, and then west to the coast. And 
since January, government forces have, indeed, captured the 
town of Yabroud on the Lebanese border. They have advanced west 
of Homs. They have captured Krak des Chevaliers, the old 
crusader castle. They have killed a very large number of rebels 
recently in Ghouta, which is the same part to the east of 
Damascus where the chemical attack happened last August. So 
they have made some military progress on the ground.
    They have also consolidated the various nonprofessional 
irregular military groups that were working, known sometimes as 
shabiha, thugs, or ghosts, to oppress the population. They have 
consolidated them into the national defense forces, a force of 
about 60,000 fighters, which has become very important to them 
in holding ground. So there is some progress on the regime 
side.
    But just in the last month, insurgents seized districts on 
the north and east of Aleppo. They have increased their control 
in Aleppo province and in Idlib province. They have now cut off 
a very substantial number of regime outposts in the north. And 
in the northeast, a separate rebel offensive has been clearing 
regime positions in Deir ez Zor and along the Euphrates River, 
and a third offensive in the south mounted by the Southern 
Front has expelled the regime from most towns and villages in 
the Quneitra area closed to the Israeli border. And the rebels 
recently seized the central prison in Daraa, freed hundreds of 
prisoners, and cleared regime checkpoints in the city.
    Perhaps the most strategically damaging offensive to the 
regime right now, however, is the Latakia offensive that has 
been mounted by the Islamic Front in the northwest of the 
country along the coastal strip in the mainly Alawite pro-
regime province of Latakia. They have quickly seized the Kasab 
border crossing. They are fighting for control of Kasab town 
right now and for a series of key observatories and observation 
posts around the area. This is the same province that includes 
the Russian naval base of Tartus, which is now, to some extent, 
under threat. And we have seen some significant and very fierce 
fighting in just the last 24 hours, which has improved the 
rebels' position and actually brought them onto the 
Mediterranean coastline in control of a small town on the coast 
for the first time in the history of the war. And they have 
also killed President Assad's cousin, Hilal Assad, who was the 
head of the Syrian National Defense Forces.
    So I think the issue is not that the regime is winning. The 
issue is that neither side is winning. They are both very much 
in the fight. They all believe that they can still win, 
provided they just ratchet up the violence enough. And what we 
need to do--and I fully agree with Assistant Secretary 
Patterson on this--is we need to change the facts on the 
ground. We need to change the military calculus of the regime 
by altering its belief that it can win militarily.
    I am over time. So I will stop with my initial remarks, but 
I am very happy to talk in detail about all of those issues and 
also military options going forward.
    [The prepared statement of Dr. Kilcullen follows:]

              Prepared Statement of Dr. David J. Kilcullen

    Mr Chairman (Senator Menendez), Ranking Member (Senator Corker), 
members of the committee, thank you for the opportunity to testify 
today on options for future U.S. policy on Syria. I'd like to offer an 
assessment of the conflict, and of actions the United States might 
take--alone or with allies--to improve the prospects for a peaceful and 
strategically acceptable solution. With your permission I plan to limit 
my initial remarks to three issues: an overview of the current 
situation in and around Syria; a discussion of realistic goals; and an 
outline of policy options.
               current situation: an escalating stalemate
    The civil war in Syria entered its fourth year this month. Since 
March 2011, the conflict has escalated from initial mass uprisings by 
an unarmed, diverse collection of nationalist, pro-democracy and 
dissident groups, into a fragmented, complex, and increasingly violent 
sectarian insurgency against an entrenched regime.
    The regime doesn't entirely control any major city except downtown 
Damascus. In every other major population center it has either been 
replaced by rebel governance structures, or rural guerrillas and urban 
resisters are contesting its control. The Syrian countryside, outlying 
districts, and smaller towns are heavily contested, and even in 
formally regime-controlled areas there are active resistance groups and 
asymmetric attacks against the government.
    Even as the regime has lost control of roughly 75 percent of 
Syria's territory, rebel groups have fractured along sectarian, 
ideological, regional, or ethnic lines. This fragmentation has begun to 
reverse itself in recent months, with the emergence of the Islamic 
Front (composed of seven Islamist factions), the Southern Front 
comprising a loose alliance of almost 50 local groups in the south, and 
the reinvigoration of the Syrian Military Council with new leadership 
in recent weeks.
    In general terms, the conflict is in what we might call an 
``escalating stalemate.''
    Neither the regime nor the rebels can achieve outright military 
victory, yet both sides still believe they can win, and are escalating 
violence to improve their position. This has resulted in spring 
offensives by both the regime and the rebels, a surge of violence 
against civilians, and increased flows of refugees and internally 
displaced persons. Neither side can win under present circumstances, 
but that doesn't mean the conflict is static or winding down--on the 
contrary, all sides are ratcheting up the violence.
    The regime's Qalamoun offensive is focused on cementing control of 
a triangle of territory from Aleppo in the north, to Damascus, and west 
to the Lebanese border and the Mediterranean coast. Since January, 
government forces have captured the town of Yabroud near the Lebanese 
border, advanced west of Homs to seize three towns and clear a rebel 
stronghold in the Crusader castle of Krak des Chevaliers, and killed a 
large number of rebels in Ghouta, on the eastern edge of Damascus 
(where the regime used chemical weapons to kill up to 1,400 people in 
August 2013).
    Over the past year the government has also consolidated and 
professionalized dozens of irregular groups (including the shabiha 
gangs active early in the fighting, and numerous local sectarian and 
militia groups), unifying them into the National Defense Forces, a 
force of 60,000 fighters which has become an important regime tool in 
holding ground, providing local security garrisons, and guarding supply 
lines and installations, freeing up the Syrian Arab Army for major 
combat operations.
    But, in my view, recent media reports that ``the regime is 
winning'' significantly overstate the case. In the same timeframe as 
the government offensive, the rebels have mounted three successful 
major offensives of their own.
    Just in the last month, insurgents seized districts on the 
outskirts of Aleppo City, while increasing their control in the wider 
Aleppo and Idlib provinces, allowing them to cut off regime outposts in 
the north. In the northeast, a separate rebel offensive has cleared 
regime positions in Deir ez Zor and along the Euphrates River, while in 
the south, the Southern Front has expelled the regime from most towns 
and villages in the Quneitra area near the Israeli border. The rebels 
seized the central prison in Daraa, freed hundreds of prisoners, and 
cleared regime checkpoints in the city.
    Perhaps most strategically threatening to the regime, the Islamic 
Front, Jabhat al-Nusra and Ahrar al-Sham launched a joint offensive 
last week in the northwest, in the mainly Alawite pro-regime Latakia 
province. They quickly seized the Kasab border crossing and are 
fighting for control of Kasab town, potentially opening up a new rebel 
supply line from Turkey, threatening regime control of a key coastal 
province that includes the Russian naval base at Tartus, and (in fierce 
fighting this past Sunday) killing Hilal Assad, head of the Syrian 
National Defense Forces--the regime's paramilitary forces--who is also 
President Bashar al-Assad's cousin.
    So, despite regime successes, and a surge of violence that has seen 
almost 2,500 civilians killed in barrel bombings of residential areas 
since last November, and has pushed total deaths in the conflict to 
more than 146,000, neither the regime nor the rebels have the upper 
hand, both are still in the fight, and the war is--if anything--ramping 
up into an increasingly bloody guerrilla conflict.
    The inability of each side to prevail outright in military terms is 
reflected in the numbers, particularly the correlation of forces. 
Syrian regime forces of all kinds, including foreign allies, number 
between 190,000 and 341,000, while opposition forces (both Arab and 
Kurdish, and including foreign fighters) number between 135,000 and 
211,000. Based on these ranges, the best-case force ratio for the 
regime is roughly 2.5 to 1, and the best case for the rebels is about 
1.1. Given Syria's overall population size of 22 million, this leaves 
the government far short of the traditional 3:1 superiority for victory 
in a conventional conflict, and with only about half the ratio of 20 
counterinsurgents per 1,000 population that is traditionally expected 
for success in a counterinsurgency campaign. The rebels have even less 
ability to prevail in a conventional conflict, though they are somewhat 
more likely to achieve success via a protracted insurgent strategy. 
Clearly, numbers are not everything and do not predict a particular 
outcome--in this case, however, they suggest that the regime's 
confidence in a military victory is sorely misplaced.
    Further afield, the conflict is de-stabilizing Syria's neighbors. 
Lebanon, Turkey, and Jordan have been swamped by more than 4 million 
refugees, an influx that has created stresses on public health, water, 
public safety, electricity, and food and medical supplies. Syria is now 
the largest source of refugees on the planet, with 2.5 million refugees 
overseas, on top of another 6.5 million internally displaced persons. I 
should point out that 1.2 million of these refugees and IDPs are 
children, 425,000 of them under 5 years old, while boys as young as 12 
have been forced to fight as child soldiers or deliberately targeted 
for torture and execution in order to punish and coerce their 
communities.
    The water shortage created by the refugee crisis has made Jordan 
the third-most water-insecure country in the world, and has posed 
severe humanitarian challenges for Turkey and Lebanon. Lebanon has 
experienced internal conflict, as Hezbollah has sent 3,000-5,000 
fighters to support the Assad regime, undermining its claim to put 
Lebanon first and to act as protector of Sunni as well as Shia 
communities. In Iraq, we've seen a reemergence of AQI, in part because 
of a spillover of conflict from Syria, and the movement of both pro-
regime and pro-rebel fighters and supplies through Iraq into and out of 
Syria.
    The fighting threatens to draw in Syria's neighbors more directly: 
Syrian aircraft have recently been shot down by Jordan, Lebanon, and 
Turkey; there's been an Israeli strike on Syrian territory near 
Quneitra, and Syria's relations with its neighbors (excluding Iraq) are 
at an all-time low.
    At the same time, the regime's loss of control in Kurdish regions 
has contributed to the appearance of a de facto autonomous region of 
Syrian Kurdistan, centered on Hassakeh and linked both to the PKK in 
southern Turkey via the PYD, and to Iraq's Kurdish Regional Government 
via the Kurdish National Council. We're seeing PYD begin to come out on 
top in an internal struggle for control in Kurdish regions of Syria, 
establishing its own local governance structures, and excluding the 
regime from large parts of the country. PYD's control is contested 
(both by other Kurdish groups and Islamist groups such as ISIL) but 
it's not beyond the bounds of possibility that one outcome of the 
Syrian conflict may be the emergence of an independent Kurdistan, 
which--while it might be welcomed both by Kurds and by some countries 
in the region--would fundamentally affect the geostrategic balance in 
this part of the middle east.
    Inside Syria, the Islamic State of Iraq and the Levant (ISIL) has 
been pushed back by the Islamic Front and other rebel groups from its 
high-water mark of late 2013, so that it is now concentrated in Raqqa 
City in the northeast, where its support is steadily eroding due to its 
policy of beheadings, kidnappings, public torture, and the imposition 
of extremely strict Islamic codes. But the group still fields 6,000-
7,000 fighters, many of them foreigners from Iraq and the wider region.
    Further afield, we're seeing vast numbers of foreign fighters 
coming from as far away as Morocco, Tunisia, Libya, Egypt, the Gulf 
States, the Caucasus, Western Europe, and Southeast Asia. The scale of 
foreign fighter flows into Syria is now approximately 10 to 12 times 
the size of what we saw in Iraq, and involves fighters coming into the 
country to support both the regime and rebel groups. As Matthew Levitt 
recently testified before this committee, many of these fighters can 
eventually be expected to return to their home countries, with a 
significant regional destabilizing effect.
    For its part, the regime is increasingly dependent on foreign 
fighters from Hezbollah, on advisers and technical support from Iran 
(including the Iranian Revolutionary Guards Corps and the Quds Force) 
and on technical support, financial assistance, logistics and 
maintenance from Russia--especially for its air force. Russia also 
continues to provide armored vehicles, precision munitions (in limited 
numbers) and remotely piloted aircraft to the regime. Iran provides 
subsidized fuel, ammunition, and weapons, and has sent military 
advisers to train the paramilitary National Defense Forces, collect 
intelligence, and assist in command and control. Hezbollah special 
troops have been advising and leading Syrian military units, and showed 
their familiarity with urban guerrilla operations during the regime's 
Qusayr offensive last summer.
    One group of foreign fighters is especially worth noting--Chechens 
from the Caucasus, Uzbeks from Central Asia, and Tatars from the Crimea 
have traveled to Syria in recent years to fight a key Russian ally, 
learn military skills and participate in the jihad at a time when 
Russian operations, and those of Russia's local allies, have made it 
harder to operate in the Caucasus. The Chechen military commander 
Muhammad al-Shishani, killed earlier this year, commanded roughly 400 
Chechen fighters of the Jaish al-Muhajirin wal Ansar (the Army of 
Emigrants and Supporters), a group owing allegiance to the Islamic 
Emirate of the Caucasus, which fights under Jabhat al-Nusra within the 
Islamic Front. Other well-known fighters include Omar al-Shishani, a 
commander within ISIL, and Abdul Karim Krymsky, a Crimean Tatar from 
Ukraine, who is deputy emir of the Army of Emigrants and Supporters. 
Given recent developments in Crimea, it's an open question as to 
whether these fighters may now see an opportunity to return to Russian-
controlled territory in the Caucasus and Ukraine.
         why should the united states care, and what can we do?
    It's worth pausing to ask why any of this matters to the United 
States, why we ought to consider doing anything about it, and if so 
what we can do.
    I think there are three main reasons why the situation in Syria 
matters to us:
    First and most importantly, the conflict is a massive humanitarian 
tragedy, and one that is escalating--the violence is ratcheting up, and 
it can go up a lot further before the parties to the conflict accept 
the need for a negotiated settlement, if they ever do. Genocidal 
sectarian and ethnic rhetoric is coming from several rebel groups, 
backing Syria's large Alawite community into a corner and leaving them 
little current option but to support the regime, despite feelings of 
resentment and disillusionment against the government among many. The 
regime has killed thousands of innocent civilians with chemical weapons 
and barrel bombs, and through denial of basic services like food, 
water, and medical assistance to civilians in rebel-controlled areas. 
It has also tortured something like 11,000 detainees to death over the 
course of the conflict. Things could still get much, much worse, with 
enormous humanitarian impact, but also with the potential to create a 
longstanding, violent, ethnosectarian conflict across the whole region 
for decades to come.
    Secondly, the conflict in Syria is destroying stability in Iraq. 
Syria is not the only cause of instability in Iraq, but the conflict 
has revived AQI, has contributed to a collapse in relations between the 
KRG and Baghdad, and has launched several new Sunni Arab rebel groups 
who are now holding territory in areas that were cleared of the 
insurgency back in 2007-2008. Violence in Iraq is now at levels not 
seen since the worst days of the war in 2006. There's a very real risk 
that a continued escalation in Syria could fatally undermine everything 
that we worked for: the relative stability and safety that 1.5 million 
Americans fought for in Iraq over the last decade (and for which 4,500 
Americans died and 30,000 were wounded) rendering the whole massive 
Iraq effort for naught.
    Finally, the conflict threatens key allies--Jordan, Turkey, Israel, 
Lebanon, and countries further afield are all experiencing the 
spillover of violence, refugee movement, and overstress that the war 
has created, and they could either be drawn into the conflict or have 
their stability and security significantly undermined by it. The 
conflict in Syria not only harms millions of innocents, but it also 
undermines our whole strategic position in the broader region.
    I think these facts suggest that we should do something, but it's 
worth asking if there's anything that we can do, beyond what we are 
already doing. The national mood is clearly against another war, but 
the American people have often been offered a false choice between 
doing nothing, and committing ground combat forces to a full-scale 
invasion (``boots on the ground''). I don't believe such an all-or-
nothing approach is helpful, and indeed there are several options short 
of major conflict that are worth considering. Before looking at policy 
options, however, we need to consider what our goals should be.
                              policy goals
    Current U.S. policy goals, to the extent that they've been clearly 
articulated, seem to be to offer humanitarian assistance inside Syria; 
to contain regional conflict; and to disrupt foreign fighter flows 
further afield. Our actions to date have sought to ameliorate 
conditions on the ground, contain regional destabilization by 
reassuring partners and friends, and disrupt flows of foreign fighters, 
military material, illicit goods and finances into and out of the 
conflict.
    U.S. policymakers have previously suggested that President Assad 
needs to step down, but with a fragmented and increasingly radicalized 
opposition our leaders have often seemed to shy away from that goal, 
for fear of what a successor regime might look like. And, perhaps 
sensing our ambivalence, in the Geneva talks the Syrian negotiators 
rejected even the notion of a transitional government: the regime 
instead is planning to hold national elections in June to cement 
President Assad in power for another term.
    The United States also backed away from our own announced redline 
in September 2013, when we failed to follow through on previous threats 
to act against regime targets in the wake of the Ghouta chemical 
attack, and instead allowed the regime to negotiate for a gradual 
dismantling of its weapons stocks. To date only about 50 percent of 
Syrian chemical weapons have been transported to Latakia for 
destruction, the Syrian Government has missed several deadlines set by 
OPCW, and it is currently negotiating for a further extension of the 
handover deadline. The weapons destruction process is on hold because 
of the breakdown in cooperation between the United States and Russia 
after Russia's annexation of Crimea, and the regime seems in no hurry 
to complete the dismantling of its weapons, since once the weapons are 
no longer there, and the regime is no longer needed to safeguard them, 
the Syrian Government's leverage with the international community will 
be dramatically eroded. Meanwhile our own diplomatic leverage is 
negligible, in part because of our demonstrated lack of willingness to 
back diplomacy with action. In effect, in 2013, we called our own 
bluff, and our interlocutors--Iran, Russia, and the Syrian Government--
are treating us accordingly.
                         future policy options
    I want to suggest that the goals that have animated U.S. policy to 
date, far from being overly ambitious, have actually been too 
minimalist. We've sought to contain and manage the conflict, but not to 
end it. Unsurprisingly, we've found it extraordinarily difficult to 
rally allies or the American people around such a minimal goal, which 
offers little positive result to offset its undeniable costs.
    I would argue that our approach should instead be to seek an end to 
the conflict via a negotiated settlement, and to increasingly telegraph 
our willingness to use military means to force that outcome. Our use of 
force in this case would serve the strategic purpose of convincing the 
regime that it can't win militarily and needs to seek a peaceful 
solution. Our preference would be for indirect means where possible, 
but our policy would contemplate direct military action if needed. If 
the problem is that both sides still think they can win militarily, and 
thus don't feel that they need to negotiate, then the solution is to 
convince one or both sides that it cannot win and that its best option 
is to talk. Without that willingness to negotiate, founded on a 
realization that there's no chance of military victory, the conflict is 
likely to just keep ratcheting up, with all the negative consequences 
discussed already.
    Some specific policy recommendations, then:
    1. Ignore the June elections. We should ignore the regime's planned 
elections scheduled for this summer, which will certainly result in a 
manipulated landslide vote in President Assad's favor. The regime's 
strategy at present seems to be to use the Geneva II process to buy 
time, while it ramps up military operations in Syria to expand the 
territory and population it controls, using its military success to set 
the conditions for the Presidential elections, which are the key to 
President Assad's medium-term strategy to stay in office. We need to 
let it be known now that any election result achieved under these 
conditions would be illegitimate and invalid. And when the elections do 
inevitably take place, we should treat the result as null and void.
    2. Exploit linkages with other issues. We should exploit linkages 
between Syria and other issues: particularly, Russia's intervention in 
the Ukraine and the increasing economic cost and political isolation 
that Moscow will experience as a result. With several hundred fighters 
from the Caucasus, including Crimean Tatars, operating in Syria, and 
the recent rebel offensive in Latakia threatening Russia's naval 
presence, there's a clear potential for violence in Syria to spread to 
Russian-controlled territory. Over time, establishing a linkage between 
Russia's actions in Ukraine and its support for the Assad regime may 
offer an opening to convince Russia to cease its active support and 
perhaps even to help convince the regime that a negotiated solution is 
in all parties' best interest.
    3. Focus on peace-building at the local level. As we think about 
what a negotiated solution might look like, one key element is to build 
local momentum toward a peaceful settlement of the conflict. A striking 
aspect of the Geneva II talks (mentioned in the attached research paper 
prepared by our Syria field research team) was how few Syrians saw 
either the regime, or the representatives negotiating in Geneva on 
behalf of the rebels, as legitimate representatives of the Syrian 
people. In a series of surveys conducted in Aleppo--Syria's largest 
city and one of the most heavily affected by conflict--the most common 
response to question ``Who is the legitimate representative of the 
Syrian people?'' was ``No one.'' The combined total of support for both 
the rebel negotiators and the regime across all surveys conducted was 
never higher than 12 percent, suggesting that almost 9 out of 10 
Syrians had no faith in (and therefore very low expectations of) the 
Geneva process. If subsequent peace talks are to succeed, Syrians at 
the local level must develop cross-community interest in a peaceful 
settlement.
    4. Expand assistance programs to the opposition. Ultimately, 
however, if a peace process is to have any chance, it must begin from a 
different set of facts on the ground than currently exist and, in 
particular, the Syrian regime must realize that it has no chance of a 
military victory. To underline this point, the international 
community--including the United States--should continue and, if 
possible, expand assistance to the opposition, across four dimensions: 
humanitarian assistance; nonlethal technical support; training and 
advisory support; and lethal technical weapons systems:

  <bullet> Humanitarian assistance (including food, water, medical 
        support, and education) is key to defeating the regime's 
        strategy of denying essential humanitarian supplies and 
        services to opposition areas. We can therefore expect continued 
        regime opposition to the distribution of humanitarian 
        assistance, but this provides an opportunity not only to assist 
        Syria's civilian population but also to break the regime's 
        stranglehold on besieged areas.
  <bullet> Nonlethal technical support to rebel forces, including 
        communications equipment, medical supplies, clothing and 
        equipment, vehicles and logistics has been a key motivator for 
        rebel groups to join together into more cohesive organizations 
        such as the Southern Front. For most of the conflict, a 
        unifying factor among regime supporters has been the 
        centralization of funding and assistance through the Syrian 
        Government, which has tended to draw groups together. As the 
        formation of the Southern Front shows, it's possible for 
        international assistance to the opposition to have a similar 
        unifying effect. As new rebel offensives along Syria's borders 
        open up more access points, we should expand this assistance--
        in geographical spread, in volume, and in quality.
  <bullet> Training and advisory support, whether delivered directly by 
        U.S. personnel or by allies or civilian contractors, has the 
        potential to raise the fighting quality of rebel forces. This 
        is important not only because it helps them combat the regime 
        more effectively, but because one of the key aspects in the 
        attractiveness of extremist jihadi groups is their reputation 
        for greater military competence, skills, and effectiveness in 
        the field. To the extent that we can help improve the command 
        and planning skills, tactical quality and operational 
        effectiveness of nonjihadist rebel groups in Syria, we can not 
        only help redress the unfavorable correlation of forces vis-a-
        vis the regime, but can also strengthen secular, nationalist, 
        pro-civil society groups in relation to more extreme factions 
        of the insurgency.
  <bullet> Lethal technical weapons support--including small arms and 
        light weapons, heavier artillery/mortars and their associated 
        technical fire control systems, and (most importantly) advanced 
        man-portable and vehicle-mounted air defense systems capable of 
        defeating regime air platforms and helicopter-launched ``barrel 
        bomb'' attacks on civilians, would make a critical difference 
        in the conflict. As experience in Afghanistan, Libya, Iraq and 
        elsewhere has shown, with appropriate safeguards and oversight, 
        and with careful selection of weapon types and management of 
        ammunition availability, the threat of terrorist acquisition of 
        such weapons is relatively manageable.

    5. Plan for limited military strikes. No option--including military 
options--should be off the table at this point. The policy options I 
have suggested here work best when they work together, where the threat 
of force increases the leverage of our diplomats while diplomatic 
efforts toward a peaceful settlement help improve the chances of a 
successful military action. We should initiate planning toward a 
campaign--focusing on limited air strikes supported by airborne and 
ground tactical effects controllers, with limited special operations 
forces advisory support, intelligence support and naval operations 
offshore--designed to simultaneously guarantee the protection of at-
risk civilians via safe zones, no-fly areas and humanitarian corridors, 
and to target critical regime capabilities in order to convince the 
regime that its best option is to negotiate an end to the conflict, 
most likely via a transitional coalition government under international 
supervision. Extremist groups undermining such a peaceful outcome would 
become legitimate targets in a subsequent phase of such a campaign. We 
may, for example, publish a list of regime targets and capabilities, 
several of which may be struck in retaliation for attacks on civilians, 
while simultaneously opening up humanitarian corridors or safe zones 
and denying the regime the ability to move armored units, mount air 
strikes or receive resupply via sea and air from its allies.
    This would entail planning for the possibility of a coalition 
military campaign on roughly the scale of the Kosovo or Libya 
interventions, and would undoubtedly not be without human and financial 
cost, but it would have the advantage of promoting a clear and 
achievable political goal, after repeated attempts at negotiations and 
other peaceful means had failed, and would avoid the scenario of regime 
collapse and the emergence of a jihadi state in Syria.
    I want to emphasize in closing that I'm not suggesting we 
immediately jump to a military option, nor that such an option would be 
cost-free or guaranteed to work. My point is merely that we do have a 
range of options short of a major ground operation, that we need to 
demonstrate a willingness to consider military action if we are to 
restore some leverage to our diplomatic efforts in the wake of last 
year's loss of credibility, and that (given the increasing 
international isolation and economic strain experienced by Syria's 
major ally, Russia) this may be an opportunity to push for a peaceful, 
negotiated outcome to the conflict, rather than the present escalating 
stalemate. Ultimately, we should continue to seek a peaceful solution 
through diplomacy, but paradoxically the effectiveness of our 
diplomatic initiatives (and hence the prospects for peace) may depend 
on our willingness to plan for, and ultimately use, a measure of 
military force.

[Editor's note.--The research paper mentioned above was too voluminous 
to include in the printed hearing. It will be retained in the permanent 
record of the committee.]

    The Chairman. We will look forward in the Q&A to picking up 
on your last statement, which is how does one change those 
calculations.
    Dr. Nasr.

   STATEMENT OF DR. VALI NASR, DEAN, JOHNS HOPKINS SCHOOL OF 
         ADVANCED INTERNATIONAL STUDIES, WASHINGTON, DC

    Dr. Nasr. Good afternoon. Thank you, Mr. Chairman, Ranking 
Member Corker, and members of the committee, for giving me this 
opportunity to testify before you about this very important 
issue.
    I will limit my testimony to a discussion of our diplomatic 
strategy.
    Since 2011, the crisis in Syria has evolved from an 
uprising of the people in a quest for freedom into a civil war 
which has now broad international and regional implications. I 
agree with Dr. Kilcullen that there is no immediate sign of an 
end to the fighting, that neither the Assad regime nor the 
opposition is currently strong enough to win, and the civil war 
is bound to continue moving toward what looks like an 
intractable stalemate.
    I think this poses some serious national security 
challenges to the United States and a threat to global 
security, first, because I think the humanitarian crisis has 
evolved into a regional security issue; secondly, the 
proliferation and entrenchment of extremism is now a major 
concern; and thirdly, because the Syria conflict has evolved 
into a regional struggle for power on the one side between 
Turkey, Qatar, and Saudi Arabia and, much more importantly, 
between Iran and Saudi Arabia.
    Now, the international effort led by the United Nations in 
two rounds of talks in Geneva have failed to end the war. I 
think those efforts were primarily focused on reaching an 
agreement between the United States and Russia, which actually 
has strategic, economic, and historical motivations to support 
the Assad regime in power.
    The United States went to Geneva II believing that Assad's 
removal from power is essential to ending the conflict, whereas 
Russia's position is based on the fact that Syria is a case of 
a global threat by Islamic terrorism and extremism and that is 
the primary issue to be discussed.
    However, it is important to note that the United States and 
Russia are not the main outside actors in Syria. Rather, both 
the Assad regime and the opposition are armed, financed, and 
supported by regional actors. The Assad regime owes its 
survival not to Russia but to Iran and its regional allies, 
Hezbollah and Iraqi militias whose military and intelligence 
support has kept the Assad regime from crumbling and then 
taking the offensive. Similarly, it is Turkey, Qatar, Kuwait, 
and Saudi Arabia that have financed and armed the opposition 
fighters, keeping up the pressure on Damascus.
    I do not see any evidence of a United States military 
strategy. So as a result, all the focus is on a diplomatic 
strategy. I think repeating Geneva II will not achieve the 
intended result of ending the stalemate in Syria. First of all, 
United States-Russia dynamics have become more complicated by 
the Ukraine crisis. If these two nations could not agree on 
Syria before, it will be much more difficult to do so following 
the Russian annexation of Crimea.
    Now, treating Russia as a partner from this point forward 
will actually cause resentment and cynicism in the Middle East. 
It will actually show that the United States is determined not 
to act in Syria, even at the cost of aligning itself with 
Russia, despite what has happened in Ukraine, and it will also 
will give Russia an added opportunity to use Syria as a way of 
managing the Ukraine crisis.
    Secondly, even if there was a United States-Russia 
agreement on Syria, it could not be implemented without the 
support of regional actors which have a stake in the conflict.
    So I think there is need for a new approach to the 
diplomatic resolution of the Syria crisis, I think one that 
starts with the following assumption.
    One is that regional actors now have far more at stake in 
this conflict than the United States or Russia.
    The Syrian civil war is now integral to a regional struggle 
for power, the outcome of which will decide the balance of 
power between Saudi Arabia, Turkey, and Qatar on the one side, 
as I mentioned, Saudi Arabia and Iran. These regional powers 
are acting with the understanding that the future of the Middle 
East is being decided in Syria.
    The Middle East, in the meantime, lacks any regional 
mechanisms that would allow these regional actors to resolve 
the conflict through any form of negotiations.
    As a result, given these assumptions, the time has come for 
the United States and the international community to consider 
an approach that would actually take into account the interests 
and stakes of the regional actors.
    Now, the Syrian conflict is happening at a time of big 
change in the region. We are seeing a collapse and inclusion of 
Egypt, traditionally the most important and influential Arab 
country. We are seeing and intensification of conflict between 
Qatar and Saudi Arabia. We are seeing a chilling of relations 
between Turkey and Saudi Arabia, and we are seeing an 
escalation of regional rivalry between Iran and Saudi Arabia.
    Now, a diplomatic solution, nevertheless, would require the 
acquiescence and support of these powers, and therefore, the 
task I think before the international community as a first step 
is to bring an alignment between the positions of Qatar, 
Turkey, and Saudi Arabia, three American allies in the region 
that have enormous influence on both the political opposition 
and fighters on the ground but actually lack coordination, and 
their policies are not aligned together. Creating an alignment 
between these powers will actually help unify the Syrian 
opposition, which was one of the reasons why the Geneva talks 
was not taken seriously by Iran, Russia, and the Assad 
government and actually, in and of itself, is a changing of the 
facts on the ground short of military intervention.
    I think it is much more important in the short run that the 
United Nations and the United States focus on shuttle diplomacy 
in the Middle East rather than convening a large-scale Geneva-
like conference.
    I will conclude my remarks at this point.
    [The prepared statement of Dr. Nasr follows:]

                 Prepared Statement by Dr. Vali R. Nasr

                              introduction
    Thank you Mr. Chairman, Ranking Member Corker, members of the 
committee for this opportunity to testify before you on options for 
addressing the crisis in Syria after the Geneva II talks, and in 
particular on the geopolitical implications of the conflict.
    My name is Vali Nasr and I am the Dean of the Paul H. Nitze School 
of Advanced International Studies at the Johns Hopkins University.
    Since 2011, the crisis in Syria has evolved from an uprising of the 
people in a quest for freedom into a civil war with broad international 
and regional implications. There is no sign of an end to the fighting. 
Neither the Assad regime nor the opposition is strong enough to win, 
and the civil war is bound to continue, moving toward an intractable 
stalemate.
    The international effort led by the United Nations in two rounds of 
talks in Geneva failed to end the war. Those efforts focused primarily 
on bringing about an agreement between the United States and Russia, 
which has strategic, economic, and historical motivations to support 
the Assad regime. That goal proved elusive because

--The United Nations failed to bridge the gap between the United States 
    and Russia. The United States sees Assad's removal from power as 
    essential to ending the conflict, and therefore saw Geneva talks as 
    the mechanism for replacing the Assad regime with a transitional 
    government. Russia sees the problem in Syria as one of extremism 
    and Islamic terrorism. Furthermore, Russia does not envision an 
    outcome in which Assad steps down; in the unlikely event that Assad 
    ever did step down, Russia does not believe it would lead to a 
    viable government that can rule Syria.
--The Geneva talks downplayed the importance of regional actors. The 
    United States and Russia are critical to galvanizing the 
    international community around a solution to the Syrian crisis. 
    Cooperation between the two is important in the United Nations 
    Security Council, as was evident in securing an agreement to 
    dismantle Syria's stockpile of chemical weapons.
    However, the United States and Russia are not the main outside 
    actors in Syria. Rather, both the Assad regime and the opposition 
    are armed, financed, and supported by regional actors. The Assad 
    regime owes its survival not to Russia but to Iran and its regional 
    allies, Lebanon's Hezbollah and Iraq's Shia militias whose military 
    and intelligence support has kept Assad's forces from crumbling and 
    then taking the offensive. Similarly, it is Turkey, Qatar, Kuwait, 
    and Saudi Arabia that have financed and armed the rebels, keeping 
    up the opposition's pressure on Damascus.

    Repeating Geneva II will not achieve the intended result of ending 
the stalemate in Syria. First, U.S.-Russia dynamics have become more 
complicated by the crisis in Ukraine. If the two nations could not 
agree on Syria before, it will be all the more difficult to do so 
following the Russian annexation of Crimea. Second, even if there was a 
U.S.-Russian agreement on Syria, it could not be implemented without 
the support of regional actors with stakes in the conflict.
    There is need for a new approach to Syria, one that starts with the 
following assumptions:

--The regional actors have far more at stake in this conflict than the 
    United States or Russia.
--The Syrian civil war is integral to the regional struggle for power. 
    Its outcome will decide the balance of power between Saudi Arabia 
    and Turkey, Saudi Arabia and Qatar, and most significantly, Saudi 
    Arabia and Iran. These regional powers are acting with the 
    understanding that the future of the Middle East will be decided in 
    Syria.
--The civil war has touched off regionwide sectarian tensions that have 
    polarized opinion on Syria and cast the conflict as a zero-sum 
    struggle for power between Shias and Sunnis.
--The Syrian refugee crisis has become a regional security challenge. 
    The number of refugees in Lebanon, Jordan, Iraq, and Turkey is an 
    economic burden and political threat to those countries--and this 
    problem will only grow as more refugees escape the fighting.
--The Middle East lacks any regional mechanisms that would allow 
    regional actors to resolve this conflict.

    Given these assumptions, the time has come for the United States 
and the international community to consider a new diplomatic approach 
that incorporates the interests and stakes of all regional powers 
heavily invested in Syria.
                  the regional actors' stake in syria
    The Syrian conflict is happening at a time of geostrategic change, 
domestic turmoil, and rebalancing of power in the Middle East. Egypt, 
the largest and traditionally most influential Arab country, is 
preoccupied with internal problems. Meanwhile, Qatar, Turkey, Saudi 
Arabia and Iran have all amplified their engagement in Syria to tilt 
the balance of power in favor of their particular geopolitical 
interests.
Qatar
    Qatar has intensified its regional role, and that has been an 
irritant to its old rival, Saudi Arabia. Qatar sees its role in Syria 
as part of its broader design to influence regional trends, which also 
includes deep engagement in Libya and Egypt. Qatar's support in Syria 
has been important to key elements of the political opposition and 
fighters on the ground.
Turkey
    Turkey shares a long border with Syria and is now home to a large 
Syrian refugee population. Turkey's policy toward Syria was premised on 
the assumption that the Assad regime would fall quickly. Three years 
on, this assumption is no longer self-evident, and Turkey finds itself 
threatened by chaos and growing extremism next door. Turkey is worried 
that Syria's sectarian tensions would spill over into Turkey, and also 
that the impact of the fighting on Syrian Kurds would impact Turkey's 
own delicate Kurdish situation.
    Turkey no longer has influence with the government in Damascus, and 
it has had to compete with Saudi Arabia and Qatar for influence over 
the opposition. In addition, preoccupation with domestic issues has 
limited Turkey's ability to exercise control over developments in 
Syria. These circumstances are pushing Turkey to look for a strategy to 
end the Syrian civil war.
Saudi Arabia
    Saudi Arabia has been unhappy with Turkey's growing influence in 
the Middle East. Saudi Arabia, Qatar, and Turkey have been competing 
for influence over the Syrian opposition--which explains in part the 
opposition's inability to put up a united front before the Assad 
regime.
    More important, Saudi Arabia sees the outcome in Syria as critical 
to checking and even reversing Iran's regional influence. If the Assad 
regime falls, Iran would suffer a strategic blow that could also weaken 
its position in Lebanon and Iraq.
Iran
    Iran by the same token sees the survival of Assad's regime as a 
vital strategic imperative. The appearance of defeat in Syria would 
weaken Iran's regional influence, but also make it more difficult for 
Iran to continue negotiations with P5+1--for fear that its perceived 
weakness would make the international six-party team unyielding.
                            recommendations
    The time when the Syria conflict could have ended with an agreement 
between the United States and Russia has passed.
    Currently the four Middle East powers--Qatar, Turkey, Saudi Arabia, 
and Iran--have far higher stakes in Syria than the United States and 
Russia, hence their heavy investments in deciding the outcome. A 
diplomatic solution must have their acquiescence and support.
    The task remains before all of us to facilitate an agreement to end 
this war. The United States and the international community could 
provide the necessary link to get the regional backers of the warring 
factions to start a diplomatic process. In particular, the United 
States has strong ties with Qatar, Turkey, and Saudi Arabia and should 
use that influence to bring their positions in Syria into alignment.
    As a first step, the United States and its European allies should 
focus diplomatic attention on

--Bringing Saudi, Qatari and Turkish positions on Syria into alignment;
--Unifying the Syrian opposition;
--Laying the groundwork for a regional diplomatic framework for ending 
    the war in Syria. That framework could set the parameters for Iran 
    and Iraq's participation in the process.

    The Chairman. Mr. Egeland.

STATEMENT OF JAN EGELAND, SECRETARY GENERAL, NORWEGIAN REFUGEE 
                     COUNCIL, OSLO, NORWAY

    Mr. Egeland. Thank you very much, Chairman Menendez, 
Ranking Member Corker, members of the committee.
    I am the Secretary General of the Norwegian Refugee 
Council. We have 1,000 staff members on the ground in and 
around Syria. We assist 700,000 Syrian displaced and refugees.
    Through 30 years of humanitarian work, I have visited most 
of the major war zones and disaster zones of the past 
generation. I have never, ever before witnessed the kind of 
suffering that we now see in Syria.
    Last month, when I visited Syria and Lebanon this time--it 
was my sixth visit to the region since the war started--I met 
Myriam, this 8-year-old girl, who told me that her home was 
destroyed by rockets 1 year ago. Then her family joined the 6.5 
million internally displaced in Syria. Twice more, their 
improvised homes were destroyed by the fighting, and in the 
end, they ended up--the family--among the 1 million refugees in 
Lebanon. Myriam has one big dream, and that is to become a 
medical doctor because she wants to return to her country and 
treat the injured and the ill.
    I would like now, since I did a detailed written testimony, 
only to make four following points in answering to the 
questions I got in the e-mail beforehand.
    First, we need the United States to pursue political 
dialogue with all sides and push for respect of the laws of war 
and for conflict resolution talks. With Russia, the United 
States brought about an agreement to destroy the chemical 
weapons. We have not had any commensurate humanitarian 
agreement or humanitarian cease-fire reached. It should not be 
more easy to reach and retrieve chemical weapons than it is to 
reach and help evacuate women and children from besieged 
cities. As humanitarians, we see the horrible effects of 
political paralysis every day. We ask that all countries with 
leverage on the parties, on their sponsors, or on their 
suppliers must put pressure where they can.
    Second point. The U.S. policy needs to work for unimpeded 
aid delivery to all civilians caught in the cross-fire or 
caught in the many besieged towns. Millions with unmet needs 
can most directly be reached from across Syria's borders. The 
time has come, in our view, for the U.S. Government, other 
donors, the United Nations, and neighboring countries to put 
their full weight behind full-scale and effective cross-border 
relief. And the U.N. Security Council Resolution 2139 and 
international law give a clear legal basis for such cross-
border relief.
    My third point. The U.S. policy must ensure that all 
humanitarian assistance to Syria is, and is perceived to be, 
impartial, neutral, and independent from political agendas. I 
repeat. The humanitarian relief needs to be impartial and 
neutral and independent from political agendas. It is dangerous 
for the civilians we help and for our fieldworkers on the 
ground if humanitarian relief is politicized or militarized. 
So, for example, counterterror laws must not be applied in this 
case in a way that harms our ability to provide impartial 
relief to women and children in disputed areas.
    Finally, the United States is, indeed, the world's greatest 
donor and we thank you for that. But increased funding is 
needed with the dramatic increase in refugees, displaced, and 
war-affected. Only 12.5 percent of the overall U.N.-led appeals 
for the region and for Syria of $6.5 billion has been met for 
2014--12.5 percent so far. Syria's neighbors have so far 
generously accepted 2.5 million refugees and more come every 
single day. The region faces instability and social and 
economic collapse. Increased aid is urgently needed in 
particular to Lebanon and Jordan. And the United States, 
European countries like my own must allow more Syrian refugees 
to cross their borders.
    So, Mr. Chairman, we need to provide hope to the 6 million 
affected Syrian children. If they lose all hope, we will not 
only end up with unspeakable misery, but with a more unstable 
Middle East and a world community that is unstable. It is, 
therefore, in keeping with our values and in our interests to 
do more to help a future for the children of Syria.
    Thank you.
    [The prepared statement of Mr. Egeland follows:]

                   Prepared Statement of Jan Egeland

                              introduction
    Chairman Menendez, Ranking Member Corker, and members of the 
committee, I thank you for this opportunity to input into your 
deliberations on the next steps for U.S. Policy. Let me also applaud 
the efforts you have made to bring attention to the plight of millions 
of Syrians, who continue to suffer as a result of this appalling 
conflict, now entering its 4th year.
    I am the Secretary General of the Norwegian Refugee Council (NRC), 
an independent, humanitarian nongovernment organization that assists 
and protects millions of displaced people worldwide, including more 
than 700,000 Syrians across the Middle East.
    I have been active in humanitarian and human rights work for more 
than 30 years and have visited many of the worst war- and disaster-
zones of this past generation. I have never before seen the scale of 
suffering now present in Syria. Syrian families, and in particular the 
Syrian youth, are losing hope fast. We must restore hope, rebuild 
schools and provide a future for Syria's children.
    I have previously had the opportunity to come to Congress to 
discuss the humanitarian challenges we have faced elsewhere in the 
world. I have seen how bipartisan support in and from this Senate has 
helped mobilize relief and hope for societies plagued by war and 
repression--from Darfur to northern Uganda and eastern Congo. Your 
support can help us again as we face even greater challenges in Syria.
    Last month I was back in Syria and Lebanon--my sixth visit to this 
region since the war broke out. I saw once more the extreme challenges 
faced by the U.N., NGOs, and the Red Cross/Crescent in accessing the 
millions of people denied food, water, and medical supplies across the 
country. While I was there, extremely challenging negotiations to 
evacuate civilians from the besieged Old City of Homs were taking 
place. Painstaking efforts to agree a local cease-fire with a multitude 
of warring parties did not prevent U.N. and Red Crescent colleagues 
being shot at while entering Homs.
    With the heroic efforts of Syrian and expatriate humanitarian 
workers operating across the country, assistance is reaching many parts 
of Syria and lives are being saved. However, it is nowhere near enough. 
Too many defenseless and suffering civilians are not being reached and 
the risks that humanitarians are forced to take in their daily work are 
totally unacceptable.
    And the situation is not getting better. A year ago I traveled to 
the city of Aleppo and witnessed how desperate mothers, fathers, and 
neighbors were searching with their hands through the rubble of their 
destroyed apartment, trying desperately to find their own children, 
relatives, or friends. Missiles had hit heavily populated civilian 
areas the night before. After seeing the scale of suffering, I could 
not believe that the conflict could get any worse--but it has. Twice as 
many people in Syria are now dead or in urgent need of aid as when I 
was in Aleppo.
    The stories I hear from Syrians who have fled the violence and from 
aid-workers are horrific: With active conflict, widespread disregard 
for basic moral and ethical standards, as well as the excessive 
restrictions imposed by the Syrian Government and opposition forces on 
humanitarian operations, millions of Syrians continue to be denied 
access to lifesaving humanitarian aid. The bureaucratic hurdles of some 
neighboring countries are further complicating our ability to operate. 
We request your further support to compel the Government of Syria and 
warring parties to remove all barriers to our operations so that 
millions of people can access the aid they urgently need and are 
entitled to. With your assistance, NRC and other dedicated aid agencies 
stand ready to cross battle lines, cross borders, cross rivers and 
mountains--whatever is required so that we can end the human suffering 
in Syria.
    The crisis has seriously impacted Syria's regional neighbors, now 
hosting more than 2.5 million men, women, and children who have fled 
their homes. This equates to a population four times that of the 
District of Columbia. I have visited Lebanon and Jordan regularly over 
the last 2 years. Each time humanitarians, the people and authorities 
tell me that they have reached a breaking point. Yet, the flow of 
refugees keeps coming. I have spent time in Zaatari refugee camp in 
Jordan, which is one of the world's largest. No Syrian would choose to 
live there. But they have nowhere else to go. They have lost their 
homes, their jobs, and their loved ones. They have often suffered 
atrocities and unspeakable violence. A generation of Syrian children is 
growing up about to lose hope--and we risk losing them to poverty and 
despair.
    Refugees in Zaatari and the millions more spread across the region 
need your help. As do the governments and communities who continue to 
demonstrate extraordinary generosity by hosting them. Lebanon is 
particularly in need of more direct financial and infrastructure 
support, and the U.S. can play an important part. By the end of next 
week, Lebanon will be hosting 1 million refugees, 230 refugees for 
every 1,000 Lebanese--the highest number of any country in recent 
history. Proportionally this equals 80 million refugees crossing the 
U.S. border in 18 months.
    I want to take this opportunity to thank members of this committee, 
particularly the bipartisan leadership of Senators Kaine (D-VA) and 
Rubio (R-FL) for introducing Senate Resolution 384, which calls for the 
immediate and full implementation of U.N. Security Council 2139, 
including unimpeded humanitarian access, both across conflict lines and 
borders.
    In this testimony, I will make four points to inform future U.S. 
policy:

  <bullet> The U.S. should continue to pursue political dialogue with 
        all sides in order to ensure respect for the Laws of War and 
        ultimately resolve this senseless conflict. With Russia, the 
        U.S. brought about an agreement to destroy Syria's chemical 
        weapon stockpiles. We require this same leadership to uphold 
        the humanitarian imperative and alleviate the suffering of the 
        Syrian population, including the 9 million displaced. All 
        countries with leverage over the parties to the conflict must 
        put pressure where they can in order to seek a resolution to 
        the crisis and respect for the Laws of War.
  <bullet> U.S. policy needs to prioritize measures that ensure 
        unimpeded aid delivery 
        inside Syria. Syrians urgently need to be able to access more 
        and better assistance and protection in or close to their 
        homes. Government, donors and countries neighboring Syria must 
        urgently facilitate the delivery of humanitarian assistance, 
        across front-lines and across borders. As recognized by UNSC 
        Resolution (S/RES/2139), International Humanitarian Law 
        provides an unequivocal legal basis for undertaking cross-
        border operations, to all areas within Syria.
  <bullet> U.S. policy should ensure that all humanitarian assistance 
        to Syria is, and is perceived as impartial, neutral and 
        independent from political agendas. Among related concerns, 
        counterterrorism laws must not impact negatively on 
        humanitarians' ability to maintain independence and ensure 
        impartial provision of aid.
  <bullet> The U.S., along with the international community, has a 
        responsibility to help address the enormous challenges faced by 
        Syria's neighbors. By generously accepting 2.5 million 
        refugees, the region is facing the prospect of regional 
        instability, and social and economic collapse. Increased 
        humanitarian and development assistance is urgently needed. 
        Furthermore, the U.S., Europe and other countries must share 
        the responsibility and allow more refugees across their 
        borders.
1. The U.S. should continue to pursue political dialogue
    Our relief workers see each day the impact of the political 
stalemate on Syria. Syria is the worst humanitarian crisis in the 21st 
century. We all know the figures--more than 9 million people displaced, 
well over 100,000 killed, more than 5.5 million children at risk. 
During the 2 hours of this Senate hearing alone, 120 families will have 
been forced from their homes. These numbers are unfathomable when we 
consider that each individual represents immense human tragedy. Yet, 
the collective response of the international community remains woefully 
inadequate. A solution that ends this crisis must be your unequivocal 
priority.
    As your former colleague in this committee, U.S. Secretary of State 
Kerry and other world leaders have repeatedly made clear; ``There is no 
military solution to Syria, there is only a political solution and that 
will require leadership to bring people to the negotiating table.''
    Yet Geneva II generated no tangible results: No political solution, 
no lasting cease-fire, no end to the bloodshed and no alleviation of 
the unbearable suffering of the Syrian people. In spite of the enormous 
efforts of Special Envoy Brahimi, no concrete results were achieved. 
The millions of people who have been driven from their homes have had 
their hopes betrayed. We see shocking echoes of the horrors of Bosnia 
and Rwanda--and therefore a moral obligation to prevent a return to 
those dark days.
    Only 6 month ago, the U.S., alongside Russia, led peaceful efforts 
to agree to a process to destroy Syria's weapons of mass destruction. 
Political progress is therefore possible--if there is enough political 
will. I call on the U.S. to resume this leadership role, for the Syrian 
people to realize their dream of a peaceful life. Syrians must be 
protected from all forms of violence, including the use of conventional 
weapons and barbaric ``barrel bombs,'' which are responsible for the 
vast majority of the killings. To this end, I urge you to work with 
Russia and other members of the international community, and to use 
your influence with the warring parties and their allies, to ensure 
respect for international law and put an end to the conflict once and 
for all.
    As urgent as political progress is, the millions of Syrians denied 
humanitarian aid cannot wait for negotiations to bear fruit. The 
humanitarian imperative to meet the immense needs and alleviate the 
suffering of ordinary Syrians cannot be a pawn traded within 
negotiations, or held hostage to political posturing. I urge you to do 
your uttermost to support the humanitarian endeavor in Syria, 
irrespective of political progress. There will be no winners at the end 
of this war, and whatever political end goals the international 
community has, the protection of civilians and respect for 
international humanitarian law cannot be compromised.
    It is the persistent denial of humanitarian aid that I will now 
move on to address.
2. U.S. policy needs to prioritize measures to ensure unimpeded aid 
        delivery
    I have seen for myself how the Syrian Government and opposition 
forces impede the delivery of life-saving assistance on a daily basis, 
and how countries neighboring Syria place unreasonable administrative 
constraints on reputable NGOs. These practices have to end immediately.
    I appeal for your help to ensure all parties to the conflict, 
particularly the Government of Syria, actively facilitate the delivery 
of life-saving assistance and protection. To be effective, this has to 
include ensuring humanitarian access from across Syria's borders--which 
is so often the most efficient route.
            2.1 Impediments and denial of humanitarian access
    There are countless examples of the deliberate and shameful denial 
of humanitarian assistance and protection. A few examples to 
illustrate:

  <bullet> Aleppo governorate in northern Syria continues to experience 
        air raids by the Syrian air force and clashes between military 
        and armed opposition groups, as well as among the opposition 
        groups, forcing more than 750,000 people to flee. The 
        Government of Syria and some armed groups actively harass and 
        sometimes even appear to target aid convoys. They stop 
        humanitarian agencies at checkpoints, demand money and threaten 
        aid workers with violence and illegal detention. They also 
        attempt to divert humanitarian goods. The close proximity 
        between southern Turkey and northern Aleppo means that 
        assistance can and is being delivered from across the Syrian 
        border, but delays and blockages at both sides of the crossings 
        mean enough aid is not getting through.
  <bullet> Many parts of Damascus and the surrounding rural areas have 
        been entirely cut off from humanitarian assistance for up to a 
        year due to the abhorrent use of siege tactics by government 
        and some armed opposition forces and because of the ongoing 
        active conflict. The barriers put in place by the Syrian 
        Government, including restrictions on working with national 
        NGOs, the refusal to let aid convoys travel and the ban on 
        allowing agencies operating from Damascus to also deliver aid 
        across borders, seriously inhibit the ability of aid agencies 
        to realize the rights of those in need. Even areas located only 
        a couple of miles from where aid agencies are based cannot be 
        reached.
  <bullet> Dar'a and Quneitra governorates in southern Syria have seen 
        fierce fighting between Government and armed opposition groups. 
        Shelling and aerial bombardments continue to intensify 
        throughout both governorates, leaving more than 245,000 people 
        without access to even basic humanitarian assistance. Aid 
        operations into southern Syria are considered dangerous due to 
        the ongoing fighting. However, they would be possible if the 
        Syrian Government gave permission for aid convoys to travel 
        from Damascus or if cross-border aid routes could be utilized 
        more effectively.
            2.2 Besieged communities
    Beyond these examples, an estimated 240,000 peoplex continue to be 
trapped in besieged communities, some for more than 1 year.
    The use of medieval siege tactics and the deliberate starvation of 
hundreds of thousands of people have come to epitomize the brutality of 
the conflict. The recent evacuation of many civilians from the besieged 
areas of Homs has rightly received significant attention. More than 
4,000 people faced deliberate starvation and had been trapped, without 
even basic supplies, for more than 600 days. While the media attention 
has died away, this crisis is not yet over. Fighting and shelling is 
ongoing and approximately 2,000 people remain in the Old City.
    But, of Syria's many besieged civilians, 99 percent are not in 
Homs.

  <bullet> In Nabul and Zahraa villages outside of Aleppo, an estimated 
        45,000 people continue to be effectively imprisoned, without 
        food or drinking water. Despite multiple attempts at cease-
        fires, mediation has failed and these locations remain besieged 
        by armed opposition groups and foreign fighters.
  <bullet> In the Yarmouk refugee camp in Damascus, some 18,000 mainly 
        Palestinian refugees remain under siege.
  <bullet> In rural areas outside Damascus, an estimated 160,000 people 
        are besieged. With the exception of some polio vaccines 
        delivered by Syrian Arab Red Crescent, no aid has entered these 
        areas since the siege began over 1 year ago.

    These are just some of the gross violations of the Laws of War that 
continue unabated across Syria.
    I appeal to you today to use your influence with all parties to 
prevent the continuation of these practices. Besieged populations must 
be set free and attacks on civilians, schools, and hospitals must stop. 
Cease-fires need to be supported and strengthened so that people can 
access assistance and humanitarian workers can operate. And 
governments' restrictions on humanitarian access, including from across 
borders, must end to enable those who need assistance to access it.
    It is this last point that I would want to underline below, as an 
indispensable part of a future U.S. policy on Syria:
            2.3 Improving humanitarian access
    If we are to end to the humanitarian freefall in Syria the numerous 
constraints on access imposed by the Syrian authorities and armed 
groups must be reversed immediately. The intermittent refusal by 
neighboring governments to facilitate humanitarian access by reputable 
NGOs through the most efficient routes is also unacceptable. We 
urgently need the U.S. Government to use its influence with governments 
to ensure cross-border operations are better coordinated, funded, and 
implemented so that these vital operations can be expanded to assist 
the millions of people currently not receiving aid.
    Millions of people who live in areas that are currently in need of 
aid can most directly be reached from across Syria's borders. To give 
one example, when I traveled by car to Aleppo from Turkey 1 year ago, 
it took me just over an hour to reach the city. It now can take days 
for U.N. convoys to reach Aleppo from Damascus, passing multiple 
checkpoints. The time has therefore come for the U.S. Government, 
international donors and countries neighboring Syria to urgently put 
their full weight behind the delivery of cross-border humanitarian 
assistance. The UNSC Resolution (S/RES/2139) and International 
Humanitarian Law provide the firm legal framework for implementing 
these operations. Humanitarian assistance is not a right that may be 
arbitrarily denied to Syrians in need, by their own government. The 
onus should therefore be on the Syrian Government to justify its 
rejection of cross-border humanitarian operations, including to 
opposition controlled areas, rather than on the need for the U.N. to 
obtain its permission.
    I welcome the recent decision by the Syrian Government to allow the 
U.N. to restock aid supplies using the Nusaybin crossing from Turkey 
into north eastern Syria. This has the potential to allow tens of 
thousands of people (living in areas under the government's influence) 
to access aid. However, it falls far short of what is needed. The 
Nusaybin crossing is just one of many that need to be fully opened. The 
Syrian authorities must also allow humanitarian assistance to reach 
millions of civilians living in locations controlled by opposition 
forces. The use of the Nusaybin border crossing by aid convoys is 
positive, but it can hardly be viewed as substantial progress toward 
the implementation of UNSC Resolution 2139.
    There is no excuse for not facilitating a lot more cross-border aid 
operations. The registration processes for reputable aid agencies must 
be streamlined, existing border crossings must remain permanently open 
and new crossing points should be established for aid convoys. Setting 
up low-cost, fast-tracked system for granting residency and work 
permits for humanitarian staff in Turkey and other neighboring 
countries would greatly facilitate aid delivery.
    Providing assistance from neighboring countries does not absolve 
the Syrian Government of its legal and moral responsibilities to ensure 
that aid delivered inside Syria, across battle lines, reaches all parts 
of the country. Having been to Damascus recently, I can tell you that 
humanitarian agencies are unable to operate freely from the capital. 
Delays with NGO registration, impediments to working with local aid 
agencies and severe travel restrictions are unacceptable and must be 
addressed urgently.
3. U.S. policy should ensure that all humanitarian assistance to Syria 
        is, and is perceived as impartial, neutral, and independent 
        from political agendas
    Irrespective of how aid is delivered--whether from neighboring 
countries or from Damascus--access must be granted based on the 
humanitarian needs of the Syrian population, without political 
interference. The U.S. and other governments should ensure that 
humanitarian aid is easily identified as separate from other forms of 
nonhumanitarian supplies entering Syria.
    Aid agencies in Syria face severe challenges with perception. Armed 
actors are suspicious and the population is increasingly impatient 
after 3 years of suffering. It is crucial that the U.S. Government 
ensures that its funding is provided in a manner that both is, and is 
perceived to be, impartial. The use of humanitarian aid by actors to 
gain influence, control, or buy the loyalty of civilian populations in 
order to further political goals cannot be tolerated. And aid which 
seeks to portray humanitarians or link humanitarians to any side of the 
conflict or to a political agenda is dangerous.
    Respecting humanitarian principles also requires an honest 
discussion about the unintended harm being done to emergency aid 
operations by laws intended to target terrorists. The U.S. has put in 
place some of the most stringent counterterrorism laws and controls on 
humanitarian organizations globally. While recognizing the 
responsibility and necessity of protecting U.S. citizens and people 
around the world from acts of terror, these measures could have severe 
detrimental impacts on humanitarian operations if implemented to their 
full force in Syria. I urge you to support the Humanitarian Assistance 
Facilitation Act (HAFA) introduced in the House of Representatives late 
last year. This Act can help us to both safeguard against terror and 
save lives in Syria and in humanitarian crises elsewhere in the world. 
Humanitarian organizations need your help to safely operate in these 
contested and extremely dangerous contexts without the misperception of 
taking sides, or compromising the needs of conflict affected 
populations.
    Counterterrorism laws have implications for aid operations not only 
inside Syria but also in Lebanon and elsewhere in the region.
4. U.S. policy should address the enormous burden and long-term 
        challenges faced by Syria's neighbors
    I commend the Governments of Lebanon, Jordan, Turkey, Iraq, and 
Egypt for their immense efforts in hosting millions of refugees. I urge 
the U.S. and Europe to respond with similar hospitality in terms of 
increased resettlement for Syrians. The U.N.'s Refugee Agency (UNHCR) 
aims to resettle over 100,000 Syrian refugees between 2015 and 2016. 
Syrians who need it should receive temporary protection outside of the 
Middle East.
    Lebanon, in particular, has been extraordinarily generous in 
providing safety for families fleeing the horrors of the conflict. 
Lebanon is now the highest per capita refugee-hosting nation on earth. 
The crisis in Syria has cost the country more than $7.5bn, with 
municipal budgets, infrastructure and basic services facing total 
collapse. Jordanxix and Turkey have also been severally affected, as 
have Iraq and Egypt, which risk being forgotten by the world's media, 
donors, and governments.
    There are millions of personal tragedies behind these statistics.
            4.1 Growing harassment and exploitation
    While most host communities are exceptionally welcoming of 
refugees, there are signs of growing discontentment and discrimination 
against people who have fled Syria's violence. They face increasingly 
severe restrictions on their ability to register as refugees, access 
basic services, earn an income, and receive protection from harassment 
and exploitation.
    Host populations and refugees alike face rising food and rental 
prices, overcrowding in schools and increased competition for paid 
work. Daily labor wages in Lebanon and elsewhere have hit rock bottom. 
Refugees in Jordan are not allowed to work at all. Rental prices have 
risen 300 percent in some parts of Jordan, while 170,000 Lebanese have 
been pushed into poverty by the Syrian crisis. This risks further 
destabilization of the entire region.
    Syrian families are increasingly pressing their young sons to work 
or their daughters into early marriage to support the family 
economically. I saw children as young as 5 packing fruit or picking 
vegetables, often for 8 hours or more a day, instead of going to 
school. Every 10th child is estimated to be working--often in dangerous 
conditions--while one in every five registered marriages of Syrian 
refugees in Jordan involves girls under the age of 18.
    These are just some the problems Syrian children must routinely 
endure.
            4.2 Finding homes and schools for children
    As the conflict in Syria continues, children who have fled the 
fighting continue to miss out on an education--1.2 million children now 
live as refugees in host countries, but only half attend school, most 
often in overcrowded classrooms. Some of the Lebanese public schools I 
visited have more Syrian refugee children than Lebanese children 
attending their classes.
    Syrian refugee children still tell me about their dreams of 
becoming teachers, carpenters, engineers, and doctors. They want to 
help their families and contribute positively to their society. We have 
a responsibility to give them the chance to fulfill their dreams. To 
prevent the loss of an entire generation of children, much greater 
support is urgently needed to ensure there are adequate schools and 
teachers for the millions of Syrian children and children in host 
communities in need of an education. Informal tuition and vocational 
training programs provided by NGOs are essential programs which require 
the support of governments so these children can become positive 
members, even future leaders, of their society. We cannot forget that 
one day they will lead the rebuilding of their country.
    Parents struggle not only to cover the cost of schoolbooks, 
tuition, and transport; they are increasingly unable to afford homes 
for their families to live in.
    On a recent visit I heard stories of countless families facing 
eviction and growing debt. I met some Palestinian families in Lebanon 
who had fled the fighting in Syria a year ago. After long and dangerous 
journeys--often in the dark, with small children and only some bags of 
clothes--they finally managed to cross into Lebanon. All other borders 
were closed to them. Eventually, shelter was found for them in small, 
one-room flats that the Norwegian Refugee Council was able to add to 
existing, crowded homes in preexisting Palestinian refugee camps. As 
additional families keep coming across the border to escape the 
violence in Syria, refugees already living in Lebanon have had to share 
their meagre accommodation with the new arrivals. Some families are now 
living 10 or 12 to a room.
    The lack of affordable shelter in Jordan and Lebanon is an alarming 
problem. More than 80 percent of refugees live outside formal refugee 
camps, often residing in rundown and overcrowded flats, rudimentary 
structures, tents, or in abandoned or partially constructed buildings. 
With hundreds of thousands of refugees unable to repay debts or afford 
rising rental prices, large parts of the Middle East face an 
unprecedented housing crisis that requires your urgent attention.
    Addressing this housing crisis will not be easy. The governments of 
Lebanon and Jordan require significant technical and financial support 
to help them develop more comprehensive shelter strategies. These 
strategies need your backing to ensure more homes are available on the 
market and rental price inflation is tackled.
    The growing social and economic problems in countries hosting 
refugees can create pressure to close borders to new refugees fleeing 
Syria or introduce forced encampment.
            4.3 Keeping borders open
    Neighboring countries have absorbed a huge burden on behalf of the 
international community. The solidarity shown toward the Syrian 
refugees is admirable. Whilst it is difficult to ask, we need your help 
to ensure borders remain open to refugees--including Palestinians who 
face systematic discrimination. The creation of so-called ``safe 
zones'' and camps along the Syrian side of borders could be a recipe 
for increased violence against civilians, making matters worse, not 
better, for Syrian men, women, and children.
    Governments beyond the region, including in the U.S., must also 
significantly increase the number of refugees they are willing to host 
or resettle to ease the pressure on neighboring countries. The meagre 
responses from nearly all Western nations, including my native country 
Norway, are simply not good enough. Media reports suggest that at least 
135,000 Syrians have applied for asylum in the United States. However, 
the current immigration policies have kept almost all of them out.
    To help keep borders open and share the overwhelming burden, 
countries neighboring Syria will need both short- and long-term 
financial assistance.
            4.4 Meeting long- and short-term needs
    The United Nations has launched the largest appeal in its history, 
for $6.5bn. This sounds like a vast amount of money, but it is the same 
as Harvard University is asking for in its current fundraising drive. 
To date, only 12.5 percent of the U.N. appeal has been funded. 
Furthermore, this appeal does not include the millions more needed to 
fund cross-border humanitarian operations.
    The United States and ordinary Americans have given extremely 
generously and this assistance has provided protection and life-saving 
aid for millions of Syrians. I would like to thank you for your efforts 
in this regard. Yet, with the region becoming increasingly unstable and 
the number of refugees expected to almost double by the end of 2014, 
even more resources will be needed. I am therefore asking you to dig 
even deeper and to consider all options, including pressing for greater 
backing from gulf donors and international financial institutions.
            4.5 Supporting refugee-hosting governments
    As an experienced humanitarian, I have seen that the average 
refugee crisis lasts more than a decade. And there is no end in sight 
to the fighting in Syria. When it does end, reconstruction will likely 
take decades. We will likely be responding to the Syria crisis for the 
next generation.
    In order to deal with Syria's ``protracted crisis,'' U.S. and other 
donors will need to provide much-needed emergency response together 
with longer term development and macroeconomic assistance. Years of 
experience demonstrate that this must be done in parallel to ensure 
that immediate needs are met and that refugees and host communities 
have sustained access to health, education, and other services as well 
as viable livelihoods.
    This comprehensive approach will require support by the 
international financial institutions, and much greater support to 
national development frameworks such as Jordan's national resilience 
plan and Lebanon's stabilization plan. It will also require greater 
funding to local authorities providing housing, access to health, 
water, education, and employment to both poor local people and refugees 
across the region.
    The task at hand for the U.S. Government and the entire 
international community is therefore not only to meet the obligation 
set by the U.N. appeals--though this will remain critical. It is also 
to help support those communities and governments that will continue to 
bear the brunt of the refugee crisis for years to come.
    If we do not act now to protect the region's future, the fallout 
from this conflict will be felt for generations.
                               conclusion
    The humanitarian free-fall experienced in Syria and across the 
region over the past 3 years must end now. Syria is testing our 
commitment to ensure the horrors of Srebrenica and Rwanda are not 
repeated and so far we are failing.
    As with the conflicts raging now in South Sudan, the Central 
African Republic, and elsewhere, which should not be forgotten, the 
United States has the opportunity, and responsibility, to show real 
leadership to end the suffering in Syria. Together with the 
international community, I urge you to ensure that the United States 
makes use of all peaceful means to ensure that those in urgent need can 
access humanitarian assistance using the most direct routes, that 
cease-fires are negotiated and respected, that Syria's neighbors 
receive the support they require to prevent a societal breakdown, and 
that a political solution to the conflict is found without further 
delay.
    For the Syrians who have fled the violence and will be unable to 
return to their homes for years to come, the right kind of short- and 
long-term assistance is required for them and for the communities and 
countries that host them. The Syrian children I have met across the 
region demand to know; when will they return home, go back to school 
and be reunited with their families. The international community, led 
by the U.S., has an obligation to find the answers to these questions, 
and urgently.
    If there is no hope for Syrian youth, we will all see a more 
unstable future. If there are no schools and no jobs or new homes, we 
will see fertile grounds for extremism, violence, and terrorism. It is 
therefore both in line with our values and our interests to act now to 
protect and assist civilians caught in the crossfire.
    I would like to thank you again for inviting me to testify and 
would welcome any questions you may have.

    The Chairman. Well, thank you all for your testimony, and 
there are many questions that are raised in my mind listening. 
So let me start with Dr. Kilcullen. I want to pick up where we 
left in your testimony.
    So what are the options? Because even accepting your view 
that no one is winning--I personally did not think that I was 
suggesting anyone was winning. I just think the regime made 
advances from where it was at one point that has changed its 
calculus about whether or not it can sustain itself and its 
patrons' calculus as well.
    What are some of the policy considerations that you think 
we should be considering in order to create the dynamic that 
can lead us to the political solution that we all seek?
    Dr. Kilcullen. I have five specific things to suggest. But 
to start with, I think that one of the observations that is 
worth making is that the policy goals that have animated our 
approach to date, I would argue, have actually not been overly 
ambitious. Rather, they have been too minimalist. And one of 
the reasons why we have had trouble rallying the Congress, 
allies, and the American people behind strong action is because 
what we have sought to do is to manage and contain the conflict 
rather than to end it. And people do not want to support such a 
minimal goal when the costs are very clear but the benefits are 
not necessarily so clear.
    So I agree that our approach should be to pursue a 
negotiated solution. I think the chance that that will ever 
happen without us telegraphing an intent and a willingness to 
use military force in order to generate that peaceful solution 
is next to zero. So I think that we should prefer indirect 
means where possible, but indirect means will not necessarily 
get us to the point where the regime feels that it has no 
option but to talk.
    As I interpret the Syrian regime's strategy at this point, 
I believe that the regime is using the Geneva II process to buy 
time while it ramps up its military operations, tries to get 
into a better military situation ahead of the June elections, 
and then use the June elections to cement the regime for 
another term. And the reason that it is slow rolling on the 
handover of chemical weapons is the regime is currently the 
guarantor of those chemical weapons not falling into dangerous 
hands. If it gives up the chemical weapons, it loses that 
leverage and then there is no reason why we would keep the 
dialogue going with the Syrian regime. So they want to preserve 
the chemical weapons until such time as the election can take 
place, and then they will be set up for another period in 
office.
    So my first recommendation should be that we should just 
ignore those June elections. We should say, yes, we know you 
have scheduled these elections. They are null and void. They 
are illegitimate. They have no force. And if you do persist in 
going ahead and carrying out the elections, they will have no 
bearing on international policy. I completely agree with what 
Ambassador Patterson said earlier, that to try to hold the 
elections under the current circumstances would be a complete 
joke, and we need to emphasize up front that we are not going 
to accept those results.
    The second option that I suggest is we need to start 
exploiting linkages with other issues, and in particular, I 
think that Russia's intervention in Ukraine and the Crimea 
creates an opportunity as well as a challenge here. In my 
written testimony, I have gone into some detail on the very 
significant numbers of fighters from the Caucasus and from the 
Ukrainian Crimea who are currently operating in Syria as part 
of number of groups that are fighting right now under the 
authority of the Islamic Front. And in addition, as I mentioned 
earlier, there is now an offensive that is very close to the 
edge of the Russian naval base in Tartus. So it is, in fact, 
not at all beyond the realms of possibility that with several 
hundred fighters from the Caucasus who may, at some point, 
decide to go home to Russia and with threats to Russia's 
position in Syria, that the invasion of Ukraine and the 
international isolation and the economic pain that the Russians 
are going to increasingly be feeling as a result of that is 
linked to their support for the Assad regime in Syria. And if 
we play that linkage correctly in a diplomatic sense, it is 
entirely possible that we may be able to convince the Russians 
to cease their active support for the regime and perhaps even 
convince the regime that a negotiated settlement is in its best 
interest.
    I agree with Dr. Nasr that the Iranians are, in fact, a 
more important supporter of the regime, but one thing that the 
Russians provide that is extraordinarily critical is 
maintenance support on a limited number of precision guided 
munitions and other support for the helicopters and other air 
assets that the regime is currently using to carry out its 
barrel bombs. So if you want to stop the barrel bombing 
offensive and you want to limit the ability of the regime to 
use its air to punish the population, then in fact attacking 
the Russian support is a way to do that.
    The third point--and I agree with Mr. Egeland on this--is 
we need to focus on peace-building at the local level. Included 
in my written testimony is a report that my teams on the ground 
in Syria produced over the past 4 months which shows that of 
the two sides negotiating in the Geneva II process, there was 
never greater than 12 percent of Syrian respondents in any of 
the surveys conducted who had any degree of belief in the 
legitimacy of either the regime or the Itlaf, the group that 
was negotiating on behalf of the rebels. So almost 9 out of 10 
Syrians thought that the process in Geneva was a waste of time 
because they did not believe that the sides that were 
negotiating were legitimate. If we want a future negotiated 
settlement to work, we have to start building cross-sectarian 
and cross-community interests at the local level in achieving a 
peace settlement. It cannot be something that comes in on top.
    The fourth recommendation is to expand significantly our 
assistance programs to the opposition across four dimensions, 
nonlethal technical support, humanitarian assistance, training 
and advisory support, and I believe lethal technical weapons 
systems.
    So the first point is humanitarian assistance. While I 
agree that we should avoid politicizing humanitarian 
assistance, the fact is it has already been politicized by the 
regime. It is not us who is denying humanitarian assistance to 
people in regime-controlled areas. It is the regime who is 
denying basic human services to people in besieged areas and 
areas that are rebel-controlled. So to the extent that we can 
put a greater degree of humanitarian assistance into the 
country, that breaks the regime's stranglehold on the 
population that it is currently trying to deny access.
    We have just seen a successful U.N. Office of the 
Coordinator for Humanitarian Affairs convoy go into the 
Qamishli area in northeastern Syria and deliver assistance to 
the population of a Kurdish majority region. We need to be 
enforcing humanitarian corridors, access of humanitarian 
convoys, and the transportation of humanitarian assistance to 
the community. That will have an effect that is not only of 
benefit to the community, but it will also help to undermine 
the regime's strategy.
    Nonlethal technical support. Sorry.
    The Chairman. I have given you all of my time to answer the 
question. So I will read the rest of the testimony, but I think 
those are essential points.
    Before I turn to Senator Corker, Mr. Egeland, what 
countries--I listened to both what you said and in your written 
statement about United States prioritizing efforts to ensure 
unimpeded aid delivery into Syria. What countries are blocking 
delivery of cross-border humanitarian assistance and to the 
extent do we know why?
    Mr. Egeland. Well, there are many hurdles to get across the 
borders. The first and most difficult is the security concerns 
inside. We go into areas where there is cross-fire and we need 
to negotiate with multiple opposition groups when we go into 
the opposition-held areas where we do cross-border which 
rightfully constitutes cross-border relief.
    But there are from the neighboring states a number of 
bureaucratic hurdles, registration hurdles, et cetera, that we 
should not meet when we try to help and assist civilians on the 
other side. And very few donors have basically come up front 
and said, of course, we do cross-border. We support it. We fund 
it. We help it. We push it. Now there is also a Security 
Council resolution clearing that, giving a legal basis.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and thank you all 
for your outstanding testimony and for being here today.
    Mr. Egeland, I appreciate what you are doing. I doubt there 
are many people on this committee that have not visited the 
refugee camps and seen the tremendous distress that people are 
going through. After a few trips, you get to recognize the same 
people, meet with them, and nothing is changing much except 
that I know you all are providing a tremendous service and I 
appreciate you doing what you do.
    Dr. Kilcullen, we spent a lot of time today talking about 
the administration versus the opposition, the Assad regime 
versus the opposition. But the opposition, as we know, is what 
is creating over time the threat to the homeland here. And you 
spent a lot of time in Iraq. I know you helped us develop 
strategies there. And I wonder if you might help us. You did 
such a great job there, but think about now just the opposition 
on the ground and help us think about down the road how we are 
going to need to deal with that and the differing strategies 
that they are using there.
    Dr. Kilcullen. Thank you, Senator. That is a very, very 
important question and I think it lies behind our reluctance to 
use military force because we worry that should we successfully 
topple the regime, what comes next. And one of the concerns is 
that not only would we see the emergence of a potential 
terrorist safe haven in Syria, but we may see the expansion of 
foreign fighters coming out of the country to Europe and 
elsewhere.
    On the foreign fighter question, there are between 10 and 
12 times as many foreign fighters going into and out of Syria 
as we saw even at the height of the war in Iraq. So it is an 
incredibly large flow of foreign fighters. They come from all 
over north Africa, from Western and eastern Europe, from 
Southeast Asia. They come from, of course, across the wider 
Middle East.
    When we look at the opposition specifically, there are two 
groups that I think have been primarily of concern to this 
committee. One is Jabhat al-Nusra, the official al-Qaeda 
affiliate in Syria. The other is the Islamic State of Iraq and 
the Levant, which is in fact a successor organization to Al 
Qaeda in Iraq.
    Right now, ISIL, as we call it, is in fact, I think, on 
something of a back foot. And again, I have included this in my 
written testimony. But in September 2013 in the town of Aleppo, 
which is Syria's largest city, at the beginning of our period 
of detailed research on that city, ISIL controlled no districts 
in the area. By the end of the year, they controlled about a 
quarter of the city, and it looked particularly bad. It looked 
as if the Islamic State of Iraq and the Levant was going to 
take over a very leading role in the opposition. But three 
things have really changed that.
    Firstly, ISIL has not done very much to fight the regime. 
In fact, they have spent a lot of their time taking over 
districts that are away from the front line that are weak 
because who are fighting the regime are, in fact, not there 
because they are busy fighting the regime.
    Secondly, they have imposed some extraordinarily negative 
consequences on the population in the areas where they live, 
kidnappings, tortures, beheadings, public execution of 
children. All the sorts of things that we became all too 
familiar with from these guys in Iraq we are still seeing in 
the area of Syria, and that has generated a very significant 
pushback against them from the local community.
    So in the last 2 months, we have seen their support crash 
from controlling a quarter of the town to controlling next to 
no areas within Aleppo. And in fact, the position of ISIL is 
that they have withdrawn to the area of Raqqah on the Euphrates 
River and then creating a fairly geographically defined safe 
haven that is in a strip along the riverbed on either side of 
this area, a very localized area and, frankly, not in any way 
challenged to remove that area in the event of a large-scale 
military operation.
    I think that in terms of foreign fighters, as I mentioned 
earlier, there is a lot of Chechens and Caucasian and Crimean 
fighters, but there are also a lot of fighters from Western 
European countries carrying Western European passports who have 
the ability to move back into the homeland over time. And we 
know that al-Qaeda has sent a very senior member that used to 
be its leader in Iran into Syria specifically to recruit and 
train Western European foreign fighters to reinsert into the 
west.
    So I think it is an area of extraordinary concern that we 
need to be focusing on, but I think it is probably not the best 
solution to say that the real problem is ISIL and Jabhat al-
Nusra. The real problem is the regime, and in fact, if we can 
create a more stable and peaceful environment in Syria, it is 
not beyond the realms of possibility that a significant number 
of fighters particularly within Jabhat al-Nusra would 
reintegrate within that process. I do not regard Jabhat al-
Nusra as being in any way in the same category as ISIL.
    Senator Corker. I want to chase that in a minute, but I 
want to make sure we get to Dr. Nasr, and I do not know if we 
are going to have another round or not. But I appreciate you 
being here and I appreciate the time we spent yesterday 
elaborating a little bit on what you were going to say today 
and hearing more about it.
    I wonder, for the committee, if you would talk a little bit 
about the shuttle diplomacy and what that actually means versus 
another Geneva-type conference and who the players would be, 
what you would think we want those players to try to achieve, 
or what we would want to achieve with them over a period of 
time.
    Dr. Nasr. Well, Senator, first of all, referring to what 
Dr. Kilcullen was saying, part of the problem of extremism is 
the support that goes from some of our allies toward groups 
that we would categorize as extremists or undesirable. I think, 
first of all, we would like our diplomacy to be directed toward 
this issue, namely where the funding for the fighters go, what 
might be the strategy for either both the moderate political 
force and the fighters that we want to see actually gain ground 
within Syria. There is a gap between the objectives of Qatar, 
Saudi Arabia, Turkey, and to some extent Iraq, politicians that 
they support and fund, groups within the opposition they back, 
and also the fighting groups on the ground that they give money 
to.
    So our shuttle diplomacy, first and foremost, should be 
directed at creating some kind of a common position among these 
regional powers around what the end game in Syria is, who they 
back, and actually work with them to create a credible 
opposition. I mean, the fact that the opposition does not have 
the support on the ground, does not have credibility with the 
infighting that it has had, in the eyes of the regime also, it 
does not have credibility and uniformity.
    Secondly, I think all the regional actors have an interest 
in the fighting to come to an end. Even I think Iran's position 
is very different from Russia's because largely Iran is also 
suffering a loss of status in the region. It is fairly 
expensive for the Iranian Government to invest in supporting 
the Assad regime given the pressure of sanctions and the 
economic issues that they have. There is an incentive to find 
some kind of a solution out there.
    The United States does not deal with Iran, but the United 
Nations does and also some of the regional allies do. For 
instance, Turkey and Qatar are dealing with Iran on a variety 
of these issues.
    But ultimately a political settlement would require that 
the Iranians decide that it is not worth supporting Assad, that 
there might be solutions around Assad and without Assad in 
Syria and that the Turks, Saudis, and the Qataris agree to a 
political force that would be taking over in Syria in some 
capacity when Assad goes. I mean, currently if you looked at 
it, even if Assad left, there is no agreement on the other side 
what the successor regime would look like and who would take 
over. You are going to have immediately a confrontation between 
Turkey, Saudi Arabia, and Qatar as to whose clients will 
dominate a post-Assad scenario there. And so I think we have to 
put our shoulder to creating some kind of a framework, a basic 
framework, at least among our allies as a starting point which 
could provide some kind of credibility for a diplomatic 
process.
    Senator Corker. I know it is time for someone else to ask 
questions. I know you know this and I know you know it better 
probably than anybody up here, but we had sort of that strategy 
in the beginning. We were going to work with the neighborhood. 
And it appears to me the reason the neighborhood split was we 
never delivered on our side, and so they all went their own 
way, again because we said what we were going to do. We did not 
do it. People split apart. Now they are supporting different 
groups that are warring with each other. But you believe we can 
put that back together with the appropriate amount of effort.
    Dr. Nasr. Well, I fully agree with you. I think we gave a 
signal to the neighborhood that we are going to take care of 
this crisis and then we did not. And then when the neighborhood 
witnessed that we were not participating in the crisis--and 
also I agree with you that through the chemical weapons deal, 
essentially we turned Assad into a partner in an international 
agreement that requires his acquiescence. The region decided 
that they have to take care of their own interests on their 
own. So they began funding different groups. They do not have a 
mechanism for cooperation. I think Egypt's solid relations 
between Turkey, Qatar, and Saudi Arabia--in some ways Syria is 
paying a price for what happened in Egypt, and therefore we 
have now a much more complicated situation.
    I actually do not think it is as simple as we think in 
terms of changing the military calculus on the ground anymore 
or necessarily to fix it ourselves with shifting certain 
strategies. We have to deal with the fact that the region has 
now invested heavily in the future of Syria. They view this as 
a zero sum game, and this requires a diplomatic effort of 
rolling back this involvement. We have to gain the trust of the 
region that actually we mean business, that this time we are 
going to deliver, that we are not going to come up with 
grandiose solutions for the region but rather actually start by 
listening to the actors in the region in terms of what they see 
and try to work to get them to talk to one another and come up 
with a position that we could then support.
    Senator Corker. Thank you.
    The Chairman. Senator Kaine.
    Senator Kaine. Dr. Nasr, just to continue on that line of 
thought, your written testimony says that the region, quote, 
``lacks any regional mechanism that would allow regional actors 
to solve this conflict.'' Now, this is thinking way down the 
road, but ``regional mechanism''--what kind of a mechanism are 
you envisioning or should be in place, should be part of a 
long-term strategy for future conflicts here?
    Dr. Nasr. Well, I mean, if you looked at this region, as 
troubled as it is, it does not have anything equivalent to an 
ASEAN or Organization of American States or Organization of 
African Union. It has an Arab League, but the two biggest other 
players in Syria, Turkey, and Iran, do not belong to the Arab 
League. And for a very long time, the United States has played 
a very important role in this region in terms of coordinating 
relations between countries, filling the vacuum when the region 
itself has not been able to address its problems. And all of a 
sudden, I think in the past 4 or 5 years, we have backed away 
from playing that role in the region. And, therefore, you are 
seeing that the region cannot cope with an issue like Syria. 
There is no conversation--actually Syria's conversation going 
around in the region around how do you bring even a cease-fire 
to Syria. Let us even forget about Iran. Among our allies, 
there is not a conversation.
    Senator Kaine. Is it your opinion that the U.S. activity in 
the past in the region has been in lieu of a regional mechanism 
or has it actually been harmful to the creation of a regional 
mechanism?
    Dr. Nasr. Well, we could say that we never actually really 
invested in creating a mechanism like we did in other parts of 
the world, but in reality, it is we are where we are and 
creating mechanisms going forward I think is useful to the 
region. It is the best way of allowing us to leave the region. 
But as Syria shows, a sudden U.S. lack of interest in a major 
regional issue could be quite devastating because it actually 
worsens the problem. Syria has suffered because of American 
neglect. It has become a larger problem, which I think down the 
road will exact a higher cost from us to solve than had we paid 
attention to it 2 years ago when it was less complicated.
    Senator Kaine. Is the Arab League capable of being that 
mechanism? Is it capable of ever gaining significant 
participation by Turkey or Saudi Arabia, or is that just not 
possible for a variety of cultural or other reasons?
    Dr. Nasr. Well, Turkey is not a member of the Arab world.
    Senator Kaine. I understand.
    Dr. Nasr. They are not in.
    Senator Kaine. But even as a partner, we have non-NATO 
members that are partners with NATO.
    Dr. Nasr. That is possible down the road. But the bigger 
problem right now is that the two biggest Arab participants in 
Syria, both of whom are Arab, have opened a cold war between 
them. I mean, Saudi Arabia engineered an expulsion of Qatar 
from GCC, which is quite significant given that GCC was 
supposed to be the main anti-Iran containing mechanism in the 
Persian Gulf region. It has been broken up.
    Senator Kaine. And that cold war--and this is helpful to 
me. That cold war is exacerbated by Syria but not purely caused 
by the situation in Syria. Correct?
    Dr. Nasr. Well, it was actually caused largely by Egypt, by 
a major disagreement over the fate of President Morsi's 
government. But Syria is where the disagreement is playing out 
in a very lively manner.
    Senator Kaine. I may have missed this when I was voting, 
but talk a little bit about the role of Hezbollah in Syria. I 
think your testimony--I cannot remember which testimony was 
about 3,000 to 5,000 Hezbollah fighters from Lebanon into 
Syria, and that has created huge challenges in Lebanon. In the 
pantheon of support for the Assad regime, Iran, Russia, 
Hezbollah, what has been the impact of Hezbollah's support?
    Dr. Kilcullen. I will pick that up, Senator. That was in my 
testimony.
    So I fully agree with you in your take on the effect of 
Hezbollah ramping up its operations in Syria on the situation 
in Lebanon. Hezbollah has had a reputation of protecting both 
Sunni and Shia communities against, for want of a better term, 
infidel groups, and it has had a reputation for being focused 
on putting Lebanon first. That is now in tatters because it 
sent about 5,000 fighters to the western part of Syria where 
they have been participating in some of the most significant 
regime offenses that have no benefit to the Lebanese people but 
have, of course, benefited their ally in Syria.
    In addition, there are specialist units working as advisors 
and leaders with not so much the regular Syrian forces but with 
the Syrian National Defense Forces, which is the unified group 
of all the irregular and militia fighters that, until he was 
killed on the weekend, worked under President Assad's cousin.
    The Hezbollah participation I think is important because 
not only are the numbers significant, 5,000 fighters, but also 
because these are people who have a lot of experience in urban 
irregular warfare against Israel and against other players, and 
they have brought a lot of those skills to bear in training and 
lifting the capability of the Syrian forces that they are 
working with. Hezbollah is a small but important player.
    Senator Kaine. Dr. Kilcullen, you say that the reputation 
for putting Lebanon first and being a little bit of a protector 
of both Sunni and Shia is in tatters. Is there any indication 
that you have seen or that anybody on the panel has seen that 
suggests that Hezbollah's political influence is being degraded 
within Lebanon because of this decision to go all in with Assad 
in Syria?
    Dr. Kilcullen. I will defer to my colleagues.
    I would just offer one observation up front which is that 
we saw Hassan Nasrallah, the head of Hezbollah, actually make 
an appeal on Lebanese television last year to say, look, we 
know that we do not like each other. We are in Syria. We are 
going to be in Syria. If we hate each other, let us kill each 
other in Syria instead of here in Lebanon. For a guy who was 
the cock of the walk at the end of the war against Israel in 
2006, was in an extraordinarily dominant political position 
through 2007 and 2008, for him now to be reduced to basically 
begging off a fight against his political foes in Lebanon I 
think is suggestive of how damaging it has been.
    But I will defer to the others.
    Senator Kaine. Other thoughts on that question?
    Dr. Nasr. I think the mood has changed. I think Hezbollah's 
rhetoric is much more self-confident and bullish than it was a 
year ago. It very much sort of tracks with Assad's rhetoric. I 
think the way Nasrallah has pitched this is that if the Sunnis 
won in Syria, then Lebanon would be next, and the best way of 
protecting the Shias' position in Lebanon was to keep Assad 
where he is or at least prevent Assad from falling. I think 
they have achieved that.
    I think mostly the Iranian and the Hezbollah position is 
not that they are going to give a knockout blow and actually 
win in Syria, but because the perception was that Assad was 
going to fall for a very long time in the next 2 months and he 
has not, by just staying in the fight, they basically have the 
fight both regional and international expectations. And that 
gives them an aura of the glass being half full rather than 
being half empty.
    Senator Kaine. One last point. I just want to thank Mr. 
Egeland. I was in Lebanon recently, and the NRC folks were very 
helpful and I was very impressed with their work.
    What did, Mr. Egeland, you and Dr. Nasr think? Dr. 
Kilcullen was, I think, at least a little provocative compared 
to some of what I have heard by starting his testimony 
challenging the notion that the regime is winning. He pointed 
out that 75 percent of the country is now not controlled by the 
regime, and he put appropriate caveats on that. But I just am 
curious as to each of your thoughts. Is his challenging of the 
notion that the regime is winning--do you see it the same way 
or do you see it in a different way?
    Dr. Nasr. I think technically, factually Dr. Kilcullen is 
right, but politics also is about perception. And I think in 
the perception game, Iran, Hezbollah, Assad are doing better 
than they were a year and a half ago, 2 years ago. For 
instance, the Prime Minister of Turkey multiple times said 
Assad will be gone within 2 months. He is still there. And I 
think that basically among their ranks translates into having 
been able to withstand the worst of it. They are still 
standing, and it is more a perception than the fact. So I think 
Dr. Kilcullen is right, but we have to take that dimension into 
account, particularly when people come to a negotiating table. 
Are they coming feeling there is wind in their sails or are 
they feeling deflated and defeated?
    Mr. Egeland. If I may say, as a humanitarian, the 
following. There is a strong sense that everybody is losing. 
Nobody is winning, and especially the civilian population is 
losing more and more. There are now, I think, 2,000 opposition 
groups with a name. There is very much a stalemate in very many 
places except internal battles on either side, all making 
international or national local relief work very difficult. And 
the total disregard for human rights, humanitarian law of armed 
conflict, for the rights of civilians for basic principles like 
sparing the wounded, sparing civilians, women and children, 
safe passage is not really there.
    However, I would say that one of the reasons that we are--I 
think Dr. Kilcullen said, I mean, we are losing the public on 
this. I have been an aid worker now, a humanitarian, for 30 
years. We do not have the popular engagement as we had during 
the Bosnia period or Rwanda period and so on. And I think the 
wrong narrative many have is that it is bad guys against bad 
guys. So why should I be involved? I think the right way of 
seeing this is it is bad guys against very good civilians, and 
we need to help these civilians. You know, civilians down there 
are being kicked out.
    Of course, there are also very honorable people fighting 
there, but first and foremost, it is a lot of civilians and we 
can help them. We do help them all the time. You should be 
proud of U.S. money going to keep up a very, very significant 
humanitarian effort. If we had not had it, hundreds of 
thousands would have died. And the resolution that you, Senator 
Kaine, and Senator Rubio has introduced helps us in this 
because it is a question of lack of access. We need access. We 
have a right of access, and they have a right to receive our 
assistance.
    The Chairman. Well, this has been very helpful.
    I just have one final set of questions to tie all of this 
testimony together in my own mind.
    So, Dr. Nasr, in your testimony, your recommendations--
basically what you have voiced here is the United States and 
its European allies should focus diplomatic attention on 
bringing Saudi, Qatari, and Turkish positions on Syria into 
alignment, unifying the Syrian opposition and laying the 
groundwork for a regional diplomatic framework for ending the 
war in Syria.
    Now, is it possible to bring the allies into alignment 
without ultimately part of that changing the military equation? 
Are they not out of alignment because they came to the 
conclusion that we were not going to do what was necessary to 
get rid of Assad and therefore they took it upon their own, 
understanding their individual interests? And I am not 
condoning some of the actions that our allies have taken here. 
But the question is how does one bring them into alignment 
unless they know that there is a plan in which you are going to 
ultimately achieve changing the battlefield equation to then 
create the political dynamic as you are working to unify the 
Syrian opposition.
    Dr. Nasr. I think, Senator, your point is well taken. I 
think something worse than not having a military strategy is 
that everybody on the ground believes that you do not have it. 
And I think we have gone out of our way to convince everybody 
that we do not have a military strategy and we do not want one. 
I think at the time of the chemical weapons agreement, we made 
a very strenuous case for why we were not going to contemplate 
any kind of military action. I think you are correct that 
everybody in the region understood exactly what we were saying 
and therefore took matters into their own hands.
    I approach this testimony realistically, that I do not see 
any evidence of a change of heart on the military question. So 
considering that we are not going to go out there and argue 
that we are willing to actually have some kind of a military 
threat on the ground, the next best thing is to change at least 
the existing diplomatic scenario. There could be a far more 
credible diplomatic approach which could also be construed in 
some ways as not changing the facts on the ground, the military 
reality on the ground, but changing, if you would, the 
diplomatic, now very comfortable diplomatic, scenario in which 
the Assad regime operates. So having Russia as a partner 
creates a situation in which Syria is protected internationally 
in a major way. You have to put Russia aside.
    The Chairman. Let me refine this then. How would you get 
the allies that you referred to in your testimony to be aligned 
with us if they do not feel that ultimately Assad will be out 
of the picture?
    Dr. Nasr. Well, actually because we have not had a policy 
for a long time and they do have a policy, it is more getting 
them to be aligned with one another and for us to commit that 
we will be aligned with a sensible policy that they develop. I 
do not think anybody is going to be basically very quickly 
abandoning their own positions in order to array behind the 
United States unless we are going to basically take over this 
conflict. So largely it is that they already have policies on 
the ground, and it is possible to get them to, for instance, 
back one set of actors within the Syrian opposition around a 
single platform to begin to coordinate their funding on the 
ground around a particular set of groups and around a 
particular objective, both militarily and politically, and then 
the United States would make a commitment that it is going to 
support what that platform would be.
    The Chairman. Dr. Kilcullen, I cut you off because my time 
had expired, and I am reading your testimony, point number 5, 
plan for limited military strikes. And you have caveats in 
there about what you mean by that, but could you synthesize 
that for the record here for me?
    Dr. Kilcullen. Yes, sir. I wanted to say that we can do a 
limited amount of very good work by supporting the opposition, 
but at some point, we need to start taking the regime down if 
we are going to change the correlation of forces. So when we 
talk about the military calculus on the ground, what we are 
really talking about is numbers. So in terms of forces, the 
regime right now has something between about 200,000 and 
340,000 troops of all kinds in the field, including both 
foreign fighters who have come to support the regime and the 
irregulars and the regime's own troops. The rebels have about 
200,000 at most. So neither side has the sort of 3-to-1 classic 
advantage that you would expect in a conventional fight as a 
precursor to victory. The regime is certainly nowhere close to 
the roughly 10-to-1 ratio that we expect in a counterinsurgency 
environment.
    There is no way that the regime can win. But as President 
Assad said, they think they can. They have the wind behind 
them. They have a degree of confidence that is actually 
unfounded. So it is very important that we convince the regime 
that they actually cannot win, and I believe that to do that, 
we need to telegraph our willingness to use direct military 
force, not just indirectly supporting the rebels.
    So what I have suggested in my written testimony is the 
idea of a campaign of roughly the size of Kosovo or of being a 
fight protector in Libya, so predominantly an air campaign. I 
would not rule out a limited number of specialist personnel, 
whether civilian or military, on the ground to assist in 
targeting and directing of air strikes. But I suggest that what 
we want to do is craft a campaign around the idea of protecting 
at-risk civilians in safe zones, creating no-fly areas to deny 
the kinds of barrel bombing attacks that we are seeing, and 
establishing humanitarian corridors to allow civilians to move 
to those safe zones, and particularly targeting critical regime 
capabilities, air, artillery, long-range rockets, chemical 
weapons perhaps to convince the regime that its best option is 
to negotiate an end to the conflict, most likely via a 
transitional government under international supervision.
    Extremist groups that sought to undermine that kind of 
peaceful solution would then become legitimate targets of a 
subsequent phase of that operation. So it is not a question of 
taking down the regime only to see extremist groups step into 
its place. It is about creating the conditions in which the 
regime comes to the table knowing that it has to talk because 
that is its best option.
    I should emphasize that military operations are never 
predictable. The outcome is always in doubt, and it sometimes 
looks clean and simple but it never is. So I am very conscious 
that this is perhaps an extreme suggestion, but I think if we 
are not at least thinking about this and at least planning for 
it, it is extraordinarily unlikely that the regime will ever 
see us as being strong enough to be worth talking to, even in a 
diplomatic sense.
    Effectively my view of what happened last September was 
that we called our own bluff. We said we were going to strike. 
The regime did what we said was crossing the redline. We did 
not strike at that time. If we are going to have any leadership 
role in a future diplomatic engagement, we need to reestablish 
that credibility, and at this point I am afraid I do not think 
that is possible without showing the willingness to use force.
    The Chairman. Finally, Mr. Egeland, it struck me when in 
your oral testimony you said in 30 years of humanitarian work, 
that this is the worst set of circumstances that you have seen. 
I can imagine 30 years' worth of work and some of the 
challenges that have existed and the humanitarian crises that 
existed in the world. That is an incredibly strong and profound 
statement. Why do you say that this is the worst?
    Mr. Egeland. Because of the sheer scale really--6.5 million 
displaced inside plus more than 2.5 million outside. Nine 
million people have been driven out of their homes, another 3 
million in absolute miserable situations as war victims inside. 
So that is 12 million people. But even the Balkans was never 
like that with 12 million people in that kind of a situation.
    Of course, in the central African region, many more people 
were killed, but not even there either were there 12 million 
people who had the lives devastated.
    So I really have struggled with how to get the message out 
to people, to parliaments, to journalists or policymakers that 
it does not get bigger than this.
    On your call here in Congress, it has not gotten bigger 
anytime and it will not probably. And at the same time, I have 
the hope that we can change it. We can provide hope to these 
children. I mentioned this Myriam who wants to be a doctor. The 
children of Syria have not given up. It is not like they want 
to flock to extremism. They hope to become teachers. And that 
is the narrative we have to get through. It is huge, this 
thing, and we can change it.
    The Chairman. Senator Corker.
    Senator Corker. Just two questions. And again, thank you 
all for your testimony. I think it has been very enlightening.
    When you said extreme relative to the military option, I do 
not think it is extreme. I just think that we missed the 
opportunity when the opportunity was right, and I agree with 
you. We called our own bluff, and I think we hurt ourselves 
tremendously not just in Syria but candidly in other parts of 
the world.
    So I do not think it is going to happen that way. I do not 
think there is going to be a military option, and I think all 
three of us here supported the AUMF and hoped that at the 
window in time, that very short involvement that was going to 
degrade significantly was going to happen.
    But as you mentioned, Mr. Egeland, I mean, the country 
obviously was in a different place at that time. There was not 
a case made for it in fairness, and there is not a case being 
made for the humanitarian crisis that is happening there.
    But just as a humanitarian, when you hear potentially about 
a military option that is not likely to occur now--I think that 
time has come and gone--how does that affect you? I mean, when 
you see the crisis there, do you think it is something that 
warrants some type of activity in that regard to change the 
dynamic as a humanitarian?
    Mr. Egeland. As humanitarians, we do not call for military 
action. Of course, there is under the rubric of the 
responsibility to protect, agreed by heads of states from all 
of the U.N., that military means is the last resort when there 
are no other options.
    I personally think we can do as an international community 
more diplomatically, politically, humanitarian-wise, sanctions-
wise, in many ways. And I agree with Dr. Nasr. One can put 
leverage on the sponsors and suppliers on all sides to try to 
avoid the escalations that we have seen every single month now 
for a very long time. And those supporting the government side 
are always referring to supplies coming to the other side, and 
those on the other side, the supplies coming to the government 
side. It can easily become an arms race and the civilians in 
the middle, and we who are the suppliers of humanitarian relief 
come in the middle. But I would not rule out anything.
    What we are asking for in the cross-border and so on is, of 
course, that even the cross-border thing is sort of hush-hush. 
We do not want to provoke anybody. I think one should go 
massively across the Turkish, Iraqi, Jordanian borders to 
civilians in great need, and it should be facilitated by the 
donors. It should be facilitated by neighboring countries, and 
there is a Security Council resolution on the table, and even 
that is not happening.
    Senator Corker. And facilitated with security forces making 
that happen. Is that what I am hearing you say?
    Mr. Egeland. No. As I say in my statements, I mean, the 
border crossings frequently are not open, and I am talking 
about neighboring states even. Those groups on the inside that 
are supported by gulf countries are not really helping us very 
often and they could. There is too little funding for these 
operations. They are not coordinated well. The U.N. is not 
behind it or pushing or helping this because they are on the 
government side. So that will be a very easy way to say we can 
reach millions of people in that simple way, and it does not 
need military force.
    Senator Corker. Mr. Chairman, I have a lot of questions. I 
saw Dr. Kilcullen looking at his watch. I have a feeling he has 
a 5 o'clock appointment. So I am going to stop. I thank you, 
and we are going to follow up with both of you by telephone. 
Thank you.
    The Chairman. Well, I appreciate it. The insights of this 
panel have been extraordinarily helpful.
    I will say, as I was listening to your response, Mr. 
Egeland, to Senator Corker, that our way to create pressure 
with other countries is either, to the extent that they are 
subject to being moved by international opinion, that will make 
them act in certain ways, that is one way. The other ways are 
when we use our aid and our trade to induce them to act in a 
certain way. The third way is when we deny them our aid or our 
trade or have another arsenal of what we would call economic 
sanctions. And after that, there is not much left to use in the 
arsenal of peaceful diplomacy tools.
    And so we are talking about Russia and Iran here as two 
patrons and entities engaged and involved in the Syria issue. I 
can just see as we are negotiating with the Iranians on their 
nuclear weapons program that when we lift the sanctions on 
them, they will have a lot more money and a lot more resources 
to continue to be engaged in Syria. So these are some of the 
challenges that we face when we are thinking about this broader 
question.
    But I appreciate all of your work, all of your insights.
    And this record will remain open until the close of 
business tomorrow.
    And with the gratitude of the committee, this hearing is 
adjourned.
    [Whereupon, at 5 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


          Responses of Ambassador Anne Patterson to Questions 
                  Submitted by Senator Robert Menendez

    Question. What is the worst case outcome for the Syrian war? What 
is the best case? In which direction is the current state of affairs 
trending?

  <diamond> Based on this assessment, are there specific areas of U.S. 
        policy that the administration is reevaluating in order to 
        increase the likelihood that we can avoid a worst-case 
        scenario?

    Answer. Circumstances in Syria continue to deteriorate. While we 
regularly reexamine and challenge the core assumptions that inform our 
policymaking process, the administration has not changed its 
fundamental policy on Syria. Our goals remain to: (1) counter violent 
extremism and prevent the establishment of a terrorist safe-haven in 
Syria; (2) avoid the collapse of the Syrian state and its institutions; 
(3) prevent the transfer or use of chemical weapons (CW); (4) support 
and bolster the security of Syria's neighbors; (5) alleviate 
humanitarian suffering resulting from the conflict; and (6) help foster 
a negotiated transition leading to a representative government that is 
responsive to the needs of the Syrian people.
    We continue to believe that the Assad regime is a magnet for 
terrorism and that the best, most durable resolution to the conflict is 
a mutually agreed-upon political transition. We are considering a range 
of policy tools that would bring us closer to achieving this 
transition.

    Question. How has the regime's recapture of Yabroud and ongoing 
infighting among opposition groups in northern Syria affected the 
prospects for each side in the conflict?

    Answer. The regime's recapture of Yabroud was undoubtedly a setback 
for the opposition forces, but this is a bloody war of attrition and we 
do not believe it can be resolved on the battlefield.
    We continue to encourage the moderate opposition, both political 
and armed, to be more unified, to coordinate more effectively, and to 
build better connections with civilian Syrian populations. I would cite 
the Syrian Opposition Coalition's (SOC) expected visit to Washington, 
DC, in the coming months as evidence that the moderate opposition has 
made strides in that direction. Nevertheless, the degree to which the 
moderate opposition continues to face challenges in coalescing around a 
shared political platform is a distraction from its efforts to rid 
Syria of violent extremists and a despotic regime.

    Question. In your testimony, you said that ``we are reviewing our 
policy and identifying priorities for coordination action.'' What is 
the status of this policy review? Will you consult with Congress on the 
priorities you identify for coordinated action?

    Answer. The process to which I referred is ongoing and fluid, as is 
the conflict itself. We are not currently in a position to brief the 
Congress on any new policy shift or initiative, but if, and when, any 
new steps are pursued, the administration will consult with Congress.

    Question. Despite working admirably and in good faith to seek a 
political solution to end the violence in Syria, the Syrian opposition 
has had difficulty building broad support among communities inside 
Syria.

  <diamond> (a) What is the U.S. doing to help the Syrian opposition 
        build legitimacy?

    Answer. Through senior-level meetings and other symbolic--but 
important--acts, we are attempting to help the SOC effectively 
represent the aspirations of the Syrian people. We expect to receive a 
senior SOC delegation in Washington, DC, in May, during which we hope 
to have productive discussions that further deepen our cooperation and 
understanding of one another.
    We also seek to strengthen the SOC through our foreign assistance 
programs, which encourage it to strengthen ties with communities inside 
Syria. In this vein, we have successfully facilitated multiple SOC 
meetings with local councils, media outlets, and grassroots 
organizations over the past year.
    We continue to provide assistance to local councils across Syria, 
an initiative implemented in close coordination with SOC's Assistance 
Coordination Unit (ACU). Our assistance helps the ACU strengthen its 
ability to respond to the needs of Syrians and conduct outreach inside 
Syria. With our help, the ACU has taken a lead role in determining the 
distribution of urgent equipment such as fire trucks, water bladders, 
ambulances, food baskets, and school supplies. The United States also 
provides operational support and resources to increase the SOC's 
connectivity to constituents, civil society, and local authorities, 
including funding to support their participation in the Geneva II 
process as well as outreach events such as townhall meetings, travel 
into Syria, and the establishment of satellite offices across Syria.

  <diamond> (b) Does the administration still believe that the SOC has 
        the credibility, capability, and commitment to lead the post-
        Assad transition?

    Answer. As an entity, the SOC does not seek, nor do we encourage 
it, to lead the post-Assad transition. Rather, we believe that an 
inclusive, representative, and capable political body like the SOC is 
needed to negotiate on the behalf of the Syrian people for the creation 
of a post-Assad transitional governing body. We assess that the SOC has 
the credibility, capability, and commitment to represent Syrians in 
these efforts. It has already taken important steps to coordinate 
efforts with other opposition groups and international partners. The 
SOC has started institutionalizing mechanisms to consult and cooperate 
more formally with the broad spectrum of Syrian society, all of which 
will be needed to make a transition succeed.

  <diamond> (c) Are Syrian opposition forces receiving U.S. assistance 
        capable of shifting the stalemate on the ground in Syria and 
        pushing back both extremist groups and Assad's Iran and Russia-
        backed forces? Are fighters with the Free Syrian Army compliant 
        with international humanitarian law and human rights standards?

    Answer. Despite the asymmetry of forces on the ground, the 
opposition has been able to maintain and hold territory, even after 3 
years of fighting. They spearheaded the initiative to fight extremists, 
even while continuing to fight the regime.
    Nevertheless, we recognize that they are facing an uphill battle. 
We understand that our nonlethal assistance will not directly determine 
outcomes on the battlefield nor will it, on its own, force Assad to 
change his calculus about retaining power. However, our assistance does 
provide needed financial support, equipment, and supplies, while 
sending a signal both to those inside and outside Syria of our strong 
support for the moderate opposition.
    The Supreme Military Council (SMC) has repeatedly reiterated to us 
its commitment to abiding by international law and the SOC has 
condemned the violations committed by opposition forces. I would be 
happy to refer you to SMC and SOC documents that affirm these 
commitments. Moreover, the USG supports the documentation of violations 
on all sides for future transitional justice measures.

  <diamond> (d) The State Department's Bureau of Conflict and 
        Stabilization Operations has been focused on helping to build 
        ties between the Syrian opposition and communities inside 
        Syria. How does the CSO Bureau evaluate the effectiveness and 
        progress in these programs?

    Answer. In October 2013, CSO initiated an impact review after the 
first fiscal year (FY 2013) of its programming in support of the Syrian 
opposition. In FY 2014, CSO began conducting quarterly impact 
assessments of its programming in Syria. These assessments use a 
maturity model approach (a framework that sets benchmarks for 
comparison of progress) to evaluate effectiveness based on outcomes 
related to:

  <bullet> Building cohesion of the moderate opposition (internally and 
        externally);
  <bullet> Strengthening media and civil society linkages to prepare 
        the Syrian people for a political transition; and
  <bullet> Promoting an inclusive, pro-democratic Syrian society that 
        counters violent extremism (CVE).

    Cohesion: Based on its analysis, CSO has determined that it has had 
some success increasing cohesion between the Syrian opposition and 
local communities inside Syria that it targets with its programming. 
Provincial-level coalitions are emerging (mainly in Northwest Syria) 
around consensus-based governance that seeks to provide real benefit 
and a voice to local communities. This can be seen in the expanding 
ties between local and provincial councils, the development of 
provincial-level structures for civil defense and policing, and in the 
slowly expanding ties between provinces.
    Political Transition: After 40 years of regime-dominated media, CSO 
is working to foster a pro-democratic media network out of small, 
disparate activists, primarily through radio and TV. These media 
outlets--11 FM radio and two satellite television stations--aim to hold 
the regime, opposition, and extremists accountable for their actions; 
mobilize and inform local populations; and provide a conduit for the 
moderate opposition to reach wider audiences.
    Inclusion/CVE: CSO's Syria programming seeks to (a) increase 
inclusion and empowerment of women, minorities, and other vulnerable 
groups; and (b) enable the moderate opposition and individual 
communities to more effectively resist extremism (largely through 
support to media and police forces). The capacity to resist extremism 
is particularly important as many of the groups CSO is working with are 
prime targets for extremist attacks as a result of their moderate 
political messaging and initiatives.

  <diamond> (e) In your opening statement, you say that State and USAID 
        have started to channel resources directly to local and 
        provincial governments and civil society groups. Why are 
        resources being sent directly rather than through the SOC?

    Answer. U.S. nonlethal assistance to the Syrian opposition is 
closely coordinated with the Syrian Opposition Council's (SOC) 
Assistance Coordination Unit (ACU) to ensure that U.S. Government 
assistance is meeting emerging needs in Syria. In some instances, we 
have refocused our assistance to areas where moderates are maintaining 
control. In areas where extremists have been ejected, we have moved to 
boost moderates' ability to govern and provide basic services to fill 
the vacuum. Implementing this strategy necessitates that we sometimes 
engage directly with moderate and capable councils, and civil society 
groups, inside Syria that are in need of international support.
    In addition to our coordination with the SOC and ACU in our overall 
assistance efforts, we provide assistance directly to these 
organizations. For instance, the SOC recently held its first outreach 
activity supported by U.S. funding, a large-scale gathering of 
activists and local council members from inside Syria. At the event, 
the SOC assured civil society and local authorities of its commitment 
to being inclusive, transparent, and engaged. The United States has 
also provided nearly $1 million in direct assistance to the ACU to 
support its operational, programmatic, and outreach capabilities. This 
type of assistance is critical to our larger policy goal of achieving a 
negotiated political solution that puts an end to the violence and 
ultimately leads to a representative government that is responsive to 
the needs of the Syrian people.

  <diamond> (f) How does the administration view recent leadership 
        disputes within the Supreme Military Council and what criteria 
        will the administration use to assess the potential value of 
        providing further support to armed opposition groups?

    Answer. We view the recent ascendance of Gen. Abdul-Ilah al-Bashir 
as an attempt by the SMC to build stronger ties between the armed and 
political opposition, a goal that we have long supported.
    We are in constant contact with opposition leaders in order to 
learn about the challenges faced by Syrian communities and consider 
their specific requests. We assess the value of our assistance 
according to the feedback we receive from opposition leaders and 
regular monitoring and evaluation practices.

    Question. Assad has been spending unsustainably to fight this civil 
war. He has secured some financing in the shape of loans from Iran and 
barter contracts with Russian banks exchanging Syrian oil for staple 
commodities but his financial reserves continue to dwindle as he spends 
more money that he takes in.

  <diamond> How much money does Assad have left?
  <diamond> Where is his outside funding coming from and what forms do 
        that funding or assistance take?
  <diamond> How is Assad sustaining operations in the face of dwindling 
        reserves?
  <diamond> You said in your testimony that the U.S. is working with 
        members of the opposition, and other states in the region to 
        cut off sources of funding and recruits for violent extremists 
        in Syria. Please describe how the U.S. Government is doing 
        this.

    Answer. The United States is committed to increasing pressure on 
and isolating the Assad regime and its supporters until they recognize 
that the best resolution to this conflict is a negotiated political 
transition. The State Department, along with Treasury, is bringing 
significant diplomatic weight to bear in order to pressure companies 
around the world to cease their dealings with the Assad regime.
    The combined effects of U.S. and international pressure and 
sanctions on Syria have placed a considerable toll on Assad's financial 
reserves and sources of funding. This pressure has forced the regime to 
take extraordinary steps--including harmful inflationary measures--to 
secure the funds that maintain its war effort, which it prioritizes 
over all else.
    With respect to the activities of violent extremists, the U.S. 
Government leverages diplomatic engagement, information-sharing, 
technical assistance, and sanctions to cut off funding to extremists in 
Syria. The United States is working with countries in the region to 
strengthen their ability to detect and interdict financial flows to 
extremists. The United States has also designated several key terrorist 
financiers and facilitators, effectively cutting off their access to 
the U.S. financial system.
    Multilateral diplomacy will also continue to be crucial in the 
context of preventing and interdicting foreign extremist travel to and 
from Syria. We are working with members of the opposition, Syria's 
neighbors, and other regional states to interdict and encourage 
prosecution of these extremists, cut off their financial resources, and 
prevent radicalization and recruitment to their cause. Ambassador 
Robert Bradtke, the Department of State's Senior Advisor for Partner 
Engagement on Syria Foreign Fighters, is leading the Department and 
interagency efforts in engaging foreign partners on this issue.

    Question. Our partners in the Gulf Cooperation Council (GCC) are 
supporting elements of the Syrian Opposition and providing humanitarian 
aid, nonlethal and lethal assistance. Saudi Arabia has reportedly been 
in talks with Pakistan to purchase man-portable antiaircraft (MAN-Pad) 
and antitank missile systems, which the administration has objected to 
as recently as February.

  <diamond> Are you satisfied by the level of coordination on Syria 
        with GCC partners?
  <diamond> Is coordination better with some GCC members? If so, which 
        countries are more difficult to coordinate with? How can the 
        U.S. improve its coordination with GCC members on Syria?
  <diamond> What is your view on the provision of missile systems to 
        Syrian opposition groups?

    Answer. As we focus and improve our own assistance channels, we are 
working more closely with regional partners to maximize the impact of 
our collective assistance. We share a common understanding with our 
gulf partners regarding the importance of ensuring that violent 
extremists not benefit from external assistance. We will continue to 
improve coordination through regular consultations with our partners.
    We have not changed our position on providing missile systems to 
the Syrian opposition. We continue to have concerns about the attendant 
proliferation risk that could provide terrorist groups with the 
capability to threaten civilian aviation.

    Question. The Russian state arms manufacturer Rosoboronexport has 
been the Pentagon's supplier of Mi-17 helicopters to the Afghan 
National Security Forces (ANSF) but has also been selling arms to the 
Assad regime. Some have advocated for cancelling our contracts with 
Rosoboronexport and sanctioning the company for Russia's annexation of 
Crimea.

  <diamond> (a) What military equipment has the Assad regime acquired 
        from Rosoboronexport? How has the quantity and quality of 
        Russian weapons shipments to Syria changed over the last 3 
        years? Over the last few months?

    Answer. The answer was submitted under separate cover to the 
Chairman (prepared by INR).

  <diamond> (b) Would sanctions on Rosoboronexport related to Ukraine 
        impact Assad? If so, how?

    Answer. Rosoboronexport is a Russian state-owned arms exporter 
involved in Russian international arms trade to Syria. As you know, 
U.S. involvement with Rosoboronexport exists primarily to meet an 
urgent need to field Mi-17 military-use helicopters for the Afghan 
National Security Forces (ANSF). While any U.S. sanctions on 
Rosoboronexport regarding events in Ukraine would likely impact 
Rosoboronexport's overall operations, it may not directly impact the 
company's dealings with Syria.
    The President has announced a series of measures that will continue 
to increase the cost to Russia for its actions in Ukraine. The 
President's Executive Orders 13660, 13661, and 13662 authorize 
sanctions on individuals or entities involved in certain prohibited 
actions, including entities operating in the defense and related 
materiel sector in the Russian Federation. This authority is currently 
being used as part of a calibrated response to the Russian actions in 
Ukraine. The administration continues to be committed to resolving the 
situations in both Ukraine and Syria.

  <diamond> (c) Under the current contract with Rosoboronexport, how 
        many Mi-17s have been delivered to the ANSF? How many are 
        remaining to be delivered in the contract?

    Answer. There are 30 total Mi-17s under the current contract for 
the Afghan Special Mission Wing. Twenty-one Mi-17s have been delivered; 
nine remain to be delivered.

    Question. What effect has the confrontation with Russia over 
Ukraine had on the willingness of Russian officials to work 
productively and cooperatively with their U.S. counterparts on issues 
relating to Syria?

  <diamond> Has the level of Russian cooperation changed in recent 
        weeks and if so, have these changes had any negative effects on 
        U.S. interests?
  <diamond> Do Russia's interests regarding Ukraine present 
        opportunities for U.S. diplomacy vis-a-vis Syria?

    Answer. Russia's actions in Ukraine do not appear to have had any 
effect on Russia's actions regarding Syria or its officials' 
willingness to work productively and cooperatively with the U.S. on 
issues relating to the Syria chemical removal effort. The level of 
Russian cooperation has not changed in recent weeks. The U.N./OPCW 
joint mission has removed 92 percent of Syria's declared chemical 
weapons and Russia has continued to encourage Syria to complete the 
removal of its chemical weapons from the remaining site.
    It is in our own national interests to complete the removal of all 
chemical weapons from Syria, to work with the international community 
to respond to and prevent attacks on civilians, and to help bring an 
end to the bloodshed by assisting the Syrian people develop a political 
solution to the crisis. That said, Russian and U.S. views on broader 
Syria policy remain divergent. Russian support for the Assad regime has 
continued. Russia has been unable to convince the Assad regime to 
engage in direct negotiations that would lead to a Transitional 
Governing Body according to the Geneva Communique and the agenda set 
out for the Geneva II negotiations on a political solution to the 
Syrian conflict.

    Question. Last year the U.S. took in 36 Syrian refugees, which is 
such a small number given the gravity and scale of this humanitarian 
crisis. The U.S. must accept significantly more, especially if we are 
to credibly ask other countries to accept more Syrian refugees as well.

  <diamond> How will the State Department work with the Department of 
        Homeland Security to significantly increase the number of 
        Syrian refugees accepted by the United States?

    Answer. UNHCR has begun to refer an increased number of Syrian 
refugee cases to the United States--the first step necessary to begin 
the resettlement process for any refugee. The pace of those referrals 
will increase in coming months and total thousands by the end of 2014. 
Refugees who are deemed eligible for admission to the United States 
will begin to arrive in 2015 and 2016. In line with U.S. policy, we 
expect we will accept a significant number of Syrian refugees over the 
next few years.
    The Department of State directs, under established cooperative 
agreements, Resettlement Support Centers (RSCs) in Amman, Beirut, 
Istanbul, Baghdad, and Cairo that will process Syrian refugee referrals 
upon receipt from UNHCR. The U.S. Refugee Admissions Program is a 
deliberate process that involves many required steps, including an in-
person Department of Homeland Security (DHS) U.S. Citizenship and 
Immigration Services (USCIS) interview, security checks, medical exams, 
and sponsorship assurance. DHS/USCIS adjudicating officers travel to 
most of these locations on a quarterly basis to adjudicate refugee 
cases in a timely fashion. The average processing time for a refugee 
resettlement case from referral to arrival in the United States is 
approximately 18-24 months.
    It is important to note that any Syrian refugee who might be 
considered for admission to the United States will undergo the same 
intensive security screening that is applied to all refugees under 
consideration for U.S. resettlement. Refugee applicants are currently 
subject to more security checks than any other category of traveler to 
the United States, with security screening conducted by DHS and 
multiple U.S. Government intelligence, law enforcement, and defense 
agencies.
    The Department of State works closely with DHS and the U.S. 
Government's law enforcement and intelligence vetting partners to 
ensure that only applicants who pass the rigorous security screening 
are admitted into the United States, that cases on security hold 
receive a timely review, and that those applicants who do not pass the 
security screening check are informed of their ineligibility to 
resettle in the United States.

    Question. How does the administration hope to use the authority 
granted by Public Law 113-76 to support the Syrian opposition and 
pursue other Syria-related priorities? What amount of FY 2014 and prior 
year funding is currently available in the ESF account to support these 
efforts pursuant to the new authority? What tradeoffs and constraints 
does the administration face when considering the use of these funds? 
How does the administration plan to engage Congress regarding these 
funds?

    Answer. The United States is providing nearly $287 million in 
nonlethal assistance to the Syrian opposition, drawing on existing 
accounts and authorities. The administration appreciates Congress' 
inclusion of expanded authority in the FY 2014 Appropriations Act 
(Public Law 113-76) which increases our ability to support the range of 
nonlethal support to civilian opposition groups. For example, we relied 
on this authority for our recent allocation of $26 million in FY 2013 
ESF, notified to Congress on March 8. This funding will assist the 
Syrian opposition by expanding ongoing programs that support the SOC 
and its Assistance Coordination Unit's (ACU) priority campaigns inside 
Syria, including activities like the Syria In Green initiative, and 
those that provide critical search and rescue kits, civil defense 
materials, and communications equipment to support civil defense 
efforts in hard hit areas such as Aleppo City. (The Syria in Green 
initiative delivers urgently needed equipment and supplies like food 
baskets, generators, trucks, and school supplies.) Our programs will 
also provide financial and technical assistance to strengthen Syrian 
independent media, including 13 radio and television outlets.
    The Department of State and USAID are currently assessing global 
funding availability through our FY 2014 allocation process, which 
seeks to balance our limited resources against our ongoing global 
commitments and priorities to determine how we will support key policy 
goals, such as those related to the Syria crisis. We will continue to 
engage and consult with Congress as these decisions are made.

    Question. When does the administration expect to expend the 
remainder of the funds notified to the committee to date for assistance 
in Syria? For what purposes? In general terms, how will the $155 
million in funds requested for FY 2015 assistance in Syria be used? 
How, if at all, will FY 2015-funded programs be different from programs 
implemented to date?

    Answer. To date we have notified approximately $287 million in 
funding to support the Syrian opposition, of which approximately 65 
percent has been delivered or is in-train. The spend rate for the 
remaining assistance depends on a variety of factors including access 
at the borders and other security considerations that are beyond our 
control. I therefore cannot speculate at exactly what point the 
remaining funds will be expended.
    The administration's FY 2015 request for $155 million in funding to 
support the U.S. response to the Syria crisis will be used to continue 
ongoing opposition support efforts, including support to national- and 
local-level opposition groups as they strive to achieve and implement a 
negotiated political solution. Should a transition occur, U.S. 
assistance will help consolidate the political transition, support 
democratic processes, strengthen criminal justice institutions within 
Syria, and enable reconstruction and recovery efforts, in coordination 
with the other international donors. Some of these funds may also be 
used to help mitigate the economic, security, and infrastructure 
impacts of the ongoing crisis as well as the demands created by refugee 
flows into neighboring countries.

    Question. What specific changes have been made to the oversight and 
implementation of U.S. assistance programs in Syria in light of the 
seizure of facilities held by U.S.-backed opposition groups in December 
2013? What ``mission-specific'' activities will be carried out at U.S. 
facilities in Gaziantep and Adana, Turkey in line with the 
administration's request for $46.9 million in D&CP-OCO funding?

    Answer. Since the December 2013 seizure of the Atmeh warehouse, we 
have been providing our nonlethal assistance for the moderate armed 
opposition directly to vetted unit commanders in the field rather than 
first warehousing equipment for later distribution. For our nonlethal 
assistance to civilian actors, our grantees and the final recipients of 
assistance, such as local and provincial councils and the ACU, we are 
constantly reevaluating routes and crossings to determine the safest 
options. After assistance is brought into Syria, opposition authorities 
often hire trucks to retrieve it, allowing councils to assess the 
checkpoints and actors along their routes and determine whether the 
roads are secure enough to return with the assistance. In one recent 
case, a relief committee from Ghouta on the outskirts of Damascus was 
scheduled to send trucks to pick up supplies but notified the ACU that 
they had to turn back after news of clashes en route to Homs. The 
trucks returned 2 days later and successfully collected the supplies. 
Councils and the ACU have also negotiated agreements with armed groups 
in the past to allow assistance to pass without interruption.
    The Syria Transition Assistance Response Team (START), an 
interagency response team comprised of six offices and bureaus from 
State and USAID and which operates out of Mission Turkey, is 
responsible for coordinating and synchronizing U.S. assistance efforts 
given the fluid situation in Syria. It coordinates the planning and 
delivery of all nonlethal transition and humanitarian assistance and 
works with international organizations, NGOs, the Government of Turkey, 
and the Syrian opposition to ensure U.S. assistance effectively 
addresses Syria's needs. The FY 2015 D&CP-OCO funding request supports 
the personnel and operational cost components of the START.

    Question. How are Function 150-funded programs coordinated with the 
Syria-related activities of other government agencies? How does the 
State Department view the prospect of using title 10 authorities and 
funds to support an overt train-and-equip mission for Syrian 
opposition-affiliated security personnel?

    Answer. The Department of State and USAID regularly coordinate with 
our interagency colleagues in Washington, on both assistance and 
diplomatic efforts. Likewise, in the field, there is extremely close 
coordination among the various interagency elements providing 
assistance.
    The President has repeatedly stated that no options have been taken 
off the table in our pursuit of a political settlement and a durable 
end to the violence in Syria, and I will work to preserve his 
flexibility and policymaking prerogatives as we evaluate the numerous 
options under discussion.
    The administration acknowledges that the only durable solution to 
the crisis is a political transition. Until that happens, we are 
working with our partners to ensure that Syria's moderate opposition 
gets the help it needs to protect civilian populations from regime 
assault, enable civilian governance and service delivery, and 
contradict the influence of extremists. For the Department of State's 
part, we are providing approximately $80 million in nonlethal 
assistance to vetted, moderate armed groups in coordination with the 
Supreme Military Council (SMC). To date this aid has included cargo and 
pickup trucks, ambulances, food, communications gear, generators, 
tents, blankets, mattresses, medical kits and equipment, and 
specialized equipment such as forklifts and backhoes to units in both 
the north and south of Syria.

    Question. Last week, Special Envoy Daniel Rubenstein announced that 
the U.S. Government notified the Syrian Government to suspend all 
operations at its Embassy and consulates in the United States, and that 
all diplomatic personnel must leave our country. However, Special Envoy 
Rubenstein's statement went on to say that, ``despite the differences 
between our governments,'' this announcement did not constitute a 
formal break in diplomatic relations because of ``our long-standing 
ties to the Syrian people.'' This announcement appears to recognize the 
Assad regime as the Syrian Government, however, in December 2012 Deputy 
Secretary Bill Burns recognized the Syrian Opposition Council as the 
legitimate representative of the Syrian people during the Friends of 
the Syrian People gathering in Morocco.

  <diamond> Can you clarify the seeming contradiction between Special 
        Envoy Rubensteins' statement and that of Deputy Secretary 
        Burns?
  <diamond> What effect will this action have on the millions of 
        Syrians suffering inside and outside Syria?
  <diamond> What actions is the administration taking to ensure that 
        the SOC is viewed inside and outside Syria as the legitimate 
        representative of the Syrian people?

    Answer. The Friends of the Syrian People's recognition of the SOC 
as the sole legitimate representative of the Syrian people in December 
2012 was a political step to underscore that we fully support it--not 
tantamount to recognition of the SOC as the new Government of Syria.
    The Embassy had not been performing consular work for a long time 
when we decided to suspend its operations; we do not anticipate that it 
will have an operational impact on Syrians residing in the United 
States. We intend for the suspension to reinforce our public message 
that the Assad regime, which is waging war against its own people, is 
illegitimate.
    Through senior-level meetings and other symbolic--but important--
acts, we are trying to help strengthen the SOC. For example, we are 
expecting to receive a senior SOC delegation in Washington, DC, in the 
coming months, during which we hope to have productive discussions that 
further deepen our cooperation and understanding.
    In addition to our ongoing diplomatic initiatives, the United 
States also seeks to help the SOC through our foreign assistance 
programs, which encourage it to strengthen ties with communities inside 
Syria. In this vein, we have successfully facilitated multiple SOC 
meetings with local councils, media outlets, and grassroots 
organizations over the past year.
    We continue to provide assistance to local councils across Syria, 
an initiative that is implemented in close coordination with SOC's 
Assistance Coordination Unit (ACU). Our assistance helps the ACU 
strengthen its ability to respond to the needs of Syrians and conduct 
outreach inside Syria. With our help, the ACU has taken a lead role in 
determining the distribution of urgent equipment such as fire trucks, 
water bladders, ambulances, food baskets, and school supplies. The 
United States also provides operational support and resources to 
increase the SOC's connectivity to constituents, civil society, and 
local authorities, including funding to support their participation in 
the Geneva II process as well as outreach events such as townhall 
meetings, travel into Syria, and the establishment of satellite offices 
across Syria.

    Question. To what extent do the constituent members of the Syrian 
Opposition Coalition hold varying views on questions of inclusiveness, 
protection of minorities, women's participation, disarmament, and 
relations with the United States and Israel? How have armed Islamist 
groups reacted to the coalition's participation in the Geneva 
discussions? What effect has the recent leadership changes and disputes 
in the Supreme Military Council had on the effectiveness of SMC-
affiliated forces on the ground?

    Answer. The SOC has made clear its views on the importance of 
political inclusiveness, protection of minorities, and women's 
participation. I would encourage you to review its proposal for a 
Transitional Governing Body, which it tabled at the second round of 
Geneva negotiations this past February, for insight into its commitment 
to these tenets. The SOC also presented a political platform of core 
principles which includes these elements.
    We expect that a successor government will encourage widespread 
disarmament when the time comes for rebuilding. Many armed opposition 
figures have told us that they have no military background; their 
reason for fighting is self-defense, and they look forward to a period 
that will allow them to return to their prerevolution lives.
    The SOC looks to the U.S. as a partner. We believe the SOC's legacy 
as represented in a successor government will work to curb violent 
extremism, bring stability and peace to the region, and normalize 
relations with neighbors.
    There has been a mixed reaction across society regarding the 
proposition of Geneva Two negotiations. The Islamic Front, a 
conglomeration of the largest and most influential Islamist groups on 
the ground, met immediately before the Geneva talks began last January 
and decided not to criticize the process despite its reservations about 
the regime's intentions to negotiate. The SOC saw a surge of public 
support and was largely seen by its constituents and international 
partners alike as having effectively spoken for the Syrian people.
    We do not believe that the SMC's leadership changes are likely to 
have a very significant impact on the ground. We have not seen any 
significant impact so far.

    Question. What specifically is the U.S. doing now to use its 
influence with governments bordering Syria to ensure cross-border 
operations are better coordinated and implemented, so that these vital 
operations can be expanded to assist millions of people now not 
receiving aid?

    Answer. As the Secretary noted during the May 15 London 11 meeting, 
the key obstacle to cross-border humanitarian assistance provision 
remains the Syrian Arab Republic Government (SARG). The SARG continues 
to prevent humanitarian aid deliveries, besiege villages, and bomb its 
own people in complete disregard of the unanimous demands in U.N. 
Security Council Resolution (UNSCR) 2139 and the demands of the 
international community. Despite these overwhelming obstacles, the U.N. 
and other humanitarian organizations are reaching millions in Syria 
each month, saving lives and providing medical care, food, clean water, 
and shelter in all 14 governorates. The United States commends the 
valiant efforts of these organizations and is committed to supporting 
their work.
    The United States provides aid through all available channels--
including U.N., international (IO), nongovernmental (NGO) and local 
humanitarian organizations--to those in need in Syria, no matter where 
they reside. As the single largest donor to the Syria humanitarian 
crisis, the United States is providing more than $1.7 billion in 
humanitarian assistance for those affected by the Syria crisis. Of this 
amount, we are providing nearly $340 million to support the work of 
NGOs inside Syria. The United States continues to work closely with 
humanitarian partners and other donors to determine the best ways to 
scale up humanitarian assistance in Syria, and continues to call on the 
SARG to fulfill its obligations under UNSCR 2139 and allow U.N. convoys 
to provide cross-border and cross-line aid.
Engaging the Governments of Turkey and Jordan
    The U.S. Government works closely with the Government of Turkey 
(GOT) and the Government of Jordan (GOJ) in a joint effort to get aid 
to the 9.3 million people who need it in Syria. Our shared humanitarian 
goals include full implementation of UNSCR 2139 and increasing the 
amount of aid being brought into Syria. GOJ and GOT support has been 
essential in facilitating aid deliveries into Syria. We have also asked 
the Government of Turkey to expand registration for international NGOs 
that are involved in, or considering, cross-border assistance efforts 
(from Turkey into Syria).
Scaling Up Assistance to Syria
    The Department and USAID continue to look for ways to get aid to as 
many people as possible inside Syria, particularly the 3.5 million 
people in hard-to-reach or besieged areas. To expand our reach, we want 
to increase the number of aid agencies with whom we work and expand our 
programs. We also continue to engage in robust discussions with IOs, 
NGOs, and other donors on how to deliver more assistance to those in 
need.

    Question. The UNSC Resolution (S/RES/2139) and international 
humanitarian law provide the firm legal framework for implementing 
cross border operations. Last week, a U.N. convoy was able to restock 
aid supplies using the Nusaybin crossing into Northern Syria.

  <diamond> (a) What do you see as the impact of U.N. Security Council 
        Resolution 2139 (2014) to increase humanitarian access and aid 
        delivery in Syria?

    Answer. The unanimous adoption of U.N. Security Council Resolution 
(UNSCR) 2139 sent a strong signal to the Syrian Government that the 
Council wants to see action to address this catastrophic humanitarian 
crisis. The resolution has provided a stronger political basis for 
encouraging the U.N. to push harder for cross-border and cross-line 
assistance and established a process of monthly reports by the U.N.'s 
leading humanitarian coordination official to the Security Council.
    The resolution calls for specific and concrete action from all 
parties to improve the humanitarian situation in Syria. Specifically, 
it calls for all parties to immediately lift the sieges on named 
populated areas, and demands that all parties, in particular the Syrian 
Government, promptly allow rapid, safe, and unhindered humanitarian 
access, including across borders, as well as immediately cease the 
indiscriminate use of horrific weapons, like barrel bombs, in populated 
areas.
    At the same time, due to Russian opposition, the resolution was not 
adopted pursuant to the Council's authority under Chapter VII of the 
U.N. Charter and does not impose consequences for the government if it 
continues to block access. Russia continues to insist on using language 
in the Council that is strongly rooted in respect for state sovereignty 
and may be invoked to limit cross-border assistance in particular.
    Humanitarian access inside Syria continues to be challenging The 
U.N. has repeatedly pressed for more cross-border access, particularly 
from specific crossing points in Jordan and Turkey, to deliver life-
saving aid to populations that cannot be reached easily from Damascus. 
Most of these requests have been denied or gone unanswered by the 
government, depriving millions of people of desperately needed food, 
medical care, and supplies. In addition to the government, other armed 
groups--especially extremists--also bear responsibility for blocking 
aid delivery into some parts of Syria, and they, too, must be held 
accountable for their actions.

  <diamond> (b) Please identify possible next steps by the Security 
        Council.

    Answer. The U.N. Security Council made clear its intent to consider 
further steps in the case of noncompliance with UNSCR 2139. U.N. 
Secretary General Ban Ki-moon has stated that failure to comply with 
the resolution's demands constitutes arbitrary denial of access and 
that the Security Council must take action. More than 2 months have 
gone by since the adoption of UNSCR 2139, with minimal progress in 
reaching millions of innocent civilians. The United States is actively 
involved in Council discussions regarding possible additional action to 
advance humanitarian access inside Syria, including a possible follow-
on resolution.

  <diamond> (c) What prevents the United Nations from sending more 
        convoys into Syria?

    Answer. The U.N. is limited in its ability to send additional 
convoys into Syria from neighboring states absent authorization from 
the government. The U.N.'s provision of international humanitarian 
assistance is guided by U.N. General Assembly Resolution 46/182 which 
states, among other things, that ``the sovereignty, territorial 
integrity and national unity of States must be fully respected in 
accordance with the Charter of the United Nations. In this context, 
humanitarian assistance should be provided with the consent of the 
affected country and in principle on the basis of an appeal by the 
affected country.'' This resolution was adopted by consensus with 
support of the United States.
    In addition, parts of Syria are controlled by terrorist and 
extremist groups who target international humanitarian aid workers and 
others seeking to provide assistance. General insecurity and the lack 
of guarantees by armed groups to safely enter areas make it very 
difficult for the U.N. to send convoys into the country.

  <diamond> (d) Why does the U.N. continue to refuse to scale up its 
        cross-border humanitarian operations given the massive scale of 
        the civilian need, while smaller nongovernmental aid agencies 
        routinely--and bravely--make cross-border deliveries to 
        populations in desperate need?

    Answer. Despite these real challenges, the U.N. continues to push 
the government to permit additional cross-border and cross-line access 
to people in need of aid and has sought to advance its work in every 
way possible. Some nongovernmental organizations (NGOs) are able to 
more easily provide cross-border assistance to some parts of the 
country because they are not required to strictly follow the U.N.'s 
procedures for delivery of humanitarian assistance, although they also 
face significant challenges. The U.S. is the largest humanitarian donor 
to Syria, providing $493.5 million to the U.N. and $384.5 million to 
NGOs, International Organizations and others working inside of Syria. 
We continue to push for greater coordination of the overall 
humanitarian effort to get us as much aid to the Syrian people as 
possible.

    Question. What diplomatic efforts is the administration engaged in 
with regional states that have a role with respect to the current 
situation inside Syria to encourage the parties of the conflict to 
agree to allowing more humanitarian aid into Syria?

    Answer. The administration is engaged in a broad range of 
diplomatic efforts with states that have influence over parties to the 
conflict inside Syria to work toward changing the situation on the 
ground and improving humanitarian assistance provision inside Syria. 
These diplomatic engagements include the United States robust 
participation in the High Level Group (HLG) on Syria Humanitarian 
Challenges. The Department also maintains continuous engagement at the 
highest levels with nongovernmental organization (NGO) and 
international organization (IO) partners involved in direct assistance 
provision.
    The High Level Group (HLG) on Syria Humanitarian Challenges, 
initiated by U.N. Emergency Relief Coordinator Valerie Amos, was 
created shortly after the adoption of the October 2, 2013, U.N. 
Security Council Presidential Statement (PRST) on humanitarian access 
in Syria. The HLG, which currently has 31 member states, aims to 
mobilize member states with influence over the parties to the conflict 
to expand access for humanitarian actors to deliver aid to those in 
need in Syria, particularly the 3.5 million people trapped in besieged 
and hard-to-reach areas. The HLG has held seven plenary sessions, and 
the HLG subgroups have met regularly at the technical level in Geneva 
on a weekly or biweekly basis.
    The subgroups have focused on seven priority areas including: 
increasing access to besieged areas; increasing access to hard-to-reach 
areas; expanding medical assistance and vaccination campaigns; 
demilitarizing schools, hospitals, and other civilian sites; 
streamlining administrative hurdles; increasing funding for U.N. 
humanitarian appeals; and working toward a political solution to the 
conflict through the Geneva II negotiations. While the group's efforts 
have not resulted in major access breakthroughs, it now serves the 
function of documenting noncompliance with UNSCR 2139, passed in 
February 2014, and keeping the international community focused on a 
specific set of tangible priority actions. The HLG is equally useful in 
publicly documenting the Syrian Government's responses (or lack 
thereof) to specific requests made by the U.N. for access to areas in 
need. The HLG thereby is building a body of evidence which, by 
determining that the SARG has ``arbitrarily denied humanitarian aid'' 
and committed violations of international humanitarian law, could pave 
the way for further steps in the Security Council that could ultimately 
break the impasse on access.
    Most recently, at the May 15 London 11 Ministerial, Secretary Kerry 
joined fellow London 11 members to condemn the Assad regime for 
preventing the delivery of humanitarian assistance in Syria, 
particularly cross-border and cross-line access, and called for 
additional efforts by the international community to scale up 
humanitarian aid delivery into Syria, irrespective of the regime's 
consent.

    Question. How many rounds of 30-day reporting does the 
administration expect the Secretary General to provide the Security 
Council to determine that humanitarian access is/is not improving? What 
sort of ``further steps in the case of noncompliance'' (per the 
language at the end of the UNSCR) will be discussed should the 
situation continue to remain the same (or deteriorate)?

    Answer. The Secretary General has reported twice to the Security 
Council since the adoption of U.N. Security Council Resolution (UNSCR) 
2139. During each session the United States has highlighted the Syrian 
Government's failure to fully and expeditiously implement the 
resolution. As the Secretary General stated in his recent report, 3.5 
million people remain without access to essential goods and services. 
This is unacceptable. We are actively engaged in negotiations at the 
highest level to discuss possible next steps in case that the Syrian 
authorities continue to act inconsistently with UNSCR 2139. We want to 
ensure that further Security Council action would have a positive, 
tangible impact on humanitarian operations on the ground.
    In addition to efforts in the Security Council, where Russian 
obstructionism may prevent further action, we are also engaged in other 
diplomatic efforts to improve people's access to humanitarian aid 
inside Syria. These diplomatic engagements include the United States 
active participation in the High Level Group (HLG) on Syria 
Humanitarian Challenges. The HLG was created by U.N. Emergency Relief 
Coordinator Valerie Amos shortly after the adoption of the U.N. 
Security Council Presidential Statement (PRST) on humanitarian access 
in Syria, issued October 2, 2013. The HLG aims to mobilize member 
states with influence over the parties to the conflict to expand access 
for humanitarian actors to deliver aid to those in need in Syria, 
particularly the 3.5 million people trapped in besieged and hard-to-
reach areas. The HLG has held seven plenary sessions, and the HLG 
subgroups have met regularly at the technical level in Geneva on a 
weekly or biweekly basis.
    While the group's efforts have not resulted in major access 
breakthroughs, the group serves a useful purpose in documenting 
nonimplementation of UNSCR 2139 and in keeping the international 
community focused on a specific set of tangible priority actions. The 
HLG is equally a useful exercise to publicly document the Syrian 
Government's responses (or lack thereof) to specific requests made by 
the U.N. for access to areas in need in order to build a body of 
evidence needed to determine the Syrian Government has violated 
international humanitarian law. Such a determination could pave the way 
for further steps in the Security Council or other fora.
                                 ______
                                 

          Responses of Ambassador Anne Patterson to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. The most recent U.N. Commission of Inquiry on Syria 
report indicates that grave breaches of international humanitarian law 
and significant violations of human rights law occur at an alarming 
frequency in Syria. Indiscriminate shelling, torture, massacres, 
blatant disregard for civilian immunity in warfare and other brutal 
acts are frequently reported. Many analysts have suggested that such 
patterns will continue until a political settlement is reached. Yet, 
with little progress having been achieved at the recent Geneva II 
talks, a political deal seems increasingly elusive.

  <diamond>  In your view, what can be done now to ensure 
        accountability for crimes against humanity and war crimes 
        committed during the Syrian conflict?

    Answer. The United States has and will continue to call for 
accountability in Syria. For more than 3 years, we have consistently 
demanded a Syrian-led transitional justice and accountability process 
for atrocities in Syria, and supported institutions that are helping to 
build the foundation for future accountability efforts. We have 
encouraged other nations to highlight accountability in Syria and to 
support efforts to document abuses.
    We have supported and engaged the independent international 
Commission of Inquiry on Syria (COI), which was established in 2011 by 
the U.N. Human Rights Council with a mandate to investigate violations 
of international human rights and war crimes in Syria. The COI is 
working to establish the facts and circumstances of such violations, 
which may include war crimes and crimes against humanity, and, where 
possible, to identify the perpetrators with a view to ensuring that 
they are held accountable.
    We have also been instrumental in standing up the of the Syria 
Justice and Accountability Center (SJAC), which was established with 
the support of 40 countries to coordinate documentation on ongoing 
human rights abuses on all sides of the conflict. The SJAC is an 
independent, Syrian-led organization that collects, preserves, and 
analyzes information on alleged human rights violations and other 
relevant data to inform and contribute broadly to future transitional 
justice processes for Syria. Through a subgrant to the Syrian 
Commission for Justice and Accountability (SCJA), hundreds of thousands 
of documents and photos have been assembled to form the basis for a 
secure database for future use.
    The United States maintains extensive sanctions on the Syrian 
regime, including sanctions targeting those responsible for human 
rights abuses.

    Question. What mechanisms do you have in place to help appropriate 
Syrian stakeholders and other relevant parties identify and report on 
gross violations of human rights and war crimes in Syria?

    Answer. The United States gives financial and material support to 
the Syria Justice and Accountability Center (SJAC). The SJAC was 
established with the support of 40 countries to coordinate 
documentation on ongoing human rights abuses on all sides of the 
conflict. The SJAC is an independent, Syrian-led organization that 
collects, preserves, and analyzes information on alleged human rights 
violations and other relevant data to inform and contribute broadly to 
future transitional justice processes for Syria. The SJAC is working 
with a network of Syrian human rights activists largely within Syria 
working on human rights documentation.
    The SJAC's efforts are designed to contribute to all possible 
transitional justice mechanisms including truth-seeking, reparations, 
prosecution, reconciliation efforts, and memorialization, with the 
recognition that all of these efforts will be important in supporting 
the country's eventual recovery from this conflict.
    The SJAC has also made a subgrant to the Syrian Commission for 
Justice and Accountability (SCJA). SCJA is currently reviewing hundreds 
of thousands of videos and Syrian regime documents for content related 
to chain of command and other factors that will assist accountability 
efforts. This information is being deposited into a secure database for 
future use.
    In addition, the United States also supports organizations like 
Physicians for Human rights, which is training Syrian medical 
professionals to document sexual and gender-based violence and torture.

    Question. What efforts has the United States taken to ensure 
accountability, including documenting, investigating and developing 
findings for war crimes committed during the atrocity for future 
prosecution?

    Answer. The United States helped to establish the Syria Justice and 
Accountability Center (SJAC). The SJAC was established with the support 
of 40 countries to coordinate documentation on ongoing human rights 
abuses on all sides of the conflict. The SJAC is an independent, 
Syrian-led organization that collects, preserves, and analyzes 
information on alleged human rights violations and other relevant data 
to inform and contribute broadly to future transitional justice 
processes for Syria. The SJAC is working with a network of Syrian human 
rights activists largely within Syria working on human rights 
documentation.
    The SJAC has also made a subgrant to the Syrian Commission for 
Justice and Accountability (SCJA). SCJA is currently reviewing hundreds 
of thousands of videos and Syrian regime documents for content related 
to chain of command and other factors that will assist accountability 
efforts. This information is being deposited into a secure database for 
future use.
    The United States has supported the establishment and mandate 
renewal of the independent international Commission of Inquiry (COI) on 
Syria, which was established in 2011 by the U.N. Human Rights Council 
with a mandate to investigate violations of international human rights 
and war crimes in Syria. The COI is working to establish the facts and 
circumstances of such violations, which may include war crimes, 
atrocities, and crimes against humanity, and, where possible, to 
identify the perpetrators with a view to ensuring that they are held 
accountable.
                                 ______
                                 

    Responses of Assistant Secretary Thomas Countryman to Questions 
                Submitted by Senator Benjamin L. Cardin

    On February 27, 2014, the United States Department of State issued 
its 2013 Human Rights Report on Syria, which described President Bashar 
al-Assad's use of ``indiscriminate and deadly force'' in the conflict , 
including the August 21, 2013, use of ``sarin gas and artillery to 
target East Ghouta and Moadamiya al-Sham, suburbs of Damascus, and 
killed over 1,000 people.''

    Question. What other types of weapons, conventional and 
unconventional, have been used to perpetrate war crimes and crimes 
against humanity in Syria?

    Answer. We continue to be gravely concerned by the Assad regime's 
indiscriminate attacks against the Syrian people. The Assad regime has 
engaged in unlawful attacks using a variety of means, including aerial 
bombing, artillery strikes, small arms fire, and, of course, chemical 
weapons.

    Question. Are you tracking the origins of specific weapons? If so, 
what can you tell us about the origins?

    Answer. We are following the support countries are providing to 
Syria, including weapons. The Russian Government continues to supply 
the Syrian regime, noting it is fulfilling its contracts with the 
government. Iran also continues to be a source of weapons. Separately, 
several countries in the region are providing assistance to the 
opposition. In addition, weapons have been smuggled out of Libya to 
Syria.
    If you would like additional, more detailed information, we would 
be pleased to arrange a classified briefing.
                                 ______
                                 


              Additional Material Submitted for the Record

 Letter Submitted by Syrian Opposition Coalition President Ahmad Jarba
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

              Statement of Basic Principles Submitted by 
                    the Syrian Opposition Delegation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                Statement Submitted by Save the Children

    Syria's three year civil war has had a devastating impact on 
children. At least 1.2 million children have fled the conflict and 
become refugees in neighboring countries, while another 4.3 million 
children in Syria are in need of humanitarian assistance. Children have 
witnessed and experienced extreme violence, and more than 10,000 young 
lives have been lost.
    It is not just the bullets and the shells that are killing and 
maiming children. They are also dying from the lack of basic medical 
care. As documented in Save the Children's report entitled, ``A 
Devastating Toll,'' Syria's health system has been devastated by the 
war. As a result, increasing numbers of children are suffering and 
dying from diseases that would previously either have been treated or 
prevented from taking hold in the first place.
    Across Syria, hospitals, clinics and pharmacies have been attacked 
and destroyed. Sixty percent of hospitals and 38 percent of clinics are 
no longer functioning. In Aleppo, a city that should have 2,500 
doctors, only 36 remain. Production of life-saving medicines has fallen 
by 70 percent.
    The few remaining facilities struggle to cope with the large number 
of patients who need treatment. Health workers, medical staff and 
patients, including children, have come under attack either en route to 
or inside medical facilities themselves. Homes are being used as 
makeshift hospitals, even turning living rooms into operating theaters.
    The impact on children is horrific. Children are having limbs 
amputated because the clinics don't have the equipment to treat them. 
Newborn babies are dying in incubators due to power cuts. Doctors are 
reported to be knocking out patients with metal bars for lack of 
anesthetics.
    Deadly diseases, such as measles and meningitis, are on the rise. 
Even polio, which was eradicated across Syria almost 20 years ago, is 
now being carried by up to 80,000 children across the country. 
Moreover, since the outbreak of the war, far too many children have 
died because they can't get treatment for life-threatening diseases 
such as cancer, epilepsy, diabetes and kidney failure.
    Serious steps must be taken to relieve the suffering of children in 
this conflict. To this end, we urge policymakers to take the following 
actions:

    1. Ensure that United Nations Security Council Resolution 2139 on 
humanitarian access is implemented immediately, to provide vaccines, 
food, water, medicines and other life-saving assistance. Humanitarian 
organization must have freedom of access in all areas. Aid must be 
allowed to cross conflict lines, enter besieged areas, through 
humanitarian pauses if necessary, and cross borders where this is the 
most direct route.
    2. Use diplomatic pressure to urge all parties to the conflict to 
cease targeting health facilities and to cease attacks on medical 
personnel to ensure that children can access medical treatment.
    3. Provide immediate investment in, and access to, child-focused 
health services to ensure that children are not dying from preventable 
and treatable injuries and illnesses.

    The international community is failing Syria's children, even as 
they are injured and wounded and are unable to access treatment, as 
they contract polio and other preventable diseases that kill and 
disfigure them, and as they suffer and die from not being able to get 
the right medicine. World leaders must stand up for the smallest 
victims of this conflict and send a clear message that their suffering 
and deaths will no longer be tolerated.
                                 ______
                                 

         Statement Submitted by Andrea Koppel, Vice President, 
                Global Engagement and Policy, MercyCorps

    Mercy Corps is an Oregon-based humanitarian and development 
nonprofit organization working in over 40 countries. Our mission is to 
alleviate suffering, poverty and oppression by helping people build 
secure, productive and just communities. For over 30 years, Mercy Corps 
has had a presence in the Middle East, working together with local 
partners to address humanitarian and protection needs, build the 
capacity of local and national governments, mitigate violence, and 
address the specific needs of children and youth.
    We greatly appreciate the attention this committee has paid to the 
Syrian crisis, and particularly, Chairman Menendez and Ranking Member 
Corker, for their leadership in highlighting the issues facing Syria, 
as well as its neighbors. As the crisis enters its fourth year, and as 
refugees continue to leave Syria en masse, the fabric of the Middle 
East is being dramatically altered. The number of Syrian refugees is 
estimated to reach 4 million by the end of 2014. One in four people 
living in Lebanon is already a Syrian refugee. And, Jordan's scarce 
natural and financial resources have been stretched to a breaking 
point.
    From our experience working in Syria and the refugee hosting 
countries of Iraq, Jordan and Lebanon, we believe it is imperative that 
the U.S. assistance policies shift gears and develop an integrated 
strategy that moves beyond basic provision of humanitarian assistance. 
The gravity of the challenge, and the shortage of funds,\1\ require 
that donor resources are spent smarter and more efficiently. To address 
the impact that this protracted crisis is having on the region, we urge 
you to support the following recommendations:
(1) Recalibrate the response strategy to strategically fund and 
        integrate relief and development
    To date, the bulk of the response efforts have focused on quick 
impact humanitarian response efforts, often at the detriment of 
development goals and the ability of refugee hosting communities to 
address and plan for the long-term consequences. Moving forward, the 
U.S. Government must align and equally prioritize development and 
humanitarian accounts and ensure they complement each other.
    Mercy Corps' recently released paper, ``Tapped Out: Water scarcity 
and refugee pressures in Jordan,'' provides a good case study to 
illustrate the pressures that the crisis is placing on the resources--
both natural and financial--of countries and communities throughout the 
region. Prior to the crisis Jordan's water supply was already on the 
edge of crisis and the country had been over-exploiting groundwater 
basins for a generation. Aquifer levels were declining at a rapid 
rate--over two meters a year in some places. Population growth, 
economic development, and climate change had placed dangerous burdens 
on precious supplies. Due to aging infrastructure, 76 billion liters of 
water a year--enough to meet the needs of 4 million people--are lost to 
leakage. Now, Jordan is running out of water. Refugee pressures have 
accelerated and complicated this trend and Jordan is drying up more 
quickly. As competition for scarce resources rises, tensions are also 
on the rise--both between refugees and hosts, as well as between host 
communities and their own governments. While recognizing the 
significant contributions the U.S., including the Millennium Challenge 
Corporation (MCC), has made to Jordan, we would recommend future U.S. 
investments scale-up in the following areas: (a) infrastructure 
improvements that focuses on needed repairs to key service sectors like 
water and health facilities; (b) repairs of existing infrastructure and 
training for maintenance personnel to preserve investments; (c) 
capacity building at the local, regional and national level for joint 
planning and community outreach; and (d) application of a conflict lens 
to all new initiatives. These types of interventions require long-term 
investments and funding. If done smartly, development support can 
mitigate the need for costly short-term fixes.
(2) Build the resilience of refugees and host communities
    As part of the U.S. response, we must emphasize ``resilience'' that 
is, building the capacity of communities to learn, cope, adapt, and 
transform in the midst of this crisis. Increasing the ability of 
communities to adapt and respond to shocks and stresses requires more 
than simply digging a well or building a new school. A cornerstone of 
the U.S.'s policy in responding to the Syria crisis must be a focus on 
supporting local institutions and build cross-community partnerships 
between refugees and host-communities. The U.S. Congress should 
encourage USAID, State, and other donors to invest in programs that 
support local actors who can ultimately manage, design, and implement 
programs that work in tandem with national response plans, and programs 
that strengthen partnerships between government and civil society. This 
will ensure that U.S. interventions are not just Band-Aids, but have a 
sustainable impact in the region.
(3) Invest in adolescents
    From our grassroots experience--and based on the findings of a 
recent Mercy Corps assessment on adolescents in Lebanon--we are seeing 
an entire generation of young people's dreams and opportunities for the 
future placed at risk. According to UNICEF, the crisis inside Syria 
affects 4.65 million children and an additional 1 million children have 
fled their country because of the violence, now living as refugees in 
camps and host communities in neighboring countries. Many of these 
refugees are in their adolescence, a time of life-changing biological 
and psychosocial events, and face uncertain futures because of the 
shocks and stresses of war, educational disadvantages, exposure to 
violence, and gender discrimination.
    Mercy Corps is concerned the growing number of adolescent refugees 
are not supported adequately by assistance programs. We call on 
Congress to increase funding for programs targeting adolescent refugees 
to address their unique psychosocial and developmental needs, including 
through programs that promote tolerance, build conflict mitigation and 
management skills, and strengthen young people's community engagement 
through involvement in quick-impact community projects.
    We appreciate the opportunity to present these recommendations, 
drawn from our on-the-ground experiences in the region, recent policy 
papers and assessment reports.\2\ Thank you again for the much-needed 
attention this committee has paid to the crisis and for your efforts to 
improve the lives of the Syrian people and their neighbors.
----------------
Notes

    \1\ For details on the most recent consolidated appeal, see online 
at: http://www.data.unhcr.org/syria-rrp6/regional.php.
    \2\ Mercy Corps recent policy papers include: ``Rethinking the 
Syrian Refugee Response'' available online at: http://
www.mercycorps.org/research-resources/charting-new-course-re-thinking-
syrian-refugee-response and ``Tapped Out: Water Scarcity and Refugee 
Pressures in Jordan'' available online at: http://www.mercycorps.org/
research-resources/tapped-out-water-scarcity-and-refugee-pressures-
jordan. Mercy Corps' assessment on adolescents is forthcoming and will 
be published and available online in April, 2014.
                                 ______
                                 

     Statement Submitted by Dr. Carolyn Y. Woo, President and CEO, 
                        Catholic Relief Services

``Too many lives have been shattered in recent times by the conflict in 
Syria, fueling hatred and vengeance. Let us continue to ask the Lord to 
spare the beloved Syrian people further suffering, and to enable the 
parties in conflict to put an end to all violence and guarantee access 
to humanitarian aid.''
                  Pope Francis' Christmas day message Urbi et Orbi.

    As President and CEO of Catholic Relief Services, I provide this 
written statement today to share the perspective of Catholic Relief 
Services (CRS), the official humanitarian agency of the Catholic 
community in the United States.
    Chairman Menendez, Ranking Member Corker, thank you for holding the 
hearing ``Syria after Geneva: Next Steps for U.S. Foreign Policy.'' 
With the Church across the globe, we solemnly mark the third 
anniversary of the beginning of this war and call for a renewed 
diplomatic effort to end the horrific bloodshed that has killed more 
than 130,000 people. While our staff and partners in the region are 
heroically responding to the human needs on the ground, their courage 
and commitment must be matched by an equal resolve to end this 
conflict.
    CRS and our partners are privileged to serve more than 350,000 
beneficiaries in response to the Syrian conflict, programming over $60 
million in assistance. About one-quarter of those funds are from U.S. 
Government agencies, and another quarter from private U.S. individuals 
and foundations. This testimony is based on CRS' experience responding 
to human needs throughout the region.
    As you consider next steps in U.S. foreign policy, CRS makes three 
main recommendations:
          (1) Recommit to serious negotiations to find a political 
        solution to the crisis, ensure impartial and neutral 
        humanitarian assistance, and seek to rebuild an inclusive 
        society in Syria that protects the rights of all its citizens, 
        including Christians and other minorities.
          (2) With donor governments and refugee host countries, 
        develop and fund a coordinated, long-term humanitarian and 
        development strategy for the region, including a contingency 
        plan and a plan for the resettlement of refugees.
          (3) Continue to prioritize adherence to international 
        humanitarian law, especially to protect civilians, lift all 
        sieges, and facilitate humanitarian access.
                    recommit to a political solution
    The conflict in Syria is among the worst in more than a generation. 
More than 130,000 people have been killed. The use of chemical weapons, 
barrel bombs, systematic torture, and violence against women has cause 
extreme suffering among countless victims. Traumatized, as many as 2.6 
million people have fled Syria. More than 9 million people are in need.
    With Pope Francis, we believe pursuit of military solutions is 
futile and will distract from serious diplomatic and political 
solutions. I reiterate the policy of the U.S. Conference of Catholic 
Bishops: ``The longstanding position of our Conference of Bishops is 
that the Syrian people urgently need a political solution that ends the 
fighting and creates a future for all Syrians, one that respects human 
rights and religious freedom.'' \1\
    The Bishops continue to ``ask the United States to work with other 
governments to obtain a cease-fire, initiate serious negotiations, 
provide impartial and neutral humanitarian assistance, and encourage 
building an inclusive society in Syria that protects the rights of all 
its citizens, including Christians and other minorities.'' \2\
    It is CRS' experience that Syrians are proudly moderate, educated, 
and cultured; a peaceful solution is possible. The solution, of course, 
lies within Syria, but the United States and the international 
community must do all we can to help.
    As a critical component of a diplomatic framework on Syria, the 
donor community must work with donor governments and refugee host 
countries to develop and fund a coordinated, long-term humanitarian and 
development strategy for the region, including a contingency plan and a 
plan for refugee resettlement.
    Outside of Syria, the region remains relatively stable given the 
enormous movements of people it is experiencing. The United Nations 
Office for the Coordination of Humanitarian Affairs (UNOCHA) put forth 
its largest humanitarian appeal ever in December, with $6.5 billion for 
the Syria response. Since the Kuwait Donor Pledging Conference in 
January, where $2.3 billion was pledged for Syria, only 14 percent of 
the appeal has been funded. The United States has been generous, but 
needs continue to grow. Through the FY 2015 appropriations process, 
Congress should provide robust humanitarian assistance to Syria at no 
less than FY 2014 levels.
    By coordinating assistance with other donors, the international 
community can improve the efficacy of assistance. U.S. Government 
assistance to date has been critical, and it must continue to lead, 
given the immense need. The U.S. Government should particularly engage 
Gulf States and other donors who could help fund the scale-up of 
programming. Donors should scale-up program funding to help restore 
livelihoods of refugees who will likely not return home soon; educate 
children who have already lost so much; and restore psycho-social 
support and peacebuilding programming to respond to emotional needs. As 
the United States own history with conflict has taught us, often the 
least visible wounds take the longest to heal.
    In addition to much needed humanitarian assistance, bilateral and 
development assistance will help neighboring countries to keep their 
borders open. While Jordan, Lebanon, Turkey, Egypt, and other countries 
have been extremely generous and hospitable to their Syrian neighbors 
fleeing the conflict, these societies are under extreme strain from the 
added burden of serving refugees, most of which are not in camps, but 
are living amidst the local population.
    Even when the conflict ends, the humanitarian need will be serious 
for years. The United States must support local institutions in refugee 
hosting countries, such as the schools and hospitals, both public and 
private, which have expanded services to accommodate refugees from 
Syria. Each country situation is different, but the consistent theme is 
that schools and hospitals cannot handle both the local population and 
the continued influx of refugees. Integration of humanitarian and 
development funding can ensure that needs of both vulnerable host 
communities and refugees from Syria are met.
    This long-term strategy should include a commitment to resettle 
refugees, especially vulnerable populations. Women and children are at 
risk for trafficking. As many as 4,000 unaccompanied refugee minors are 
in Jordan and Lebanon. Religious minorities, who have played a 
moderating role in the politics of the region, feel caught. And 
thousands of Iraqis who fled to Syria are now displaced a second time. 
These groups require particular attention which can be difficult to 
come by in communities accommodating so many refugees.
    The U.S. Government should resettle its fair share of refugees as 
part of this strategy, including 15,000 this year alone. We urge the 
Department of Homeland Security, in consultation with the Department of 
State and the Department of Justice, to remove expeditiously unjust 
impediments to U.S. resettlement by implementing discretionary 
authority to grant exemptions from overly broad terrorism related 
inadmissibility grounds (TRIG) of U.S. immigration law. I recommend to 
you the testimony by Most Reverend Eusebio Elizondo, M. Sp. to the 
Subcommittee on the Constitution, Civil Rights and Human Rights on 
January 7, 2014, on behalf of the United States Conference of Catholic 
Bishops.
    Diplomatic efforts must continue to exhort parties to the conflict 
to adhere to international humanitarian law, especially to lift sieges, 
protect civilians, and facilitate humanitarian access.
    Humanitarian assistance should not require negotiation, but the 
dignity and very lives of people on the ground require that any party 
with the power to ensure humanitarian access does all it can. Since the 
passage of U.N. Security Council Resolution 2139 in late February, 
parties to the conflict continue to impede humanitarian assistance.
    Hundreds of thousands of people remain under siege in cities across 
Syria. No diplomatic means should be spared to exhort parties to the 
conflict to lift sieges. Until sieges are lifted, it is critical to 
secure safe and unhindered evacuation of those who wish to leave. 
Convoys with food and critical medicines must be allowed unfettered 
access to those under siege. And vaccination campaigns must be 
permitted to continue.
    Even in areas not under siege, humanitarian access remains 
byzantine. The Assad regime must make good on its commitment to 
streamline processes for humanitarian assistance. The U.S. Government 
and other donors must work closely with countries neighboring Syria to 
provide cross-border access to millions of people in hard to reach 
places. Days of truce and pauses in fighting to allow for humanitarian 
assistance would help immensely.
    Dozens of humanitarian workers and medical care providers have been 
killed in Syria. To avoid more deaths, humanitarian assistance must 
remain impartial and neutral. Exemptions for humanitarian organizations 
to U.S. branding requirements are critical. Even the perception of 
affiliation of humanitarian assistance with the West can endanger 
humanitarian workers. The perception of biased aid emboldens the Assad 
regime to encumber aid.
    Finally, all diplomatic means must be undertaken to recover the 
civilian nature of key institutions. Schools and hospitals have been 
militarized and therefore targeted. The lives of Syrians are at risk, 
as is the future of those fortunate enough to survive.
    Mr. Chairman and Ranking Member, thank you for your attention to 
the concerns of Catholic Relief Services and our partner agencies. I 
join the United States Conference of Catholic Bishops in urging you to 
recommit to serious negotiations toward a political solution to the 
conflict in Syria. To help our international assistance reach more 
people, I recommend that you work with other donors to develop a longer 
term regional strategy. I ask you to work with the Committee on 
Appropriations subcommittees for State, Foreign Operations and Related 
Programs and Agriculture to adequately fund the humanitarian response 
in Syria. And I urge you to work with the Judiciary Committee so that 
the United States can do its part to resettle the neediest refugees. 
Please exhort parties to the conflict, and those who influence them, to 
adhere to international humanitarian law and protect civilians and 
humanitarian workers. The very stability of the entire region requires 
us to achieve these goals.
    In closing, I echo the words of Pope Francis' Vigil for peace, ``. 
. . I think of the children: look upon these . . . look at the sorrow 
of your brother, stay your hand and do not add to it, rebuild the 
harmony that has been shattered.'' When we look back at our response to 
the crisis in Syria, let us say we did all we could.

----------------
Notes

    \1\ Most Reverend Richard E. Pates, Bishop of Des Moines and Chair 
of the Committee on International Justice and Peace of the United 
States Conference of Catholic Bishops, letter to Secretary of State 
John Kerry, August 29, 2013.
    \2\ U.S. Conference of Catholic Bishops Administration Committee 
Statement on Syria, September 10, 2013.
                                 ______
                                 

      Statement Submitted by The Coalition for a Democratic Syria

          russia will not play a constructive diplomatic role
    On February 3, 2012, the Assad regime unleashed an unprecedented 
artillery bombardment on the Baba Amr area of Homs, then the power 
center of the Syrian opposition. Two days later, after the bloodiest 48 
hours of the Syrian Revolution to date, Russia and China vetoed action 
on the United Nations Security Council to stop the slaughter.
    In the aftermath of this infamous double-veto, President Barack 
Obama declared ``Any government that brutalizes and massacres its 
people does not deserve to govern.'' However, the statement of then-
U.N. Ambassador Susan Rice better encapsulates U.S. policy since 
February 2012. Referring to the decisions of Russia and China to veto, 
she stated, ``Any further bloodshed that flows will be on their 
hands.''
    The primary component of U.S. policy toward Syria since 2012 has 
been to shame Russia into easing its client dictator out of power, by 
reminding Russian President Vladimir Putin that the blood of Syrians 
lies on his hands. Since Ambassador Rice's statement, the death toll in 
Syria has risen from 7,500 to nearly 150,000. The Assad regime's 
crackdown has escalated to include aerial bombardments, Scud missiles, 
and chemical weapons. Syrians have suffered a historic humanitarian 
crisis worse than that of the Rwanda Genocide, including the first 
major chemical weapons attack in 25 years.
    Through all this, Russia has continued to back Assad to the hilt, 
even shipping offensive weapons to the regime on the eve of Geneva II 
talks this January. Yet Obama administration policy has relied, against 
all logic, on the hope that Putin could be shamed into abandoning his 
client in Damascus.
                 events in crimea have origins in syria
    It took the massacre of peaceful protesters in Kyiv by Putin's 
client Viktor Yanukovych, followed by the brazen Russian annexation of 
Crimea, for administration officials to finally grasp what Syrians have 
known for three years: Putin has no shame, and has no qualms supporting 
bloodshed on a massive scale.
    Syrian Americans were not surprised when Putin shrugged off the 
U.S.'s stern diplomatic warnings against aggressive action in Ukraine. 
The U.S. had delivered similar diplomatic warnings to the Assad regime 
before, and the regime had safely ignored each one, crossing red line 
after red line. In fact, each major diplomatic initiative on Syria has 
ended with an unprecedented military escalation by the Assad regime:

  <bullet> From November 2011-January 2012, Arab League observers 
        entered Syria to help implement a cease-fire agreement between 
        the regime and the Syrian opposition. The following month, 
        Assad forces commenced unprecedented artillery assaults on Bab 
        Amr.
  <bullet> From April 2012-May 2012, rebel Free Syrian Army forces 
        observed a ceasefire as part of the Geneva Plan negotiated by 
        UN-Arab League envoy Kofi Annan. In late May, Assad's 
        ``Shabiha'' paramilitaries killed over 100 civilians at Houla 
        in the worst massacre to date.
  <bullet> In May 2013, Secretary of State John Kerry attempted to 
        revive diplomatic talks in what was then dubbed ``Geneva II.'' 
        That same month, Hezbollah forces openly invaded Syria for the 
        first time to overtake the city of Qusair. Hezbollah has since 
        deployed throughout the country, tipping the balance of the war 
        and enflaming sectarian tensions across the region.
  <bullet> On August 18, 2013, U.N. inspectors arrived in Damascus to 
        investigate prior small-scale chemical weapons attacks. Three 
        days later, the Assad regime killed over 1,500 civilians in its 
        infamous Ghouta chemical attacks.
  <bullet> During ``Geneva II'' transition talks from January 22-
        February 17, Assad forces escalated their attacks with 
        unprecedented barrel bombings. The three weeks of Geneva II 
        talks were the bloodiest period in the history of the Syrian 
        Revolution.

    By the time Ukrainian President Viktor Yanukovych fled Kyiv on 
February 22, his backer Vladimir Putin knew that Russia could annex 
Crimea without risk of a damaging response from the United States. If 
Iran and its Hezbollah proxies could safely invade Syrian territory at 
Qusair with no penalty, why would it be any different for Russia in 
Crimea?
            the united states needs a more assertive policy
    By centering its Syria policy on Assad and Putin, in the futile 
hope that one or both would respond to diplomacy, the U.S. has lost a 
great deal of global credibility. The consequences of this lost 
credibility can be expected to increase, as transnational extremists 
flood into Syria and Russian troops mass in western Crimea. Yet the 
U.S. can begin to restore its lost credibility by revamping its Syria 
policy, and taking the following steps:

1. Withdraw legal recognition from and sever diplomatic ties to the 
        Assad dictatorship
    Withdrawing diplomatic ties would send a firm statement to the 
international community that war crimes like Assad's have consequences, 
and would encourage defections from regime forces.
    The Syrian American community encourages Congress members to 
support H. Res. 520, which urges the Administration and U.S. allies to 
``formally withdraw their recognition of Bashar al-Assad's regime as 
the rightful Government of Syria, unless and until the Assad regime and 
its supporting militias discontinue their barbaric slaughter.'' We also 
encourage the introduction of a companion bill in the Senate.
2. Demand that the Obama administration explain its plan to address the 
        deteriorating situation
    The lack of a clear U.S. policy on Syria in the face of escalating 
violations by Assad, Hezbollah, Iran and Russia gives these violators a 
dangerous sense of impunity with far-reaching implications. Syrian 
Americans wish to see the formulation of such a policy as soon as 
possible.
    We urge Congress Members to support H. Res. 520 and S. Res. 384, 
each of which calls on the President to develop and submit to Congress 
within 90 days ``a strategy for United States engagement on the Syria 
crisis, with a specific focus on humanitarian assistance and 
development, and protecting human rights in Syria and in the region.''
3. Use H. Res. 520, S. Res. 384, and U.N. Security Council Resolution 
        2139 to pressure both Assad and Russia on the provision of 
        humanitarian access to besieged areas
    Both H. Res. 520 and S. Res. 384 urge ``unfettered access to 
humanitarian aid throughout the Syrian Arab Republic, respecting the 
safety, security, independence, and impartiality of humanitarian 
workers and ensuring freedom of movement to deliver aid.'' UNSC 
Resolution 2139 demands that ``all parties, in particular the Syrian 
authorities, allow rapid, safe, and unhindered U.N. humanitarian access 
for U.N. humanitarian agencies across conflict lines.''
    UNSC 2139 is of particular note because even Russia endorsed it, 
yet Assad continues to deny humanitarian assistance. The United States 
can restore some of its lost international credibility by pressuring 
Russia to live up to its word. Congress can push the Administration to 
back enforcement of UNSC 2139 by passing H. Res. 520 and S. Res. 384.
                                 ______
                                 

                             [all]
</pre></body></html>
